<html>
<title> - TRIBAL PROPOSALS TO ACQUIRE LAND-IN-TRUST FOR GAMING ACROSS STATE LINES AND HOW SUCH PROPOSALS ARE AFFECTED BY THE OFF-RESERVATION DISCUSSION DRAFT BILL.</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  TRIBAL PROPOSALS TO ACQUIRE LAND-IN-TRUST FOR GAMING ACROSS STATE 
   LINES AND HOW SUCH PROPOSALS ARE AFFECTED BY THE OFF-RESERVATION 
                        DISCUSSION DRAFT BILL.

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday, April 27, 2005

                               __________

                            Serial No. 109-9

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-969                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Devin Nunes, California              Mark Udall, Colorado
Henry Brown, Jr., South Carolina     Dennis Cardoza, California
Thelma Drake, Virginia               Stephanie Herseth, South Dakota
Luis G. Fortuno, Puerto Rico
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel


                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, April 27, 2005........................     1

Statement of Members:
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin...............................................     2
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Abrams, Rev. Cynthia J., Director, Alcohol, Other Addictions, 
      and Health Care Work Area, General Board of Church and 
      Society of the United Methodist Church.....................    42
        Prepared statement of....................................    43
    Blackdeer, Hon. Wade, Vice-President, Ho-Chunk Nation........    16
        Prepared statement of....................................    18
    Blind, William, Vice-Chairman, Cheyenne and Arapaho Tribes of 
      Oklahoma...................................................    20
        Prepared statement of....................................    22
    Brady, Steve, Sr., Co-Chair, Northern Cheyenne Sand Creek 
      Massacre Site Committee, and President, Northern Cheyenne 
      Sand Creek Massacre Descendants............................    34
        Prepared statement of....................................    35
        Response to questions submitted for the record by Otto 
          Braided Hair on behalf of the Northern Cheyenne Sand 
          Creek Massacre Committee...............................    48
    Burzynski, Hon. J. Bradley, State Senator, 35th District, 
      State of Illinois..........................................    23
        Prepared statement of....................................    25
    Enyart, Charles D., Chief, Eastern Shawnee Tribe of Oklahoma.    11
        Prepared statement of....................................    13
        Response to questions submitted for the record...........    53
    Foltin, Hon. Craig, Mayor, City of Lorain, Ohio..............    27
        Prepared statement of....................................    29
        Response to questions submitted for the record...........    59
    Jackson, Hon. Jesse L., Jr., a Representative in Congress 
      from the State of Illinois.................................     7
        Prepared statement of....................................     9
    Kindt, John Warren, Professor, University of Illinois........    36
        Prepared statement of....................................    38
        Response to questions submitted for the record...........    61
    Weller, Hon. Jerry, a Representative in Congress from the 
      State of Illinois..........................................     3
        Prepared statement of....................................     5


  OVERSIGHT HEARING ON TRIBAL PROPOSALS TO ACQUIRE LAND-IN-TRUST FOR 
 GAMING ACROSS STATE LINES AND HOW SUCH PROPOSALS ARE AFFECTED BY THE 
                 OFF-RESERVATION DISCUSSION DRAFT BILL.

                              ----------                              


                       Wednesday, April 27, 2005

                     U.S. House of Representatives

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to notice, at 11:09 a.m., in 
Room 1324, Longworth House Office Building, Hon. Richard W. 
Pombo [Chairman of the Committee] presiding.
    Present: Representatives Pombo, Radanovich, Walden, Nunes, 
Drake, Fortuno, Kildee, Kind, Inslee, Tom Udall, Bordallo, 
Herseth and Costa.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. The Committee on Resources will come to 
order. The Committee is meeting today to hear testimony on 
tribal proposals to acquire land-in-trust for gaming and how 
such proposals are affected by the off-reservation discussion 
draft bill that I proposed.
    Under Rule 4(g) of the Committee Rules, any oral opening 
statements at hearings are limited to the Chairman and Ranking 
Minority Member. This will allow us to hear from our witnesses 
sooner and help Members keep to their schedules. Therefore, if 
other Members have statements, they can be included in the 
hearing record under unanimous consent.
    I ask unanimous consent that my entire opening statement 
will be in the record. I am going to just abbreviate my opening 
statement because of the late beginning of the hearing.
    The purpose of today's hearing is to continue the 
Committee's inquiry into off-reservation gaming. Last month the 
Committee held a hearing on a discussion draft bill I authored 
that would restrict and reform the process by which newly 
acquired off-reservation lands are taken into trust for gaming 
purposes. Committee members and witnesses both provided 
excellent analysis of the draft bill. It has also resulted in a 
tremendous amount of unsolicited input from tribes, local 
leaders and private citizens across the Nation.
    Today's hearing will focus on one aspect of the discussion 
draft bill, the provision dealing with tribes seeking trust 
lands for gaming in States where they don't reside. There is no 
official list of tribes in this situation, but one tribal 
witness in the last hearing provided a good list of such 
proposals.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    The purpose of today's hearing is to continue the Committee's 
inquiry into off-reservation gaming. Last month, the Committee held a 
hearing on a discussion draft bill I authored that would restrict and 
reform the process by which newly-acquired, off-reservation lands are 
taken into trust for gaming purposes. Committee Members and witnesses 
both provided excellent analysis of the draft bill. It has also 
resulted in a tremendous amount of unsolicited input from tribes, local 
leaders, and private citizens across the nation.
    Today's hearing will focus on one aspect of the discussion draft 
bill, the provision dealing with tribes seeking trust lands for gaming 
in states where they don't reside. There is no official list of tribes 
in this situation, but one of the tribal witnesses in the last hearing 
provided a good list of such proposals. According to this list, tribes 
from certain states have attempted to negotiate gaming rights in at 
least twelve other states. Although details of the efforts are not 
always available, it appears that in most if not all cases, the gaming 
would be conducted under the Indian Gaming Regulatory Act.
    While the Act generally prohibits this type of off-reservation 
gaming, exceptions are available depending on the willingness of the 
Interior Secretary and the governor of the affected state to play ball. 
It's just not clear what will happen in every case.
    Regardless, these proposals have stirred up strong feelings among 
Members of Congress, governors, tribal leaders, tribal members, city 
and county leaders, and private citizens.
    The discussion draft bill contains a section intended to bar such 
efforts to build casinos across state lines. It would be useful for the 
Committee to become better acquainted with several of the proposals and 
whether such proposals should be barred or allowed.
    Before I recognize the Ranking Member, I want to note that the New 
York Land Claim is not the focus of today's hearing, even though it 
involves proposals relating to cross-state gaming. This issue is fairly 
unique and it would be better focus on what's happening in the rest of 
the United States before turning the committee's attention to that 
situation.
                                 ______
                                 
    The Chairman. I would like to introduce our first panel of 
witnesses. Two of our distinguished colleagues from the State 
of Illinois, Congressman Jerry Weller of Illinois, 11th 
District, and Congressman Jesse Jackson, Jr. of Illinois' 2nd 
District. Let me take time to remind all of our witnesses today 
that under Committee Rules oral statements are limited to 5 
minutes. Your entire statement will appear in the record.
    Mr. Kind. Mr. Chairman, may I be recognized for a brief 
moment?
    The Chairman. Mr. Kind?

 STATEMENT OF THE HON. RON KIND, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Kind. Thank you, Mr. Chairman. Mr. Chairman, first of 
all, I want to thank you for holding yet another hearing on 
this very important issue and your proposed draft that we have 
been trying to work on together. I think this is a very serious 
issue. I am looking forward to hearing our colleagues' 
testimony today as well as the testimony of the other witnesses 
on the second panel, one of whom I just want to especially 
welcome. He has been a good friend of mine for many years, but 
even more importantly, he has been a great leader of the Ho-
Chunk Nation in Wisconsin, a great community leader. That is 
Wade Blackdeer, who will be on the second panel. We will look 
forward to hearing his testimony as well as the testimony of 
the other witnesses today.
    The Chairman. Thank you.
    Mr. Kind. Thank you, Mr. Chairman.
    The Chairman. We are going to begin with our first panel. 
Mr. Weller, we are going to start with you.

    STATEMENT OF THE HON. JERRY WELLER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Weller. Thank you, Mr. Chairman and members of the 
Resources Committee, for this opportunity to testify on a very 
important subject.
    Mr. Chairman, I want to make it clear I am a supporter of 
your legislation, which I believe is good reform legislation. 
It takes into consideration the concerns of tribal governments 
as well as the States and I want to commend you for working in 
a bipartisan manner. I appreciate the time you and your 
Committee are taking to examine off-reservation gaming and its 
impact on tribal and non-tribal communities alike.
    This reform legislation prevents federally recognized 
tribes from crossing State lines to set up gaming facilities in 
a different State than where they current reside; it prevents 
federally recognized tribes from opening gaming facilities 
outside of their existing lands in the State where they 
currently reside; and perhaps most importantly, it gives the 
Secretary of Interior much clearer guidance about the limited 
area where a newly recognized, restored or landless tribe can 
conduct gaming operations. I believe this is the right type of 
reform for this issue, and I am happy to be here in support of 
your legislation.
    First, let me make it clear that I am a supporter of tribal 
gaming, with the benefits that it brings to tribal governments 
and the communities they serve. I strongly support tribal 
sovereignty and self-determination of Native Americans, our 
first Americans.
    As former Chairman of the Congressional Gaming Caucus, I 
have supported all forms of gaming, provided they act in 
accordance with the clearly defined and commonly accepted laws 
and regulations that govern gaming in the United States.
    However, I cannot support attempts to circumvent these 
established procedures to create opportunities for gaming, 
tribal or otherwise. It is this aspect upon which I appear 
before you today.
    As you know, Mr. Chairman, Congress passed the Indian 
Gaming Regulatory Act in 1988, when it was enacted into law. 
The law has been successful in many ways. According to the 
National Indian Gaming Association there are 354 tribally 
operated casinos that employ approximately 400,000 U.S. 
citizens.
    In 2002, tribal governmental gaming revenue was at $14.5 
billion, representing one-fifth of all of the nationwide gaming 
revenue, benefiting tribes and tribal governments by providing 
an opportunity for better education for children, health care 
and housing for elders, and new economic opportunity for all in 
the tribal community as well as their neighbors.
    The Act laid out the process by which a tribe could 
lawfully conduct any gaming, but most specifically, Class III 
gaming of the type commonly played at casinos such as slot 
machines, black jack, craps and roulette.
    However, there has been an increase in proposals to create 
off-reservation gaming in extra-legal ways, seriously 
threatening the purposes of this Act in several States, 
including Ohio, California, Kansas, Minnesota and my home State 
of Illinois.
    In Illinois, the Ho-Chunk Nation of Wisconsin is seeking to 
establish tribal gaming in Lynwood, located only a few miles 
away from my congressional district. Originally, the Ho-Chunk 
Nation had publicly stated its interest in two other sites in 
Illinois. This is a perfect example of an instance where the 
process of establishing a casino under IGRA should be adhered 
to.
    The Ho-Chunks have purchased approximately 130 acres of the 
260 acres designed for a casino complex. In order to create 
this complex, they pursued a dual-track strategy. The first 
part of the strategy was to seek legislation in Congress that 
would put their project on a ``fast-track,'' circumventing 
existing law. I strongly object to this, and fortunately, no 
such legislation has bee introduced yet in this Congress.
    The other approach was to go through the regular procedures 
as provided under IGRA by seeking to place the land in a trust, 
which I have been informed the Ho-Chunks are preparing.
    I do not believe the Ho-Chunks meet the requirements for 
having land placed into trust; yet should they meet them, I 
have no objections to their establishment of commercial 
operations.
    However, the fact that the Ho-Chunks sought to use a 
process outside of IGRA clearly underscores the need to clarify 
and strengthen the protections and processes for the 
establishment of tribal gaming.
    While I am opposed to tribes circumventing the law to 
establish gaming, I want to be clear that I am not opposed to 
current law which allows for lands taken into trust as part of 
a land claim settlement to be used for gaming. However, I do 
want to make certain that these claims are legitimate.
    Perhaps one way to address this problem is to look at the 
work of past congresses. For example, I understand the 1982 
Congress directed the Department of Interior to establish a 
list of all tribal claims for money damages, which included 
land claims because of the associated claim for trespass 
damages.
    In 1983, the Department of the Interior published such a 
list in the Federal Register. Because this list predates the 
Indian Gaming Regulatory Act, we can feel confident that the 
tribal claims listed were not manufactured for the purpose of 
advancing casino projects. This list could be used as a bright 
line test, which communities could look to in determining 
whether they should be concerned with proposals by tribes or 
others who might seek to promote a tribal casino in their area.
    This is but one suggestion among the many ways that 
Congress can act to clarify the legal process by which a tribe 
may establish gaming. I ask that you consider this as a 
possibility while you continue to work on the excellent bill 
you have produced in this Committee.
    By following through on these reforms, Congress can 
alleviate the negative image that tribal gaming has taken on as 
a result of efforts to establish off-reservation gaming. In 
doing so, it will allow Congress to act on issues of importance 
to the Native American community such as tax-exempt economic 
bonding, Indian health care and appropriate appropriations 
without fearing backlash resulting from negative publicity and 
press stories about off-reservation gaming.
    Further, under a clearly defined process, tribes will be 
able to continue gaming in such a way to boost reservation 
economies and better the lives of tribal members.
    Again, Mr. Chairman, members of the Committee, thank you 
for the opportunity, and I look forward to working with you and 
moving forward on this important reform legislation.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Weller follows:]

 Statement of The Honorable Jerry Weller, a Representative in Congress 
                       from the State of Illinois

    Mr. Chairman, Members of the Committee, thank you for inviting me 
to testify at this important hearing. I am a supporter of your 
legislation, good reform legislation that takes into consideration the 
concerns of Tribal Governments and States, in a bi-partisan manner, I 
appreciate the time you are taking to examine off-reservation gaming 
and it's impact on tribal and non-tribal communities alike.
    Mr. Chairman, with your permission, I would like to submit my 
written statement for the record.
    This reform legislation prevents federally recognized tribes from 
crossing state lines to set up gaming facilities in a different state 
than where they currently reside; it prevents federally recognized 
tribes from opening gaming facilities outside of their existing lands 
in the state where they currently reside; and perhaps most importantly, 
it gives the Secretary of Interior much clearer guidance about the 
limited area where a newly recognized, restored, or landless tribe can 
conduct gaming operations. I believe this is the right type of reform 
for this issue, and I am happy to speak in support of it.
    First, I am a supporter of tribal gaming, with the benefits that it 
brings to Tribal Governments and the communities they serve. I strongly 
support tribal sovereignty and self-determination of Native Americans, 
our first Americans.
    As former Chairman of the Congressional Gaming Caucus, I have 
supported all forms of gaming, provided that they act in accordance 
with the clearly defined and commonly accepted laws and regulations 
that govern gaming in the United States.
    However, I cannot support attempts to circumvent these established 
procedures to create opportunities for gaming, tribal or otherwise.
    It is this aspect upon which I appear before you today.
    As you know, Congress passed the Indian Gaming Regulatory Act, 
(IGRA), 1988, which was enacted into law.
    The law has been successful in many ways. According to the National 
Indian Gaming Association, there are 354 tribally operated casinos that 
employ approximately 400,000 people.
    In 2002, Tribal Governmental gaming revenue was $14.5 billion (21% 
of total gaming industry), which benefited tribes and Tribal 
Governments by providing better education for their children, health 
care and housing for their elders, and new economic opportunity for all 
in the tribal community.
    The Act clearly laid out the process by which a tribe could 
lawfully conduct any gaming, but most specifically, Class III gaming of 
the type commonly played at casinos, such as slot machines, black jack, 
craps, and roulette.
    The Act stated that--Before a Tribe might lawfully conduct Class 
III gaming; the following conditions must be met:
    (1)  The Particular form of Class III gaming that the Tribe wants 
to conduct must be permitted in the state in which the tribe is 
located;
    (2)  The Tribe and the state must have negotiated a compact that 
has been approved by the Secretary of the Interior, or the Secretary 
must have approved regulatory procedures; and
    (3)  The Tribe must have adopted a Tribal gaming ordinance that has 
been approved by the Chairman of the Commission.
    However, there has been an increase in proposals to create off 
reservation gaming in extra-legal ways, seriously threatening the 
purposes of the Act in several States, including Ohio, California, 
Kansas, Minnesota, and my home State of Illinois.
    In Illinois, the Ho-Chunk Nation of Wisconsin is seeking to 
establish tribal gaming in Lynwood, located only a few miles away from 
my Congressional District. Originally, the Ho-Chunk Nation had publicly 
stated its interest in two other sites in Illinois.
    This is a perfect example of an instance where the process of 
establishing a casino under IGRA should be adhered.
    The Ho-Chunks have purchased approximately 130 acres of the 260 
acres desired for a casino complex, and in order to create this 
complex, they pursued a dual-track strategy.
    The first part of this strategy was to seek a bill in Congress that 
would put their project on a ``fast-track,'' circumventing existing 
law. I strongly objected to this and fortunately, no such legislation 
has been introduced in this Congress.
    The other approach was to go through the regular procedures as 
provided under IGRA by seeking to place the land into trust, which I 
have been informed the Ho-Chunks are preparing.
    I do not believe that the Ho-Chunks meet the requirements for 
having land placed into trust, yet should they meet them; I have no 
objections to their establishment of commercial operations.
    However, the fact that the Ho-Chunks sought to use a process 
outside of IGRA clearly underscores the need to clarify and strengthen 
the protections and processes for the establishment of tribal gaming.
    While I am opposed to tribes circumventing the law to establish 
gaming, I want to be clear that I am not opposed to current law which 
allows for lands taken into trust as part of a land claim settlement to 
be used for gaming.
    However, I do want to make certain that the claims are legitimate.
    Perhaps one way to address this problem is to look to the work of 
past Congresses. For example, I understand that in 1982 Congress 
directed the Department of the Interior to establish a list of all 
tribal claims for money damages, which included land claims because of 
the associated claim for trespass damages.
    In 1983, the Department of the Interior published such a list in 
the Federal Register. Because this list predates the Indian Gaming 
Regulatory Act, we can feel confident that the tribal claims listed 
were not manufactured for the purpose of advancing casino projects.
    This list could be used as a bright line test, which communities 
could look to in determining whether they should be concerned with 
proposals by tribes or others who might seek to promote a tribal casino 
in their area.
    This is but one suggestion among the many ways that Congress can 
act to clarify the legal process by which a tribe may establish gaming. 
I ask that you consider this as a possibility while you continue to 
work on the excellent bill that you have produced in this committee.
    By following through on these reforms, Congress can alleviate the 
negative image that Tribal Gaming has taken on as a result of efforts 
to establish off-reservation gaming.
    In doing so, it will allow Congress to act on issues of importance 
to the Native American community such as tax-exempt bonding, Indian 
health care, and regular appropriations without the fear of backlash 
resulting from bad publicity and negative news stories about American 
Indian tribes and tribal gaming today.
    Further, under a clearly defined process, Tribes will be able to 
continue gaming in such a way as to boost reservation economies and 
better the lives of tribal members.
    Again, Chairman Pombo, and members of the Committee, thank you for 
your attention to this important issue.
    Mr. Chairman, with that I conclude my remarks, and welcome whatever 
questions the Committee may have of me.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Jackson?

 STATEMENT OF THE HON. JESSE L. JACKSON, JR., A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Jackson. Chairman Pombo, Ranking Member Rahall and 
members of the Committee, I appreciate the opportunity to 
testify this morning on the subject of off-reservation gaming 
and on the draft bill intended to restrict it.
    Mr. Chairman, I commend you for your efforts to seek input 
from all interested parties and to work in a cooperative way to 
craft sensible policies that improve the lives of Native 
Americans. I share your goals and commitment to protect, 
preserve and strengthen the sovereignty, self-determination and 
economic opportunities for all in the tribal community.
    Clearly, the issue of ``reservation shopping'' in which a 
tribe seeks title to prime real estate to which they have 
absolutely no connection in order to set up a casino far from 
their reservation is both controversial and complicated. It, 
however, is different from out of State off-reservation gaming, 
in which a tribe located in one State seeks to establish gaming 
on land in another State where that tribe has historic, 
cultural and ethnographic ties. If allowed to become routine, I 
believe that reservation shopping has the potential to pit one 
tribe against another, to erode public support for Indian 
gaming and to undermine the economic growth and potential of 
Indian Country.
    In my view, any attempts by an Indian tribe to establish 
gaming facilities on land to which they have no historic, 
ethnographic or cultural ties is impractical, imprudent and 
improper. While not readily apparent to me how prevalent or 
pressing the practice, I would support reasonable and precise 
efforts to prevent reservation shopping by tribes throughout 
the country.
    However, I strongly oppose provisions of this bill that 
would bar a tribe in one State from locating a casino in 
another State on land to which the tribe has historic or 
cultural connections. Without a doubt there is a clear and 
sharp distinction to be made between reservation shopping on 
the one hand and out of State off-reservation gaming on the 
other. The former is illegitimate, the latter is not. 
Therefore, the prohibition on one should not lead to the 
preclusion of the other. For the purposes of our discussion and 
crafting sound policy, we must resist any temptations or 
tendencies to equate the two.
    Thus, I believe that imposing an outright across-the-board 
ban on out-of-State off-reservation gaming would be too broad, 
too unfair, too severe, and too punitive. It simply would be 
wrong. As allowed under current law Indian tribes like the Ho-
Chunk Nation should be allowed to reacquire or recover a 
portion of their ancestral lands in another State in order to 
establish a gaming facility.
    Based today in Wisconsin, the Ho-Chunks claim a 10,000-year 
history in present-day Illinois. In the 17th century, the 
historic territory of the Ho-Chunks, then known as the 
Winnebago, included parts of Illinois, Wisconsin, Minnesota and 
Iowa. After rich deposits of lead were discovered by European 
miners under tribal land, the Ho-Chunks ceded the northwestern 
territory by the Treaty of 1829, marking the beginning of long 
and tragic successive relocations, often by force, by the U.S. 
Government. But now in the words of one of the Nation's elected 
representatives, I quote, ``the Ho-Chunk are knocking at the 
door and wish to come home.''
    My district, which includes the far south suburbs of 
Chicago, is indeed prepared to welcome them back to Illinois 
with open arms.
    Last year, the Ho-Chunk Nation, which runs several casinos 
in Wisconsin, announced plans to build a 432-acre family 
entertainment destination in Lynwood, Illinois. The Ho-Chunk 
entertainment complex would feature a land-based casino, as 
well as restaurants, retail stores, a luxury hotel, a water 
park, a spa, a sports complex, a Native American museum and Pow 
Wow grounds.
    Amid regional economic stagnation and neglect, the family 
entertainment facility would serve as a vital economic engine, 
bringing millions in revenue and thousands of jobs to an area 
in the State that so desperately needs them. Based on 
projections, the new complex would create 5,000 new jobs with 
an average salary of $45,000. That is $16,000 greater than the 
region's per capita average. In addition, the massive economic 
development project would generate $64 million in wages during 
construction and $78 million in payroll taxes each year.
    Since the announcement the Ho-Chunk's proposal has 
generated broad civic, business and political support in the 
south suburbs. The Village of Lynwood and virtually all of the 
local community surrounding it support the Ho-Chunk proposal, 
including the Villages of Calumet City, Steger, Glenwood, the 
Township of Bloom, as well as mayors in nearby communities of 
Lansing, Thornton, East Hazel Crest and Sauk Village. In 
addition, it has the backing of the Southland Chamber of 
Commerce, the Illinois AFL-CIO and the local elected officials 
in the Illinois General Assembly, including State Senate 
Majority Leader Debbie Halvorson, as well as Chairman of the 
Southland Caucus, State Representative David Miller.
    Mr. Chairman, I ask unanimous consent that the official 
letters and resolutions supporting the Ho-Chunk proposal from 
surrounding communities be placed in the record immediately 
following my testimony.
    Under current regulations set forth in 25 C.F.R., the Ho-
Chunk must submit their application to take the Lynwood land 
into trust in order to establish the casino complex. As members 
of the Committee well know, these regulations require the 
Department of the Interior to carefully scrutinize the Indian 
tribe's, quote, ``need for additional land,'' end quote, 
purpose for which the land will be used, the impact on State 
and local governments, and, quote, ``jurisdictional problems 
and potential conflicts of lands which may arise.''
    Revised in 1995, Part 151 regulations explicitly address 
decisionmaking on applications to take off-reservation land 
into trust, requiring among other things, that as the distance 
from the reservation increases, even greater scrutiny, Mr. 
Chairman, be given to the tribe's application and greater 
weight be given to the acquisition's potential impacts on the 
regulatory and taxing jurisdictions of the local and State 
Governments.
    Mr. Chairman, if I might have just an additional minute, I 
will conclude my remarks.
    Mr. Chairman, if the Ho-Chunk proposal meets the 
requirements of 25 C.F.R. Part 151, then the Secretary must 
make a finding under a two-part determination exception in 
Section 20 (b)(I)(A) of the Indian Gaming Regulatory Act. 
Specifically, these sections provide that gaming can occur on 
land if the Secretary, after consultation with Indian tribes 
and appropriate State and local officials, including officials 
of nearby tribes, determines that a gaming establishment of the 
newly acquired lands (1) would be in the interest of Indian 
tribe and its members, and (2) would not be detrimental to the 
surrounding community. In addition the Governor of the State 
must concur with the Secretary's determination. In fact, since 
October of 1988, State Governors have concurred on only 3 
positive determinations of gaming on such tribal lands.
    Therefore, the statutory and regulatory framework currently 
in place provides an important, necessary and rigorous process 
by which the Ho-Chunk Nation has an opportunity, not a 
guarantee, to regain their ancestral land on which to develop 
the proposed complex. In my view, 25 C.F.R. Part 151 and IGRA's 
20(b)(I)(A), taken separately and together, establish and 
permit appropriate safeguards, input, checks and balances, and 
scrutiny among Federal, State and local tribal communities. The 
existing approval process is deliberative, it is detailed, it 
is careful and it is circumspect, and Mr. Chairman, it simply 
works.
    Finally, Mr. Chairman, however in its current form, the 
draft bill would break this process, throwing out the two-part 
determination exception under IGRA and eliminating reasonable 
options by which tribes such as the Ho-Chunk may take land into 
trust for gaming purposes.
    Mr. Chairman, I would urge you to keep the existing 
provisions of IGRA and allow tribes under certain circumstances 
and thorough scrutiny, an opportunity to acquire land in 
another State.
    I thank the Chairman, Ranking Member Rahall, members of the 
Committee for allowing me the opportunity to testify before 
you. I appreciate the Committee's time and attention and look 
forward to working with you to address important matters 
affecting Native Americans.
    I thank the Chairman and I thank members of the Committee.
    [The prepared statement of Mr. Jackson follows:]

 Statement of The Honorable Jesse L. Jackson, Jr., a Representative in 
                  Congress from the State of Illinois

    Chairman Pombo, Ranking Member Rahall and Members of the Committee, 
I appreciate the opportunity to testify this morning on the subject of 
off-reservation gaming and on the draft bill intended to restrict it.
    Mr. Chairman, I commend you for your efforts to seek input from all 
interested parties and to work in a cooperative way to craft sensible 
policies that improve the lives of Native Americans. I share your goals 
and commitment to protect, preserve and strengthen the sovereignty, 
self-determination and economic opportunities for all in the tribal 
community.
    Clearly, the issue of ``reservation shopping,'' in which a tribe 
seeks title to prime real estate to which they have absolutely no 
connection in order to set up a casino far from their reservation is 
both controversial and complicated. It, however, is different from 
``out-of-state, off-reservation gaming'' in which a tribe located in 
one state seeks to establish gaming on land in another state, where 
that tribe has an historic, cultural or ethnographic tie. If allowed to 
become routine, I believe that ``reservation shopping'' has the 
potential to pit tribe against tribe, to erode public support for 
Indian gaming and to undermine the economic growth and potential of 
Indian Country.
    In my view, any attempts by an Indian tribe to establish gaming 
facilities on land to which they have no historic, ethnographic, or 
cultural ties is impractical, imprudent and improper. While not readily 
apparent to me how prevalent or pressing the practice, I would support 
reasonable and precise efforts to prevent ``reservation shopping'' by 
tribes throughout the country.
    However, I strongly oppose provisions in the draft bill that would 
bar a tribe in one state from locating a casino in another state on 
land to which the tribe has an historic or cultural connection. Without 
a doubt, there is a clear and sharp distinction to be made between 
``reservation shopping'' on the one hand and ``out-of-state, off-
reservation gaming'' on the other. The former is illegitimate; the 
latter is not. Therefore, the prohibition on one, should not lead to 
the preclusion of the other. For the purposes of our discussion and 
crafting sound policy, we must resist any temptation or tendency to 
equate the two.
    Thus, I believe that imposing an outright, across-the-board ban on 
``out-of-state, off-reservation gaming'' would be too broad, too 
unfair, too severe, and too punitive. It simply would be wrong. As 
allowed under current law, Indian tribes, like the Ho-Chunk Nation, 
should be allowed to ``re-acquire'' or ``recover'' a portion of their 
ancestral lands in another state in order to establish a gaming 
facility.
    Based today in Wisconsin, the Ho-Chunks claim a 10,000-year history 
in present day Illinois. In the 17th Century, the historic territory of 
the Ho-Chunks, then known as the Winnebago, included parts of Illinois, 
Wisconsin, Minnesota and Iowa. After rich deposits of lead were 
discovered by European miners under tribal land, the Ho-Chunk ceded the 
northwestern Illinois territory by the Treaty of 1829, marking the 
beginning of long and tragic successive relocations, often by force, by 
the United States Government. But, now, in the words of one of the 
Nation's elected representatives, ``the Ho-Chunk are knocking at the 
door and wish to come home.''
    My district, which includes the far south suburbs of Chicago, is 
indeed prepared to welcome them back home to Illinois with open arms.
    Last year, the Ho-Chunk Nation, which runs several casinos in 
Wisconsin, announced plans to build a 432-acre family entertainment 
destination in Lynwood, Illinois. The Ho-Chunk Entertainment Complex 
would feature a land-based casino, as well as restaurants, retail 
stores, a luxury hotel, a water park, a spa and sports complex, a 
Native American museum and Pow Wow grounds.
    Amid regional economic stagnation and neglect, the family 
entertainment facility would serve as a vital economic engine, bringing 
millions in revenue and thousands of jobs to an area in the state that 
so desperately needs them. Based on projections, the new complex would 
create 5,000 new jobs paying an average salary of $45,000 annually--
that is $16,000 greater than the region's per capita average. In 
addition, the massive economic development project would generate $64 
million in wages during construction and $78 million in payroll taxes 
each year.
    Since the announcement, the Ho-Chunk's proposal has generated broad 
civic, business and political support in the south suburbs. The Village 
of Lynwood, and virtually all of the local communities surrounding it 
support the Ho-Chunk proposal, including the Villages of Calumet City, 
Steger and Glenwood, the Township of Bloom, as well as the Mayors of 
nearby communities Lansing, Thornton, East Hazel Crest and Sauk 
Village. In addition, it has the backing of the Southland Chamber of 
Commerce, the Illinois AFL-CIO and the local elected officials in the 
Illinois General Assembly, including Illinois State Senate Majority 
Leader Debbie Halvorson as well as the Chairman of the Southland 
Caucus, State Representative David Miller.
    Under current regulations set forth in 25 C.F.R. Part 151, the Ho-
Chunk must submit their application to take the Lynwood land into trust 
in order to establish the casino complex. As Members of the committee 
well know, these regulations require the Department of the Interior to 
carefully scrutinize the Indian tribe's ``need'' for additional land, 
the ``purpose for which the land will be used,'' the impact on state 
and local governments, and ``jurisdictional problems and potential 
conflicts of land use which may arise.'' Revised in 1995, Part 151 
regulations explicitly address decision-making on applications to take 
off-reservation land into trust, requiring, among other things, that as 
the distance from the reservation increases, ``greater scrutiny'' be 
given to the tribe's application and ``greater weight'' be given to the 
acquisition's potential impacts on the regulatory and taxing 
jurisdictions of the state and local governments.
    If the Ho-Chunk proposal meets all the requirements of 25 C.F.R. 
Part 151, then, the Secretary must make a finding under the ``two-part 
determination'' exception in Section 20 (b)(1)(A) of Indian Gaming 
Regulatory Act (IGRA). Specifically, this section provides that gaming 
can occur on the land if the Secretary--after consultation with the 
Indian tribe and appropriate State and local officials, including 
officials of other nearby tribes--determines that a gaming 
establishment on the newly acquired lands would (1) be in the best 
interest of the Indian tribe and its members, and (2) would not be 
detrimental to the surrounding community. In addition, the governor of 
the state must concur with the Secretary's determination. In fact, 
since October of 1988, state governors have concurred in only three 
positive determinations for gaming on such trust lands.
    Therefore, the statutory and regulatory framework currently in 
place provides an important, necessary and rigorous process by which 
the Ho-Chunk Nation has an opportunity, not a guarantee, to regain 
their ancestral land on which to develop the proposed complex. In my 
view, 25 C.F.R. Part 151 and IGRA's 20 (B)(1)(A) taken separately, and 
together, establish and permit the appropriate safeguards, input, 
checks and balances, and scrutiny among federal, state, local and 
tribal communities. The existing approval process is deliberative, 
detailed, careful and circumspect. Simply put, it works.
    However, in its current form, the draft bill would break the 
process, throwing out the ``two-part determination'' exception under 
IGRA and eliminating a reasonable option by which tribes, such as the 
Ho-Chunk, may take land in trust for gaming purposes.
    Mr. Chairman, I would urge you to keep the existing provisions of 
IGRA and allow tribes, under certain circumstances and thorough 
scrutiny, an opportunity to acquire land for gaming in another state. I 
thank you Mr. Chairman, Ranking Member Rahall and Members of the 
Committee for allowing me the opportunity to testify before you. I 
appreciate the Committee's time and attention and look forward to 
working with you to address important matters affecting Native 
Americans.
                                 ______
                                 
    The Chairman. Thank you. I thank both of you for your 
testimony. I know that both of you have scheduling issues this 
morning, and because we started late it made it difficult to 
stay to those schedules.
    Do any of the members of the Committee have any burning 
questions that they would like to ask?
    If not, I am going to excuse both of you. Thank you for 
coming in and testifying on this. It is valuable, and as you 
said, Mr. Jackson, the process that we are going through is 
that we are having an open discussion on this and trying to 
figure out the best way to move forward, and I think your input 
and Mr. Weller's input is very important to that process. So 
thank you.
    Mr. Weller. Thank you.
    Mr. Jackson. Thank you, Mr. Chairman.
    The Chairman. Panel 2 is up next. If you would join us at 
the witness table. Chief Charles Enyart, Vice President Wade 
Blackdeer, Vice Chairman William Blind, Senator Bradley 
Burzynski and Mayor Craig Foltin.
    Before you take a seat, if you could just stand and raise 
your right hands. It is the custom of the Resources Committee 
that we swear in all of our witnesses.
    [Witnesses sworn.]
    The Chairman. Thank you. You may have a seat. Let the 
record show they all answered in the affirmative.
    To begin with, I would like to apologize to the panel for 
our late start. It was beyond the Committee's control, but 
thank you very much for being here.
    Mr. Enyart, we are going to begin with you.

            STATEMENT OF CHARLES D. ENYART, CHIEF, 
               EASTERN SHAWNEE TRIBE OF OKLAHOMA

    Mr. Enyart. Good morning, Chairman Pombo, members of the 
Committee. My name is Charles Enyart. I am the Chief of the 
Eastern Shawnee Tribe of Oklahoma, a federally recognized 
Indian Tribe whose aboriginal homeland encompasses what is the 
present day State of Ohio. I appreciate the opportunity to be 
here today to share our views about Section 20 of the Indian 
Gaming Regulatory Act, and to explain the importance of this 
issue for our people.
    I am here for three reasons today: first, to ensure that 
the Eastern Shawnee have the opportunity to return to our 
aboriginal homelands in present day Ohio; second, to ensure 
that we have the same opportunity to benefit from the Indian 
Gaming Regulatory Act as other Indian Tribes have since its 
enactment in 1988; third, to advocate for the right of tribes, 
States and local communities to work together for their mutual 
benefit.
    In the interest of time, I will summarize the points 
contained in my written testimony which have been submitted in 
full for the record.
    We understand that this Committee is in the process of 
determining whether IGRA should be amended to eliminate the 
two-part determination process and the land claim settlement 
provisions.
    In our view, these changes will be detrimental to tribes 
and to local communities who wish to work together to bring 
Indian gaming to willing States and will unfairly discriminate 
against tribes such as the Eastern Shawnee, who are attempting 
to settle historical land claims.
    As you are aware, the Eastern Shawnee Tribe has been 
exploring the possibility of establishing a presence in our 
aboriginal homeland now the State of Ohio. We wish to do this 
in cooperation with local communities. The legitimacy of our 
historical and cultural ties to Ohio is undeniable. 150 years 
ago the tribe was driven out of its homeland, lands that now 
comprise the State of Ohio. The historical record is replete 
with accounts of destructive raids and burning of Shawnee 
villages by the United States Army and the unauthorized taking 
of Shawnee land by encroaching settlers. Our people were 
forcibly removed from their villages and relegated to a series 
of reservations first in Ohio, then in Missouri, and ultimately 
Oklahoma. It was an ugly and shameful period in American 
history in which our people endured unspeakable fear, 
intimidation and military violence used by the United States 
and the early Ohioans.
    However, our interest is not about retribution for past 
wrong. Rather we seek to establish a mutually beneficial 
political and economic relationship with the State of Ohio and 
the communities that have reached out to us with a vision of 
what is possible.
    We do wish to finally resolve our outstanding land claims, 
but not in a manner that will be detrimental to the people of 
Ohio. Those with whom we have established a relationship 
understand our intentions and have welcomed us into their 
communities to discuss the potential for tribal economic 
development. Local communities in the State of Ohio, some of 
whom you will hear from today, have actually sought out the 
tribe and asked us if they could help bring the Shawnee back to 
our homeland. We are committed to working through the 
appropriate governmental channels in Ohio to ensure that we are 
welcomed back to our homeland.
    The Eastern Shawnees are not reservation shopping and view 
the phrase as wrong. We have a unique situation in Ohio. Each 
piece of land has its own history and so it is with each tribe. 
We ask for the same opportunity to work with the State of Ohio 
to regain those lands to bring Indian Gaming to those 
communities that welcome us, as other tribes have in their 
communities.
    The land acquisition process in place under current law 
already constitutes a formidable barrier to tribes seeking to 
regain historical tribal lands. Since 1988 there has only been 
three instances in which land outside of the Indian Reservation 
has been taken into trust for purposes of gaming and none of 
them involved the crossing of State lines. Only 36 gaming 
regulated trust acquisitions have been approved since 1988. 30 
applications for gaming or gaming-related acquisitions are 
pending, only 10 of which involve so-called off-reservation 
acquisitions. These numbers are minuscule, even the fact that 
there are more than 560 federally recognized tribes in the 
United States. The numbers certainly do not justify a major 
overall of IGRA.
    Only a few tribes have a historic or cultural connection to 
any given State. The truth is that the only way for a tribe to 
succeed in securing off-reservation land into trust for 
purposes of gaming is where there are two willing parties, the 
State and the tribe, with the addition of local governments and 
community support. Ohio has shown this support.
    The Ohio State Legislature, years before the Eastern 
Shawnee began exploring the possibility of gaming in Ohio, 
anticipated Indian gaming in the State. The Ohio Legislature 
enacted legislation effective in 1997 authorizing legislative 
approval of tribal-State gaming compacts negotiated by the 
Governor.
    The proposed amendments to IGRA, however, would permanently 
foreclose the possibility of a gaming compact between the Tribe 
and the State of Ohio.
    I have one more paragraph, Mr. Chairman.
    In closing, I would emphasize that until very recently the 
historic legacy of the Eastern Shawnee people was one of 
poverty and isolation. Left virtually landless for over a 
century and a half, my people have had very little realistic 
hope that things would ever improve. Like other tribes in 
similar circumstances, we had no economy and no tax base. The 
lot of the Eastern Shawnee people is improved. We have a long 
way to go to achieve the prosperity that once was ours.
    I told you a story. We respectfully urge that Congress not 
amend IGRA to impede or extinguish the authority of State 
Governments to work with tribes to bring Indian gaming to 
willing communities. Indian gaming is not out of control. The 
land acquisition process is long and difficult, and there are 
more than adequate safeguards against the establishment of 
unwanted gaming operations. Under IGRA, as it stands today, 
tribes cannot conduct Class III gaming in a State that is 
unwilling to have Indian gaming. States and local communities 
that want Indian gaming should continue to be allowed to work 
for the tribes to bring the highly regulated field of Indian 
gaming to their States without Federal interference.
    Thank you and I appreciate your indulgence.
    [The prepared statement of Mr. Enyart follows:]

         Statement of The Honorable Charles D. Enyart, Chief, 
                   Eastern Shawnee Tribe of Oklahoma

    Good morning. Chairman Pombo, Members of the Committee, my name is 
Charles Enyart. I am the Chief of the Eastern Shawnee Tribe of 
Oklahoma, a federally recognized Indian Tribe whose aboriginal homeland 
encompasses what is the present day State of Ohio. I appreciate the 
opportunity to be here today to share our views about Section 20 
(Section 2719) of the Indian Gaming Regulatory Act (IGRA) and to 
explain the importance of this issue for our people. I am here for 
three reasons: (1) to ensure that we have the opportunity to return to 
our aboriginal homelands in present day Ohio; (2) to ensure that we 
have the same right as other Indian tribes to conduct Indian gaming 
under current law; and (3) to advocate for the right of tribes, states, 
and local communities tribes to work together for their mutual benefit.
    We understand that this Committee is in the process of determining 
whether Section 2719(b) of IGRA should be amended to alter the manner 
in which land outside of an existing reservation or other presently 
occupied Indian lands could be taken into trust for purposes of gaming. 
The current proposal is to replace the entirety of sub-section (b), 
thereby eliminating the ``two-part determination'' process and the 
``land claim settlement'' provisions, and effecting numerous other 
changes as well.
    The Eastern Shawnee Tribe respectfully urges the Resources 
Committee to reconsider the need for such legislation. One need only 
review the record to see that the Indian Gaming Regulatory Act is not 
broken in this regard. In fact, there have only been three instances in 
which land outside an Indian reservation have been taken into trust for 
purposes of gaming since IGRA was enacted in 1988 and not one of them 
involved the crossing of state lines: (1) in 1990 the Forest County 
Potawatomi Community in Wisconsin obtained 15.69 acres of land in trust 
250 miles from its reservation through a two-part determination; (2) in 
1997, the Kalispel Indian Community in Washington obtained 40.06 acres 
of land in trust 60 miles from its reservation through a two-part 
determination; and (3) in 2000, the Keweenaw Bay Indian Community in 
Michigan obtained 22.00 acres of land in trust 70 miles from its 
reservation through a two-part determination.
    Out of over 560 tribes, there are only 33 gaming or gaming related 
trust acquisitions pending at this time. The mere fact that some dozen 
or so tribes are presently considering invoking Section 20(b), which is 
entirely lawful, does not mean that they will succeed. The process is 
long and tedious with many barriers at every step along the way. Even 
the settlement provision of Section 20(b)(2) does not grant, as a 
matter of right, the taking of land into trust. First, a settlement 
must be reached, then it must be confirmed through Congressional 
legislation. The so-called two-part determination of Section 20(b)(1) 
requires a finding by the Secretary of the Interior that the 
acquisition is in the best interest of the tribe and not detrimental to 
the surrounding community and the governor of the state must concur in 
the Secretary's determination. The truth is that the only way for a 
tribe to succeed in securing off-reservation lands into trust for 
purposes of gaming is where there are two willing parties: the state 
and the tribe, with the addition of local government and community 
support.
    The Ohio State Legislature, years before the Eastern Shawnee Tribe 
began exploring the possibility of gaming in Ohio, anticipated Indian 
gaming in the state. In fact, the Ohio Legislature enacted legislation 
effective in 1997 authorizing legislative approval of tribal-state 
gaming compacts negotiated by the governor. Ohio Rev. Code Ann. 
Sec. 107.25 (West 2005). It is, therefore, apparent that the State has 
taken steps to inform itself about IGRA and tribal gaming, and to pave 
the way to one day proceed with a tribal-state gaming compact. The 
proposed amendment, however, would permanently foreclose the 
possibility of a gaming compact between the Tribe and the State of 
Ohio.
    Some may wonder why a state such as Ohio, or any other, would be 
receptive to the establishment of Indian lands and Indian gaming within 
its borders. Assuming that a state desires the introduction of gaming 
for the unquestioned economic benefits that it produces, we would 
suggest that there are many reasons it might prefer Indian gaming over 
other alternatives. Foremost among these, there are natural controls on 
the scope of tribal gaming which diminishes the potential for 
uncontrolled proliferation. Only so many tribes have a historic or 
cultural nexus to any given state. Moreover, tribal gaming revenues, as 
a matter of law, may only be expended for socially beneficial purposes. 
Commercial gaming only benefits private interests. In stark contrast, 
tribal gaming lifts entire communities out of poverty, educates 
children who once had little hope for higher education, builds schools, 
roads, bridges, funds law enforcement and emergency services, preserves 
languages and cultures, builds clinics and hospitals and provides 
dialysis and diabetes centers, and funds charitable activities of every 
kind.
    As to the interests of the Eastern Shawnee Tribe, the benefits of 
Indian gaming for the Tribe and Ohioans are obvious and the legitimacy 
of our historic and cultural ties to Ohio is undeniable. One hundred 
fifty years ago, the Tribe was driven out of its homeland: lands that 
now comprise the State of Ohio. The historical record is replete with 
accounts of destructive raids and the burning of Shawnee villages by 
the United States Army and the unauthorized taking of the Shawnee's 
lands by encroaching settlers. Our people were forcibly removed from 
their villages and relegated to a series of reservations first in Ohio, 
then in Missouri, and ultimately Oklahoma. It was an ugly and shameful 
period in American history in which our people endured unspeakable 
fear, intimidation, and military violence used by the United States and 
early Ohioans.
    Until very recently, our historic legacy was one of poverty and 
isolation. Left virtually landless, for over a century and a half our 
people had very little realistic hope that things would ever improve. 
Like other tribes in similar circumstances, we had no economy and no 
tax base. We did not even have the means to fully redress the wrongs 
against us, which is why certain of our claims remain outstanding. 
Indian gaming has changed our bleak outlook as to our future. The 
revenues from our modest gaming operation, BorderTown Bingo located in 
West Seneca, Missouri have provided us the means to make improvements 
in the lives of our people and to rekindle the hope for a better life 
for our children and grandchildren. However, the rural character of the 
land we now occupy, combined with the economic conditions in the 
surrounding area, severely restrict our economic potential. The lot of 
the Eastern Shawnee people is improved, but we have a long way to go 
achieve the level of prosperity that once was ours.
    Some press accounts can be read to suggest that our interest in 
Ohio is to eject people from their homes. This is not true. Our 
interest is not about retribution for past wrongs, but rather about 
establishing a mutually beneficial political and economic relationship 
with the State of Ohio and the communities that have reached out to us 
with a vision of what is possible. The Eastern Shawnee seek to 
reestablish a presence in Ohio as part of a welcome and mutually 
beneficial relationship conducted on a government-to-government basis 
both with the State and the local governments that may one day be our 
neighbors once again.
    We do wish to finally resolve our outstanding land claims, but not 
in a manner that will be detrimental to the people of Ohio. Those with 
whom we have established a relationship understand our intentions and 
have welcomed us into their communities to discuss the potential for 
tribal gaming. In fact, local communities in the State of Ohio, some of 
whom you will hear from today, have actively sought out the Tribe and 
asked us if they can help bring the Shawnee back to our homeland. We 
are committed to working through appropriate governmental channels in 
Ohio to ensure that we are welcomed back to our homeland.
    The Eastern Shawnee are not ``reservation shopping'' and view the 
phrase as a misnomer. Like every other situation, ours is unique. Each 
piece of land has its own history and so it is with each tribe. It is 
very difficult for a tribe with existing lands to get new, non-
contiguous land for gaming. Since 1988, only 36 gaming or gaming 
related trust acquisitions have been approved. Only three tribes have 
successfully been able to take land into trust and open Indian gaming 
facilities on lands that are outside of their reservation boundaries. 
Thirty applications for gaming or gaming related acquisitions are 
pending, only ten of which involve so-called ``off-reservation'' 
acquisitions. These numbers are minuscule given the fact that there are 
more than 560 federally recognized tribes in the United States. These 
numbers certainly do not justify a major overhaul of IGRA.
    We would also point out that the land acquisition process in place 
under current law already constitutes a formidable barrier to these so 
called ``off-reservation'' acquisitions. The Office of Indian Gaming 
Management in the Department of the Interior has developed a thirteen-
page checklist governing acquisitions of land in trust for gaming 
purposes. Tribes must comply with the rigors of the Section 151 process 
and satisfy the requirements established by Congress in Section 20 of 
IGRA. This application process requires a thorough environmental review 
under the National Environmental Policy Act, consultation with all 
tribes within a 50 mile radius, consultation with all local governments 
within a 10 mile radius, and local intergovernmental agreements.
    Obviously, there is a great deal of misunderstanding about the 
procedures required by the Interior Department. However, Indian gaming 
is not ``out of control.'' The land acquisition process is long and 
difficult, and there are more than adequate safeguards against the 
establishment of unwanted gaming operations.
    We respectfully urge that Congress should not amend IGRA to impede 
or extinguish the authority of state governments to work with tribes to 
bring Indian gaming to willing communities. Under IGRA as it stands 
today, tribes cannot conduct Class III gaming in a state that is 
unwilling to have Indian gaming. States and local communities that want 
Indian gaming should continue to be allowed to work with tribes to 
bring the highly regulated field of Indian gaming to their states 
without federal interference.
    Finally, we assert that the facts do not support the atmosphere 
that has evolved around this issue. IGRA contains a proper balancing of 
interests with regard to trust acquisitions. Congress should not 
interfere with the rights of states and tribes to enter into agreements 
that promote economic development and benefit tribal, state, and local 
economies.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Blackdeer?

             STATEMENT OF THE HON. WADE BLACKDEER, 
                VICE PRESIDENT, HO-CHUNK NATION

    Mr. Blackdeer. Good morning, Mr. Chairman and members of 
the House Resources Committee. I am Wade Blackdeer, Vice 
president of the Ho-Chunk Nation. I want to thank you for 
giving me the opportunity to offer testimony on behalf of the 
Ho-Chunk Nation on off-reservation gaming and the draft 
legislation now before the Committee.
    I would like to begin my testimony today by stating that 
the Ho-Chunk Nation is opposed to the present legislation as 
drafted. Fundamentally, the Nation supports the idea of 
permitting Indian tribes to engage in off-reservation gaming 
including gaming in more than one State. Having said that, I 
want to emphasize that the Nation is sympathetic to many of the 
goals of the legislation, because we too believe that there 
must be restrictions on off-reservation gaming. We believe that 
those restrictions should be based on two principles. First, 
tribal gaming should be only conducted in areas to which an 
Indian tribe has specific historical connection, and second, 
tribes should not be permitted to enter the established gaming 
markets of other tribes without their consent. The Nation's 
opposition to the present draft of the legislation is based in 
large part of the perception that the legislation is designed 
to address problems that do not even exist.
    Headlines and political grand-standing notwithstanding, 
tribes are not, for all intents and purposes, able to engage in 
off-reservation gaming at the present time. The Section 20 
approval process has also created so many roadblocks for 
approving the taking of land into trust for gaming purposes, 
that it is almost impossible to establish off-reservation 
gaming unless it is done based on Federal legislation, 
specifically granting trust status to land for gaming purposes. 
And even there, as we have seen with the Lytton Band in 
California, public resistance can be so intense that 
legislation may not be enough to ensure that such gaming ever 
will take place. The resistance to off-reservation gaming is so 
great in fact that the Nation has been unable to conduct gaming 
on its pre-1988 trust land in Madison, Wisconsin. The 
development of gaming on that land has been blocked by the IGRA 
compact negotiation process.
    Because the IGRA provides that the location of gaming is an 
appropriate topic of Tribal-State compact negotiations, the 
Governor of Wisconsin was able to refuse for years to agree to 
Class III gaming on pre-1988 trust land. When the present 
Governor finally agreed to negotiate over the Madison site, he 
insisted that the issue of gaming on our pre-1988 trust land be 
put to a public referendum which was subsequently defeated.
    It is simply unrealistic to believe that off-reservation 
gaming will ever take place without the support of State and 
local government. We do not need any more roadblocks such as 
the provisions of the draft legislation requiring the approval 
of many more local governments entities. What we need and what 
legislation can provide are restrictions on off-reservation 
gaming that will eliminate the actual problems faced by gaming 
tribes and that will address the concerns of non-Indian 
communities.
    The Nation believes in order to resolve the problem 
surrounding off-reservation gaming at least three restrictions 
should be applied to the Secretary's approval of trust 
transfers of land for gaming purposes.
    First, all reservation gaming should be conducted on land 
to which the tribe seeking gaming has a historical connection. 
That connection could be established by evidence that the land 
in question was ceded by the tribe in a treaty. The land was 
once the tribe's reservation, or the land was once within the 
aboriginal territory of the tribe. Aboriginal territory could 
be established through the determinations of the Indian Claims 
Commission and the Indian Court of Claims.
    Second, approval should not be given to requests to have 
land taken into trust that is within 50 miles of an existing 
gaming facility without that tribe's consent. This restriction 
would provide tribes with some steady market security and would 
ensure some stability of tribal revenues that pay for essential 
Government programs for tribal members. An exception to this 
consent provision would be that if the land in question is 
within 5 miles of a reservation of the tribe seeking to enter 
the gaming market. In that case the tribe seeking to acquire 
trust land for gaming would not need to obtain the consent of 
the tribe with the existing gaming operations.
    Third, tribes should not be permitted to leapfrog over 
another tribe in order to establish a gaming operation closer 
to a population center that is a primary market for the 
existing gaming facility of another tribe.
    These restrictions are designed to prevent strife among 
tribes and ensure that the tribal economies remain stable. The 
Nation has developed these restrictions in response to its own 
experience. Right now, a number of Wisconsin tribes are 
attempting to develop gaming operation in the Nation's existing 
markets, despite the fact that they have no historic connection 
with those areas. They are simply reservation shopping. This in 
turn creates a vicious cycle of efforts to steal markets.
    Right now, because of the efforts of other tribes to move 
into the Nation's markets, the Nation is forced to seek new 
markets that are in some cases outside of the Nation's historic 
territory. The Nation will be compelled to do so as long as its 
markets are under threats from other tribes. So long as the 
Nation's market can be undercut as the result of approval of 
new gaming operations by the Secretary, the Nation has no 
choice but to do precisely what it does not wish to do, attempt 
to establish gaming markets in areas to which it may have no 
historic connection with the potential effect of reducing the 
market of an established gaming facility and the disturbance of 
a surrounding non-Indian population.
    If the restrictions suggested by the Nation are part of the 
present legislation, the Nation would have no reason to seek 
sites for new gaming facilities in an area other than its own 
historic lands, lands such as the Illinois site. Until they are 
adopted, however, the scramble for markets will continue.
    I hope that the Committee will consider these proposals in 
the spirit in which they are offered. We are trying to 
stabilize gaming markets while ensuring that the search for new 
markets do not result in the disturbance of the local non-
Indian communities. This will benefit the tribes, their members 
and those members of the non-Indian communities who are 
concerned about the prospect of uncontrolled expansion of 
Indian gaming in our shared communities.
    I want to thank you for your attention.
    [The prepared statement of Mr. Blackdeer follows:]

      Statement of Wade Blackdeer, Vice-President, Ho-Chunk Nation

    Good morning Mr. Chairman and members of the House Resources 
Committee. I am Wade Blackdeer, Vice President of the Ho-Chunk Nation. 
I thank you for giving me the opportunity to offer testimony on behalf 
of the Nation on the subject of off-reservation gaming and the draft 
legislation addressing off-reservation gaming.
    I would like to begin my testimony today by stating that the Ho-
Chunk Nation is opposed to the present legislation, as drafted. 
Fundamentally, the Nation supports the idea of permitting Indian tribes 
to engage in off reservation gaming, including gaming in more than one 
state. Having said that, I want to emphasize that the Nation is 
sympathetic to many of the purposes of the legislation, because we, too 
believe that there must be restrictions on off-reservation gaming. We 
believe that those restrictions should be based on the concept that 
tribal gaming should only be conducted in areas to which an Indian 
tribe has a specific historical connection, so long as there is a 
stipulation that tribes should not be permitted to interfere with the 
established gaming markets of other tribes without their express 
consent.
    Headlines and political grandstanding notwithstanding, tribes are 
not, for all intents and purposes, able to engage in off-reservation 
gaming. The Section 20 approval process has already created so many 
roadblocks for approving the taking of land into trust for gaming 
purposes that it is almost impossible to establish off-reservation 
gaming unless it is done based on legislation specifically granting 
trust status to land for gaming purposes. And even there, as we have 
seen with the Lytton Band in California, public resistance can be so 
intense that legislation may not be enough to ensure that such gaming 
will ever take place. The resistance to off-reservation gaming is 
subject to so many barriers, in fact, that the Nation has been unable 
to conduct gaming on its pre-1988 trust land in Madison, Wisconsin, 
which does not even fall under the Section 20 approval process. The 
IGRA provides that the location of gaming is a topic of tribal-state 
compact negotiations and, on that basis, the Governor of Wisconsin 
refused to even negotiate over Class III gaming on the pre-1988 trust 
land, where Class II gaming is already being played. When the present 
Governor finally agreed to negotiate over the Madison site, he insisted 
that the issue of Class III gaming on our pre-1988 trust land be put to 
a public referendum, which was subsequently defeated.
    Thus, this legislation appears to be designed to resolve a problem 
that does not exist. It is simply unrealistic to believe that off-
reservation gaming will ever take place without the support of state 
and local government. We do not need more roadblocks to approval, such 
as the provisions of the draft legislation requiring the approval of 
many more governmental entities. This is found in proposed Section 2719 
(e)(2)(C) and (3)(C). What we need, and what this legislation can 
provide, are restrictions on off-reservation gaming plans that 
eliminates the actual problems faced by gaming tribes and the basic 
concerns of the non-Indian communities and governmental entities.
    The Nation believes that, in order to resolve the problems 
surrounding off-reservation gaming, a number of basic restrictions 
should be applied to the Secretary's approval of trust transfers of 
land for gaming purposes. We do not believe that any changes need to be 
made to the provisions of the IGRA that related to the restored lands 
and newly recognized tribes exceptions found in Section 2719. First, 
all off-reservation gaming should be conducted on land to which the 
tribe seeking gaming has a historical connection. That connection could 
be established on the basis that the land was ceded by the Tribe in a 
treaty, the land was once a reservation of the tribe, or the land was 
the aboriginal territory of the tribe. Aboriginal territory could be 
established through the determinations of the Indian Claims Commission 
and the Indian Court of Claims, and thus aboriginal territory would 
provide a meaningful and easily determined standard.
    The Nation is a useful example of this historical connection 
concept. Although the Nation has no reservation, it has it has 
maintained a governmental, social and political presence throughout the 
Midwest, including the State of Illinois. The headquarters for the 
Nation's government is located in Black River Falls, Wisconsin, and it 
operates governmental offices throughout Wisconsin, including 
Minneapolis and Chicago. The Chicago Office has been in existence since 
the early 1980's, providing services to a thriving population of Ho-
Chunk tribal members who live in the Chicago metro area. In fact, the 
Nation's ties to the Chicago area are so strong that they have been 
recently endorsed by a Federal Agency. In March 2005, the U.S. 
Department of Housing and Urban Development recognized the Chicago area 
and surrounding counties of Cook, Kane, Lake and Du Page as part of the 
service area for the Ho-Chunk Nation for purposes of the Section 184 
Indian Housing Loan Guarantee Program. The Ho-Chunk Nation's Housing 
and Community Development Agency was approved by H.U.D. for the Section 
184 Program accordingly.
    In addition, we know that the Nation's tribal members have been in 
the Chicago area so long that The Winnebago Club has existed in the 
area since the 1950's. The Nation was formerly known as the Wisconsin 
Winnebago, and a group of tribal members in the Chicago area formed the 
Club as a social organization.
    The Nation's ties outside of Wisconsin, and particularly in 
Illinois, are more than social or governmental in nature. The Nation 
has aboriginal connections throughout the area that would establish our 
historical connection to the State. I have provided a map of the 
Nation's aboriginal territory for the Committee's review and 
consideration. It shows the Nation's historical connections to 
Wisconsin, Minnesota and Illinois. Clearly, the Nation has a historical 
connection with the states of Wisconsin, Illinois and Minnesota.
    Second, approval should not be given to requests to have land taken 
into trust that is within the geographical proximity of an existing 
gaming facility of another tribe without that tribe's consent. This 
provides tribes with some market security and ensures some stability of 
tribal revenues that pay for essential governmental programs for tribal 
members. An exception to this consent provision would be if the land in 
question is within five miles of the reservation of the tribe seeking 
to enter the market of the other tribe, the tribe would not need to 
obtain the consent of the tribe with the existing gaming operation.
    In considering this factor, the Nation's experience is instructive. 
The Nation is facing precisely this situation in Wisconsin. Right now, 
a number of tribes like the St. Croix Band of Lake Superior Chippewa, 
the Bad River Band of Lake Superior Chippewa and the Menominee Nation 
are attempting to move into the Nation's existing markets. This is 
purely an attempt to capture market share, and is based on no present 
historical connection. Under our proposal, a tribe that wishes to enter 
into such a market would have to receive the approval of the tribe that 
has the existing facility, which would force tribes to communicate on 
matters that shared communities should address.
    Third, tribes should not be permitted to leapfrog over another 
tribe in order to establish a gaming operation closer to the population 
center that is the primary basis for an existing gaming facility of 
another tribe. The Nation is facing precisely this situation. For 
example, the aforementioned Wisconsin tribes do not have a fourth 
gaming site provision in their present Tribal-State Gaming Compacts, 
yet the Ho-Chunk Nation does. However, those tribes seem to ignore this 
preserved ability by one tribe (the Nation) that negotiated for such a 
contractual right and prefer to move forward with their own agendas.
    These provisions are designed to prevent strife among tribes and to 
ensure that tribal economies remain stable. Here, again, the Nation's 
situation is instructive. Right now, because of the efforts of other 
tribes to move into the Nation's markets, the Nation is forced to seek 
new markets that are, in some cases, outside of the Nation's historic 
territory. The Nation is compelled to do so, so long as its markets are 
under threat from other tribes. The Nation has an extensive tribal 
government that provides its members with a variety of benefits and 
programs. Those benefits and programs are dependent on a predictable 
income stream. So long as the Nation's market can be undercut as a 
result of approval of new gaming operations approved by the Secretary, 
the Nation has no choice but to do precisely what it does not wish to 
do: attempt to establish gaming in areas to which it may have no 
historic connection, with the potential effect of reducing the market 
of an established gaming facility. If the restrictions suggested by the 
Nation are made part of the present legislation, the Nation would have 
no reason to seek sites for new gaming facilities in any area other 
than its own historic lands. Until they are adopted, the scramble for 
markets will continue.
    I hope that the Committee will consider these proposals in the 
spirit in which they are offered: Communication. The Nation wishes to 
assist this Committee in creating legislation that will stabilize 
Indian gaming, so that all communities can adequately address their 
concerns. This will benefit the tribes, their members and those members 
of the non-Indian communities who are concerned about the unplanned 
expansion of Indian gaming in our shared communities.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Blind?

          STATEMENT OF WILLIAM BLIND, VICE CHAIRMAN, 
            CHEYENNE AND ARAPAHO TRIBES OF OKLAHOMA

    Mr. Blind. Thank you. Chairman Pombo and members of the 
Resources Committee, I thank you for inviting me here today. I 
consider it a great honor and a privilege.
    My name is William Blind. I am the Vice Chairman of the 
11,000-member Cheyenne and Arapaho Tribes of Oklahoma. I 
understand that the purpose of my testimony is to discuss the 
perceived problem of the Land Settlement Exception of Section 
20 of IGRA, and more specifically, situations where the land 
may be hundreds of miles away from the tribe's current 
reservation. I say that it is a perceived problem since in 17 
years it has never occurred. There has never been a single case 
of land being taken into trust under this rule.
    Regardless, the Land Settlement Exception is an important 
part of IGRA because it acknowledges that some tribes may have 
genuine land claims due to unfortunate past treatment. This is 
important both historically and practically. The practical 
value of this rule is substantial and does not only benefit the 
tribes, which it obviously does, but it benefits everyone, 
States, taxpayers, business owners, homeowners, schools and 
even the Federal Government, all benefit. We offer New York as 
an example of how the Land Settlement Exception can work. There 
the Land Settlement Exception may become an essential piece in 
solving a complex and expensive problem. With this tool there 
is a quick and easy no-cost path to settle a land claim 
recognized by the Supreme Court. Without this tool various 
alternate settlement proposals could hurt businesses and 
homeowners, the New York State budget, local budgets, and 
perhaps the Federal budget as well as the tribes the settlement 
is intended to help.
    Additionally, the Land Settlement Exception is based on the 
American principle of fairness. Simply, it says that if you can 
prove that your land was unlawfully taken, we will treat 
settlement lands the same way as the original lands to try to 
right an historic wrong. That is fair.
    By no means is the Land Settlement Exception being abused 
or easy. As the numbers show, in 17 years no one has achieved 
it yet. In practice the Land Settlement Exception is a lot like 
the Section 20 two-part test, but with the extra requirement of 
getting explicit congressional approval. That is to say that in 
practice we need to get local support, the Governor's approval, 
the Secretary of the Interior's approval and Congress's 
approval. In our case we also had to get the support of the 
full Tribal Council of the Cheyenne and Arapaho Tribes of 
Oklahoma. I would like to submit into the record the Tribal 
Council Resolution which shows the overwhelming support given 
to the Homecoming Project. As far as I know, other than in New 
York, and as we proposed for Colorado, there are no other 
tribes pursuing this very difficult path.
    The Cheyenne and Arapaho Tribes of Oklahoma believe that 
the Homecoming Project is the model for how the Land Settlement 
Exception should work in practice, as a balance of interests. 
First, and this is very important, we believe that we have 
unusually strong legal claims relating to our history in 
Colorado. I would like to submit into the record a short 
history of the Cheyenne and Arapaho in Colorado. Recognizing 
the cost and time it takes to resolve these issues, we felt all 
parties would be best served if we proposed a settlement under 
the Land Settlement Exception. We offered a market-based, 
privately funded, omnibus settlement that would have no cost to 
the Federal Government, no cost to the State Government and no 
cost to the local communities. We offered an approach where we 
would closely coordinate with the State and local communities 
to mitigate any negative local impacts and maximize the 
positive impacts. In short, we proposed a solution that is 
fast, free, based on cooperation and good for everyone.
    The proposal was discussed in detail with all levels of 
Federal and Colorado representatives, from Congress to the 
Governor, local officials and back over to the Department of 
Interior. Draft legislation was presented and discussed, and 
eventually unfortunately rejected through this process. The 
vast majority of people that have taken the time to understand 
our claims and our proposal have received it warmly. However, 
our experience illustrates that the Land Settlement Exception, 
as drafted, works very effectively to balance the interests of 
all parties and through debate and compromise.
    I am aware of another speaker on the panel here to speak 
out against our efforts. In the past, Mr. Steve Brady succeeded 
in confusing Senators, Congressmen and the press regarding his 
relationship to this project. Mr. Brady is not a member of our 
Tribe. He has no stake whatsoever in the status of our tribal 
claims or the claims of any individual member. While he 
represents that he is an authority on the history of the Sand 
Creek Massacre, which may or may not be true, I believe he has 
no qualifications to speak on the matter of Section 20 of IGRA, 
nor on the matter of a Cheyenne and Arapaho economic 
development effort.
    I would like to submit for the record a letter of support 
from the Sand Creed descendants.
    In the past, Mr. Brady has attacked our project for 
utilizing non-natives in the development group. That is a 
deliberate misrepresentation. Our developer, the Native 
American Land Group, includes nearly 15,000 Native Americans. 
While it is true that the developer does have non-native 
participants, if it were a disqualifying factor, there would 
probably no Indian economic development anywhere. The simple 
fact is that the Government urges private businesses to assist 
in tribal economic development. Most tribes who do not already 
enjoy the benefits of Class III gaming do not have the 
resources or expertise necessary to pursue a project through 
the expensive, time-consuming process spelled out under IGRA.
    This illustrates what we came here to discuss today. IGRA, 
as it stands, is a notable success for reducing Indian poverty. 
While I cannot speak to each aspect of the law, I can say from 
unsurpassed experience that the Land Settlement Exception, in 
practice, requires tremendous cooperation between Federal, 
State, local and tribal governments. Clearly, with zero 
applications of this rule in 17 years, it is clearly not a run-
away problem. However, it remains important as an 
acknowledgment of our sad history, a glimmer of hope for those 
seeking justice, and as a practical tool for providing a no-
cost device to settle any claims if and where they should 
arise.
    However, should you choose to amend IGRA, we say that basic 
fairness suggests that those who have filed with the Secretary 
be allowed to complete their undertaking according to the 
current rules.
    We thank you for your time and interest in this matter very 
much. Thank you.
    [The prepared statement of Mr. Blind follows:]

              Statement of William Blind, Vice-Chairman, 
                Cheyenne and Arapaho Tribes of Oklahoma

    Chairman Pombo and members of the Resource Committee, I thank you 
for inviting me here today. I consider it a great honor and a 
privilege.
    My name is William Blind, I am the vice-chairman of the 11,000-
member Cheyenne and Arapaho Tribes of Oklahoma. I understand that the 
purpose of my testimony is to discuss the perceived problem of the Land 
Settlement Exception of Section 20 of the Indian Gaming Regulatory Act, 
or IGRA, and more specifically, situations where the land may be 
hundreds of miles away from the tribes' current reservation. I say that 
it is a ``perceived problem'' since in 17 years, it has never occurred. 
There has never been a single case of land being taken into trust under 
this rule.
    Regardless, the Land Settlement Exception is an important part of 
IGRA because it acknowledges that some tribes may have genuine land 
claims due to unfortunate past treatment. This is important both 
historically and practically. The practical value of this rule is 
substantial and does not only benefit the tribes, which it obviously 
does, but it benefits everyone: states, taxpayers, business-owners, 
homeowners, schools, and even the federal government. All benefit. We 
offer New York as an example of how the Land Settlement Exception can 
work. There, the Land Settlement Exception may become an essential 
piece in solving a complex and expensive problem. With this tool, there 
is a quick, no-cost path to settle a land claim recognized by the 
Supreme Court. Without this tool, various alternate settlement 
proposals could hurt businesses and homeowners, the New York State 
budget, local budgets and, perhaps, the federal budget, as well as the 
Tribes the settlement is intended to help.
    Additionally, the Land Settlement Exception is based on the 
American principle of fairness. Simply, it says that if you can prove 
that your land was unlawfully taken, we will treat settlement lands the 
same way as the original lands; to try to right an historic wrong. 
That's fair.
    By no means is the Land Settlement Exception being abused or easy. 
As the numbers show, in 17 years, no one has achieved it yet. In 
practice, the Land Settlement Exception is a lot like the Section 20 
two-part test, but with the extra requirement of getting explicit 
Congressional approval. That's to say that, in practice, we need to get 
local support, the Governor's approval, the Secretary of the Interior's 
approval and Congress' approval. In our case, we also had to get the 
support of the full Tribal Council of the Cheyenne and Arapaho Tribes 
of Oklahoma. I would like to submit into the record the Tribal Council 
Resolution which shows the overwhelming support given to the Homecoming 
Project. As far as I know, other than in New York, and as we proposed 
for Colorado, there are no other Tribes pursuing this very difficult 
path.
    The Cheyenne and Arapaho Tribes of Oklahoma believe that the 
Homecoming Project is the model for how the Land Settlement Exception 
should work in practice--as a balance of interests. First, and this is 
very important, we believe that we have unusually strong legal claims 
relating to our history in Colorado. I would like to submit into the 
record a short history of the Cheyenne and Arapaho in Colorado. 
Recognizing the cost and time it takes to resolve these issues, we felt 
all parties would be best served if we proposed a settlement under the 
Land Settlement Exception. We offered a market-based, privately-funded, 
omnibus settlement that would have no cost to the federal government, 
no cost to the state government and no cost to the local communities. 
We offered an approach where we would closely coordinate with the State 
and local communities to mitigate any negative local impacts and 
maximize the positive impacts. In short, we proposed a solution that is 
fast, free, based on cooperation and good for everyone. The proposal 
was discussed in detail with all levels of federal and Colorado 
representatives, from Congress to the Governor, local officials and 
back over to the Department of Interior. Draft legislation was 
presented and discussed, and eventually unfortunately rejected through 
this process. The vast majority of people that have taken the time to 
understand our claims and our proposal have received it warmly. 
However, our experience illustrates that the Land Settlement Exception, 
as drafted, works very effectively to balance the interests of all 
parties and through debate and compromise.
    I am aware of another speaker on the panel, here to speak out 
against our efforts. In the past, there has been some confusion on the 
part of some Senators, Congressmen and the press regarding his 
relationship to this project. Mr. Steve Brady is not a member of our 
tribe. He has no stake, whatsoever, in the status of our tribal claims 
or the claims of any individual member. While he represents that he is 
an authority on the history of the Sand Creek Massacre, which may or 
may not be true, I believe he has no qualifications to speak on the 
matter of Section 20 of IGRA, nor on the matter of a Cheyenne and 
Arapaho economic development effort. In the past, Mr. Brady has 
attacked our project for utilizing non-natives in the development 
group. That is a deliberate misrepresentation. Our developer, the 
Native American Land Group, includes nearly 15,000 Native Americans. 
While it is true that the developer does have non-native participants, 
if it were a disqualifying factor, there would probably be no Indian 
economic development anywhere. The simple fact is that the government 
urges private businesses to assist in tribal economic development. Most 
tribes who do not already enjoy the benefits of Class III gaming do not 
have the resources or expertise necessary to pursue a project through 
the expensive, time-consuming process spelled out under IGRA.
    This illustrates what we came here to discuss today. IGRA, as it 
stands, is a notable success for reducing Indian poverty. While I 
cannot speak to each aspect of the law, I can say from unsurpassed 
experience that the Land Settlement Exception, in practice, requires 
tremendous cooperation between federal, state, local and tribal 
governments. Clearly, with zero applications of this rule in 17 years, 
it is clearly not a run-away problem. However, it remains important as 
an acknowledgment of our sad history, a glimmer of hope for those 
seeking justice and as a practical tool for providing a no-cost device 
to settle lands claims, if and when they should arise. However, should 
you choose to amend IGRA, we say that basic fairness suggests that 
those who have filed with the Secretary be allowed to complete their 
undertakings according to the current rules.
    We thank you for your time and interest in this matter.
                                 ______
                                 
    The Chairman. Thank you.
    Senator Burzynski?

          STATEMENT OF THE HON. J. BRADLEY BURZYNSKI, 
      STATE SENATOR, 35TH DISTRICT, ILLINOIS STATE SENATE

    Mr. Burzynski. Thank you, Chairman Pombo, members of the 
Committee, for the opportunity to be here today to address some 
of the issues that we have already heard spoken about.
    I would like to indicate to you that I am here today as an 
individual representing my Senate District, the 35th Senate 
District in the State of Illinois, and not necessarily the 
Illinois General Assembly. So I want to make that perfectly 
clear as we go through this testimony this morning.
    I also want to put it into perspective the fact that my 
district has been targeted by the Prairie Band of the 
Potawatomi Indians as a site for gaming operations in the 35th 
Senate District, and I also serve on the Senate Appropriations 
Committee in Illinois and I wanted to give you a little bit of 
perspective of what is occurring right now with gambling 
proceeds from the gaming that is already there. Also, I would 
like to indicate that as I understand, and with my limited 
understanding of the draft bill that is in front of you, I 
would support it conceptually. I think it is a great step and 
applaud your efforts for working on this issue.
    Illinois is a State that legalized gaming many years ago 
beginning with the State run lottery, passed with the promise 
that proceeds would benefit our local school districts. 
Illinois the passed legislation to issue 20 riverboat licenses 
in the State of Illinois to be primarily located in areas that 
are depressed, in depressed communities throughout the State. 
Obviously, since the advent of the riverboats, lottery proceeds 
have grown somewhat stagnant but have also decreased the past 
few years to about $570 million per year in revenue to the 
State of Illinois.
    Also, and because of the huge success of the riverboat 
casinos and the inability of our Legislature to slow spending, 
a new tax structure was placed on the boats, with the most 
successful paying as much as 70 percent on their adjusted gross 
revenues. Increased revenues have driven the riverboat casinos 
into higher tax brackets, obviously. This has had an impact on 
the growth of our existing boats, on the gaming in the State, 
the State's revenue, local government's revenue.
    Boats have reduced staff. They have cut their hours. They 
have established entrance fees, parking fees that they did not 
have before. Consequently, Illinois patrons have responded by 
traveling across our State borders to gamble in other States to 
avoid paying some of these additional fees.
    We have seen market share go up in our neighboring States, 
where market share in Illinois has continued to decrease. Our 
admissions are down tremendously. I think in your packet you 
have some of that information.
    Obviously, it is my opinion that if off-reservation gaming 
were allowed in Illinois, it would have a tremendous impact not 
only on the existing licensees but also on our State revenue. 
And our State has not begun an economic recovery at this point.
    Additionally, in our State many not-for-profits have begun 
to have a strong reliance on charitable games to help fund 
their services. Further growth of casino gaming could be 
devastating to their operations.
    Currently, there are several that would like to expand 
gaming in Illinois, and believe that this would enable our 
State to dig itself out of our deficit. But at the same time we 
do have legislation to abolish all gaming in the State of 
Illinois that has passed out of a House committee on a vote of 
9 to 1, and is pending in the Illinois House of 
representatives.
    In recent years, Illinois has been the target of various 
tribal entities either trying to claim properties as 
reservation sites, or trying to establish off-reservation 
gaming. At this time no reservations are located in Illinois, 
and to the best of my knowledge, there is no concentration of 
tribal members in Illinois in any single location.
    In 2000, the Miami Tribe of Oklahoma filed suit in Illinois 
against landowners in 15 central Illinois counties in an effort 
to gain control of 2.6 million acres of land. The case was 
eventually dismissed, but only after it was revealed that the 
suit was being funded by a New York developer. And I think this 
begs the issue of your resolution, of your draft, about who is 
gaining from some of these things.
    As you are well aware now, the Ho-Chunk Nation has been 
negotiating for status in Illinois to establish a casino 
complex near suburban Lynwood or south suburban Lynwood. I 
noticed that Congressman Jackson did indicate that there was 
General Assembly support. Well, there are members of the 
General Assembly that support that complex, but certainly the 
General Assembly in its entirety does not.
    In my district, the Prairie Band of the Potawatomi Tribe 
has been trying to claim properties in northern Illinois. By 
the way, this is also Speaker Hastert's Congressional District. 
They have been willing to purchase options on certain 
properties in the area, and the latest last week, decided not 
to exercise an option on that property. But the fact of the 
matter is they hired representatives who came in and presented 
this as a done deal. They are in the process of trying to 
reclaim that property. It is not a done deal. There is no 
Federal ruling recognizing this or any other claim to the 
property.
    Just very quickly in closing, in response to that 
particular proposal, I introduced Senate Bill 2460 last year in 
the Illinois General Assembly. It created the Native American 
Gaming Compact Act in Illinois. Very simply, before the 
Governor can enter into a compact, a request for authority to 
enter the compact, along with a copy of it, must be presented 
to the General Assembly for dialog. We have seen too many 
things going on in dark rooms, I guess is the way I will put 
it, and certainly we were just trying to provide sunshine on 
the process.
    Again, I just want to thank you for the opportunity to be 
here with you today to present some testimony. I will be more 
than happy to answer any questions.
    Thank you, sir.
    [The prepared statement of Mr. Burzynski follows:]

             Statement of The Honorable Bradley Burzynski, 
                  State Senator, Illinois State Senate

    The Honorable Chairman Pombo and members of the House Resources 
Committee:
    My name is Brad Burzynski, and I am Senator of the 35th District in 
the State of Illinois. Thank you for allowing me the opportunity to 
present testimony today on the topic of off-reservation gaming, and in 
particular, the potential impact to the State of Illinois. 
Additionally, I want to take a few moments to make you aware of 
legislation passed during the last session of the Illinois General 
Assembly regarding tribal gaming.
    While I am not necessarily an expert on the topic of tribal gaming, 
I have some understanding of certain aspects of Indian gaming. My 
district has been targeted by the Prairie Band of the Potawatomi as a 
site for gaming operations. As a member of the Senate Appropriations 
Committee I also have some knowledge relative to the income our state 
receives from existing non-tribal gaming operations.
    Illinois is a state that legalized gaming many years ago, beginning 
with a state-run lottery passed with the promise that all proceeds be 
utilized to fund education. Illinois then passed legislation to issue 
10 licenses for riverboat gambling on waterways in depressed 
communities throughout the state. Since the advent of the riverboats, 
lottery proceeds have not only grown stagnant, but have decreased the 
past few years to $570 million per year.
    Because of the huge success of the riverboat casinos and the 
inability of the Legislature to slow spending, a new tax structure was 
placed on the boats, with the most successful paying as much as a 70 
percent tax on adjusted gross revenues. Increased revenue drives the 
riverboat casinos into higher tax brackets. This has had an impact on 
the growth of the existing boats because in order to make up their tax 
share, they have implemented entrance fees, reduced hours and cut 
staff. Illinois patrons have responded by traveling across state 
borders to Missouri, Iowa, Wisconsin and Indiana to avoid paying 
entrance fees and to access greater gaming opportunities.
    Obviously, if off-reservation gaming were allowed in Illinois, it 
would have a tremendous impact not only on the existing licensees, but 
also on state revenue, in a state which has not even begun a strong 
economic recovery.
    Additionally, many not-for-profits have begun to have a strong 
reliance on charitable games to help fund their services. Further 
growth of casino gaming could be devastating to their operations.
    Currently, there are those who would like to expand gambling in 
Illinois believing that this would enable the state to dig itself out 
of a multi-billion dollar deficit. But at the same time, legislation to 
abolish gambling in the state has passed out of committee and is 
pending in the Illinois House of Representatives.
    In recent years, Illinois has been the target of various tribal 
entities either trying to claim properties as reservations or trying to 
establish off-reservation gaming. At this time, there are no 
reservations in Illinois, and to the best of my knowledge, no 
concentration of tribal members in any location in Illinois.
    In 2000, the Miami Tribe of Oklahoma filed suit in Illinois against 
landowners in 15 central Illinois counties in an effort to gain control 
of 2.6 million acres of land. The case was eventually dismissed, but 
only after it was revealed that the suit was being funded by a New York 
developer who said he was in hopes of gaining the contract to build and 
operate a casino and resort for the Miami Tribe. Additionally, the 
state was allowed to intervene in the suit in order to protect the 
interests of all Illinois citizens.
    As you are well aware, the Ho-Chunk Nation has been negotiating for 
status in Illinois to establish a casino complex near Chicago, in the 
south suburban community of Lynnwood. While many in the community seem 
to be receptive to the idea, it is my understanding that there have 
been no community forums or public hearings to date on the proposal. 
And as a state legislator, I can tell you for certain that we have not 
had the opportunity to discuss this proposal or the role the state 
would play in such a development.
    Finally, the Prairie Band of the Potawatomi Tribe has been trying 
to claim properties in my district in northern Illinois. Some land 
owners have been convinced by tribal representatives, including former 
state officials hired by the Tribe, that they had a valid claim to the 
property. They have been willing to sell options on their property to 
the tribe. When asked ``why,'' they comment that they felt no other 
recourse existed. The Potawatomi Tribe and its representatives have 
presented this as if there is no doubt to their claim and that it's a 
``done deal.'' At this time, there is no federal ruling recognizing 
this or any other claim on the property. In addition to private 
properties, the Tribe laid claim to property owned by the state 
consisting of a several-hundred-acre man-made lake, camping facilities 
and a small forest preserve. Many unanswered questions remain as to 
whether they have any legal claim to the property.
    Preliminary plans by the Potawatomi Tribe call for an approximate 
1,200-acre development including a casino, two hotels, a 75,000-square-
foot convention center, a bingo hall, a ``Las Vegas-style'' theater and 
several restaurants. Consequently, as with other proposals, these 
amenities beg the question as to who pays for the necessary 
infrastructure improvements to accommodate them, such as roads, sewer & 
water, and police.
    Constituents in my largely-rural district have been adamantly 
opposed to this proposal, but have found little opportunity for their 
concerns to be heard. They feel a casino development would 
significantly impact and negatively change their quality of life, 
including hurting property values and causing uncontrolled population 
influx and development. I would suspect residents in the Lynwood area 
in suburban Chicago have many of the same concerns, feeling they have 
little recourse due to the political nature of this issue.
    In response to the Potawatomi's proposal in my district, I 
introduced Senate Bill 2460 last year. I recognize that the Federal 
Government at some time may provide either land title or authority for 
tribal gaming in Illinois and that statute requires the Governor of the 
state to enter into a gaming compact in such cases. But I feel that 
such a compact should be negotiated in good faith and in public view in 
order for local and state interests to be protected.
    Senate Bill 2460 (now Public Act 93-1051) created the Native 
American Gaming Compact Act in Illinois. Very simply, before the 
Governor can enter into a compact, a request for authority to enter the 
compact along with a copy of the proposed compact must be submitted to 
the General Assembly. The General Assembly would hold hearings to 
gather public input from those impacted by the proposal and would make 
recommendations to ensure that all concerns are addressed. The bill 
passed both chambers, the Governor vetoed the bill, and his veto was 
overridden in the Senate by a vote of 52-4, and a House vote of 106-8-
2, therefore becoming law.
    In conclusion, I realize that tribal gaming is a very volatile 
topic at this time. I am encouraged that this committee and Chairman 
Pombo are seeking to resolve this issue in the best interests of all. 
It appears to me that outside interests have begun to play a larger 
role, sometimes outweighing the intent of the Indian Gaming Regulatory 
Act. In Illinois, we have taken steps to best protect all of the 
citizens of our state. We hope that this committee and Congress will 
also take action to protect all of the citizens of the United States.
    Thank you again for the opportunity to present input on this 
discussion draft.
    ATTACHMENTS: 2002-2004 Gaming Comparison Chart; Illinois Riverboat 
Gaming Adjusted Gross Revenue Graph; Illinois Riverboat Gaming 
Admissions History Graph; Synopsis and Full Text of Senate Bill 2460
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Foltin?

              STATEMENT OF THE HON. CRAIG FOLTIN, 
                     MAYOR OF LORAIN, OHIO

    Mr. Foltin. Thanks for the invite, Mr. Chairman.
    I am serving my second term as the elected Mayor of Lorain, 
Ohio. We are right on Lake Erie. We are about 30 miles west of 
Cleveland, but we are in a suburb. We are a stand-alone city of 
68,000 people.
    We are a heavily Democrat, urban, blue-collar union steel 
town. We call ourselves the International City because of our 
diverse culture, and we take our name from the town in France 
because the French were the first white men to come to the area 
to trade with the Indians. Lorain is a textbook example of the 
decline of manufacturing in America. However, we have a 
tremendous asset in our city with the undeveloped formerly 
industrial waterfront and a deep water harbor.
    We have 120 years of manufacturing history in our city. At 
one time our steel mill employed 14,000 people. American 
Shipbuilding, which is where George Steinbrenner built his 
fortune in the City of Lorain, once employed 5,000 people in 
the city. We have a long history with Ford Motor Company in 
Lorain, which also employed 5,000 people at one time. We were 
certainly instrumental in the victory of two world wars with 
our steel and ship building manufacturing, and we have 
literally helped build America in the City of Lorain.
    But those times have changed though, and changed for the 
worse. All those jobs that I have just told you about are all 
but gone. I think I brought some articles that I submitted for 
the record, but you could read the headlines from here that 
paint a picture of what has been going on in our community for 
the last two decades. ``Say It Ain't So,'' headlines when Ford 
Cougar and Thunderbird first announced their departure. ``Ford 
Days Are Numbered for the Econoline Van.'' ``Ford to Close at 
the End of This Year.'' We make all the Econoline vans in the 
country for Ford, but we will not be making them in Lorain any 
more at the end of this year.
    ``Republic Steel Halts its Operations.'' ``Republic 
Defaults on Debt, Shuts Down.'' Also didn't pay our property 
taxes, which hurt us very badly as well.
    The bottom line is Lorain's population has decreased by 
20,000 over the last two decades. Average salary, employment 
rates and quality of life have suffered immensely. Unemployment 
rate remains near the highest of the State, and by the way, 
Ohio's unemployment rate is near the highest in the Nation. As 
the Mayor, we don't know how to provide city services any more. 
We are already down 100 employees, which is 20 percent of our 
workforce. The State has cut another 5 percent of our budget in 
our share of our local government revenue, and now with Ford 
leaving at the end of the year, we don't know how we are going 
to be able to provide adequate police and fire protection in 
our city.
    That is why we want the opportunity to redefine ourselves 
because the manufacturing jobs are just not being created in 
Ohio, and basically technology of other business jobs aren't 
being created. But we have a tremendous plan with the Eastern 
Shawnee Nation that includes not only gaming but it has 
business, retail, restaurants, a tremendous maritime museum and 
plenty of activity which takes advantage of our waterfront, 
including things like excursions to the lighthouse that we 
have, a historic restored lighthouse.
    We have submitted all those details to you for your review, 
but our plan not only develops, but it preserves and restores 
land to the beauty that has not been seen for over 150 years 
because of the industrial use. For the first time we have had 
good headlines in the paper, and we have community wide 
support. Our council, the county commissioners and even the 
councils of the surrounding communities have all supported 
this. Keep in mind our city currently owns this land and we 
want to put it into public trust. We sought out the Shawnee 
Nation, not the other way around. We have researched this. We 
have researched them. We know them well, and we are confident 
that this deal will benefit both parties.
    We feel that this will add and help preserve and bring more 
people to this land that currently is not available right now, 
aside from bringing the economic dollars that obviously our 
city needs. We are not building just a box with slot machines. 
We have the whole 9 yards of a destination resort. And Ohio is 
currently surrounded by gambling, and the buses leave our town 
every day, sometimes taking my mother and wife with them, to go 
gamble in other States and even in the State of Ontario, which 
Windsor is about 2 hours and 15 minutes.
    Mr. Representative, Mr. Chairman, I know your record on 
jobs and families and budget, and I am a conservative 
Republican guy like you except I am in a sea of Democrats in 
Lorain, and I understand the fact that you want to restore the 
intentional--original intent of the Indian Regulatory Gaming 
Act. I know your concern for reservation shopping, and I 
understand your concern for tribes sharing percentages of their 
money with debt-ridden cities like Lorain or States like Ohio, 
and I applaud what you have done for the economic opportunities 
for tribes and strengthening the sovereignty, and I know 
there's loopholes, I know there's greedy developers, but don't 
paint every deal with the same brush. We have a deal that is 
fair to both parties in the City of Lorain. It gives our city a 
chance to rebuild itself and gives the Shawnee the needed money 
to improve their education, housing, and health care.
    So I disagree with the blocking of all tribes to requires 
land-in-trust across State lines, at least for communities like 
Lorain that are welcoming them. The Shawnee have a great 
history in Ohio, and we are welcoming them into Lorain. I know 
maybe some regulation may be necessary. I don't know enough of 
the laws and details to say what, but what I do know is this, 
Mr. Chairman, we want to have the ability to do this and to 
have the option to work with the Shawnee. It gives us 
alternatives and more opportunities. Please don't take this 
choice away from us to form partnerships with the Shawnee 
Nation.
    I thank you very much for the invitation and opportunity to 
do this, and please, as you move forward and refine this 
legislation, please keep in mind situations like we have in 
Lorain, Ohio.
    [The prepared statement of Mr. Foltin follows:]

            Statement of The Honorable Craig Foltin, Mayor, 
                          City of Lorain, Ohio

Introduction
    <bullet>  Background on Lorain
        <all>  Right on Lake Erie, 30 miles west of Cleveland, not 
        suburb
        <all>  68,000--Heavily Democrat--Urban--Blue Collar--Union 
        Steel town
        <all>  International City--diverse culture
    <bullet>  Lorain is text book representation of Manufacturing 
Decline in America
    <bullet>  However we have a tremendous Asset with our undeveloped 
(formerly industrial) waterfront and deep water harbor
120 years manufacturing
    <bullet>  Ford, Amship, Steel
Times Have Changed Though
    <bullet>  Those jobs are all but gone.
    <bullet>  Unemployment remains near top of the state which is near 
the top in the Nation. We rank 45 out of 50 states in employment.
City Operations
    <bullet>  Lorain cannot continue to provide basic services to 
citizens. With Ford leaving it also takes 7% of our budget. The state 
has dramatically cut its funding of local governments. Already 
inadequate police, fire, park and street services will be decimated. 
20% of our workforce is gone.
Lorain deserves the opportunity to redefine our self
    <bullet>  Manufacturing jobs just aren't being created in Ohio
    <bullet>  Technology and other business jobs also are not being 
created
    <bullet>  For 25 years jobs in our city have been on decline. 
Nobody has been able to find the panacea
    <bullet>  We have a tremendous plan with the Shawnee that includes 
not only gaming, but business, retail, restaurants, a tremendous museum 
and plenty of activity which take advantage of our waterfront, like 
excursions to our historic lighthouse. (Submitted the details) Our plan 
develops, but preserves and restores the land to a beauty that has not 
been seen for 150 years because of its industrial use. (Journal front 
section)
    <bullet>  Ohio is surrounded by gambling in Michigan, Indiana, 
Ontario, New York, Pennsylvania, and West Virginia. Busses leave every 
day from Lorain from''.. Our citizens want it in the worst of ways.
Specific appeal against restricting off-reservation gaming
    <bullet>  We have a deal in Lorain that it fair and just to all 
parties. It gives our City a chance to rebuild itself and take 
advantage of our waterfront, while allowing the tribe to improve 
education, housing, and health care for its members.
In Closing
    <bullet>  Maybe some regulation is necessary, I do not know enough 
to make that call. But what I do know is we want the ability to do 
this. Allow us this option. It gives us additional alternatives and 
more opportunities. Do not take the choice away from us or the Indians 
to form these partnerships.
    <bullet>  I thank you for the opportunity to speak before you 
today. And as you move forward, please keep in mind situations like we 
have in Lorain Ohio.
                                 ______
                                 
    The Chairman. Thank you. I thank the entire panel for their 
testimony.
    Senator Burzynski, in your senatorial district, obviously 
you walk around and talk to people and get an idea of how 
people feel and what their opinions are. With the proposals of 
Indian gaming being brought to Illinois, what is the general 
feeling amongst the people you talk to at home about Indian 
gaming right now?
    Mr. Burzynski. Thank you, Chairman Pombo. My district is 
still relatively rural in nature. When I talk to most of the 
individuals in my district they're very concerned about their 
way of life as it exists now. They're very concerned about 
changes that would be detrimental to that. They're very 
concerned about a tribe coming in, having a casino, and someone 
having to help pick up the bills to fund the infrastructure. 
What we saw occur with the efforts in recent years in my 
district is the fact that there was very little discussion 
ongoing with the community itself as to what would be 
necessary. There was no discussion with us as legislators until 
just recently when we were contacted by lobbyists who were 
working for the tribe.
    So I think the key is, is there are people that would 
support some sort of operation, there are those that don't. But 
we certainly want to have an ability to have a voice in the 
process. And in addition to that, you know, we want to make 
sure that there are viable, there are legitimate claims. I mean 
that's one of the things that--you know, if under the IGRA if 
it's found that the tribes do have claim to the area, then 
that's another issue all together, but certainly when we talk 
about off-reservation gaming, it opens up a lot of issues for 
us in my district.
    The Chairman. The draft that I put together on this, one of 
the things that was included in that was the prohibition on 
going across State lines, on a tribe having the ability to go 
across State lines. If we were to allow some regulated way or 
some controlled way that tribes still could go across State 
lines, if the communities that you represent felt that they 
would have the ability to have some control over what gaming 
went on, if they felt they had some guarantee that they would 
at least be part of the process, do you think that the fear 
they currently have would change?
    Mr. Burzynski. I don't believe their fear would change. I 
think they would still see a change in their quality of life, 
what they're accustomed to, what they're used to having. I 
think their fears might be alleviated if there was better 
oversight of what would occur on those--you know, that promises 
made are promises kept. I think that's a real concern that 
people have. I believe that from my standpoint and also from my 
constituents' standpoint in the long run, as I've indicated to 
you, our State does rely somewhat heavily on gaming right now 
for our State's coffers and particularly for education. We 
receive about $705 million a year in proceeds from our gaming 
already, from our boats, another $570 million from the lottery 
that go into our State's general education fund. And I believe 
that from that perspective we would see diminished returns in 
that area.
    And again, our State has not even begun an economic 
recovery at this point with the several billion dollar deficit 
that we're facing.
    The Chairman. Mayor Foltin, listening to your testimony, it 
strikes me that Lorain is the kind of community that we were 
actually looking at in terms of setting up what we call an 
Indian Economic Opportunity Zone, where you had a community 
that welcomed the gaming, that wanted to work with the tribes 
to establish something like that as part of their economic 
activity for the future.
    And it appears from what you have testified to here today 
that you would fit that kind of a situation in moving forward 
and that that would be a possibility if we proceed with this 
draft legislation, that you would obviously be one of the 
possibilities that the Secretary would look at within your 
State and that is kind of what we were going for in terms of 
listening to your testimony here today.
    Let me ask you if things were different and the people in 
Lorain were opposed to establishing a gaming facility there, 
would that change the way that you look at the draft 
legislation?
    Mr. Foltin. No, I don't think so. If Lorain was a very 
financially sound community and the citizens didn't want that, 
I would still think that communities who did want them should 
be able to have that kind of gaming available to them.
    But I do point out that the City of Lorain has a long 
history of wanting gambling. They tried it in a private sector 
fashion and voted it in in the late '90s before there was any 
gaming outside of--in the early '90s before there was gaming 
outside of Atlantic City and Las Vegas. It passed by about a 3 
to 1 margin. Unfortunately, it failed statewide in the State of 
Ohio, and thus it was not approved for places like the City of 
Lorain. So we have a long history of wanting it, and there's 
been three attempts throughout the '90s and each time our city 
has overwhelmingly wanted it, even when economic times were a 
little better, when Ford was humming along a little stronger, 
when our steel mill was thriving a little better.
    So I just want to make sure that places like us are--and I 
know the last part of your draft bill, it does say 
notwithstanding the crossing State lines which is the deal that 
we have with the Shawnees. We want to make sure that there are 
provisions for communities like ourselves.
    Aside from Lorain, if they didn't want it, I don't see why 
that should not be allowed if the overwhelming community and 
surrounding communities want it. I think that's capitalism in 
America. Let it happen.
    The Chairman. Thank you. My time has expired.
    Mr. Kildee?
    Mr. Kildee. Thank you very much, Mr. Chairman. First of 
all, again I want to commend you for using the draft method of 
presenting this proposed legislation. I think it is fair both 
to the Committee and fair to the public out there, and it is 
not done very often, and I commend you for doing that.
    I am really conservative--that probably surprises you--I am 
conservative on the use of the exceptions written into IGRA on 
land acquired after October 17th, 1988. But I think that the 
present language in IGRA--which by the way, I helped write, I 
was on the Committee then, probably one of the few left on the 
Committee--I think the present language of IGRA adequately 
protects my conservative position on this. I don't see the 
proliferation of casinos because of the exceptions we wrote 
into IGRA here. There has been no proliferation.
    There have only been three tribes that have used the two-
step process, that is the Forest County Potawatomi of 
Wisconsin, the Kalispel Tribe of Washington State, and the 
Keweenaw Bay of my State of Michigan. Only three have used that 
two-step. And I would say one, maybe not completely yet, but 
one settlement of land claim. Congress settled the land claim. 
The Interior gave them permission to game, but I don't know if 
they completed their compact yet. So it is really three or four 
who have used these exceptions, so I don't think there has been 
a proliferation by using these exceptions which we wrote into 
the law when we passed this. So I am really trying to figure 
what we are trying to solve here when there is no clear and 
present danger, no record of proliferation.
    I do know that in California--and I know this has to play 
greatly in your mind--there are so many small tribes, all of 
them are trying to get into this right to game, but it may be 
you are isolated and you are trying to create some 
opportunities for them, and I think that that is very 
understandable.
    May I ask any one of the tribes, you have pretty well 
reiterated that you think the present language safeguards 
against proliferation of gaming.
    Mr. Enyart. I will speak for the Eastern Shawnee. We agree 
with you. We have a saying in the area that I come from, and 
that is, if it ain't broke, don't fix it, and we don't feel 
like it's broke.
    Mr. Kildee. Any other of the sovereign nations?
    Mr. Blackdeer. Yes. The Ho-Chunk Nation also has the 
feeling that the present language does adequately preserve 
communities from proliferation of gaming. It is very hard to 
establish a new gaming market under the present language.
    Mr. Blind. For the Cheyenne-Arapaho Tribes of Oklahoma, 
they feel the same way, that the present language of IGRA is 
sufficient and workable, and that it's not broke.
    Mr. Kildee. Thank you very much.
    Again, Mr. Chairman, I have no further questions. I do 
again commend you for this process that you are using. I think 
it is going to be helpful to all. Thank you.
    The Chairman. Thank you.
    Mrs. Drake?
    Mrs. Drake. Thank you, Mr. Chairman.
    Mayor, I would certainly like to welcome you. I am 
originally from Elyria, and so I know Lorain very well, and I 
know Lorain's had some ongoing problems and that things are 
very, very serious for you. However, I am extremely concerned 
that--it's my understanding Ohio has had two referendums and 
gambling has been voted down. So it concerns me that it seems 
like a way around if you get a Governor that is agreeable to 
gaming, but I thought I heard from a couple people on the panel 
that there is some sort of State or local oversight in this 
process, that they wouldn't be able to come if--did I 
misunderstand that? With the legislation the way it is now, 
with the approval of the Governor and the Secretary, the 
Shawnee Indians would be able to come regardless of the 
referendum in Ohio?
    And I would like to welcome you too, Chief. I know a lot of 
history and a lot of legend in northern Ohio, Indian legends.
    Mr. Foltin. I think I will handle that if it's OK. Yes, 
with--if the Governor or Legislature agree to compact with a 
tribe----
    Mrs. Drake. Does it have to be the Legislature too or just 
the Governor?
    Mr. Foltin. Well, the Governor, or the Legislature can 
force the Governor to compact with a simple majority vote. 
Right now, in the State of Ohio, to have private sector gaming 
you would need to amend the constitution which would take two-
thirds, a supermajority vote of our Legislature, plus a 
statewide vote. And in a way this does have the opportunity to 
sidestep that procedure, but again I point to a situation like 
Lorain, where Cincinnati is 20 minutes away from a gambling 
casino, but they are 6 hours away from the City of Lorain. How 
will a casino impact those places that vote against it? In our 
county, we're not against any home rule vote. We are very 
confident that it would pass. We just don't think the people 
down in southern Ohio, where it's a bit more conservative, 
should tell us that we cannot do that.
    With that being said, we also, because of the plan we have 
with the Shawnee, has created a great deal of talk around the 
whole State, and is now talking about pushing for a 
constitutional amendment, and we're having kind of separate but 
congruous talks with the Legislature. In fact, tomorrow in 
Columbus we are going to be down there talking about how to 
proceed.
    One of the things that we've never had in the State of Ohio 
is had all the parties at the same table, which mean the Indian 
gaming, the racetracks, the private sector interests. When it 
failed in the last few times--the last time I think it was in 
'96--the racetracks were aboard. But prior to that the 
racetracks two years prior campaigned and lobbied and spent $12 
million in 1992 dollars to campaign against gambling coming to 
Ohio.
    So the Legislature right now, some proponents of gambling, 
are bringing the two sides together and trying to go that 
route. However, with the Indian gaming route, with the Indian 
history that we have of northern Ohio that you are aware about, 
and the great want for and the open arms that not only our 
community but surrounding communities have had, it gives us an 
additional opportunity which we may not have because of some 
people that are 5, 6 hours drive from us.
    Mrs. Drake. One last question for the chiefs. Your tribes 
are only interested in coming to these locations if you are 
allowed to do gambling. You're not interested--I mean that's 
the impression I got, is you're not interested in going to any 
of these tribal lands unless you have the ability to have 
gaming?
    Mr. Enyart. That is true. We want to come home. Ohio is our 
homeland and we want to come home. And I would just make one 
further comment, and that is, we believe very much in working 
with the community, so we don't want to go into a community 
that does not have support. So we work very diligently on that 
and have all the time we've been in Ohio.
    Mrs. Drake. Thank you.
    Thank you, Mr. Chairman. And I am very sorry that I have to 
leave.
    The Chairman. Ms. Bordallo, did you have any questions?
    Ms. Bordallo. I do not have any questions.
    The Chairman. Mr. Nunes, any questions?
    Mr. Nunes. No.
    The Chairman. Well, I want to thank the panel for their 
testimony, and it has been very helpful, I think, to the 
Committee in our efforts to continue to deal with this issue. 
As we move forward with this draft legislation and look at 
things that need to be changed or amended within the 
legislation, I think your testimony will be very helpful to 
that, so thank you very much. Dismiss this panel
    The Chairman. Call up our next panel. Mr. Steve Brady, Mr. 
John Kindt, the Reverend Cynthia Abrams, if you could join us 
at the witness table and remain standing. If I can have you 
raise your right hand.
    [Witnesses sworn.]
    The Chairman. You can be seated. Let the record show they 
answered in the affirmative.
    Mr. Brady, we are going to begin with you.

STATEMENT OF STEVE BRADY, SR., CO-CHAIR, NORTHERN CHEYENNE SAND 
  CREEK MASSACRE SITE COMMITTEE AND PRESIDENT OF THE NORTHERN 
            CHEYENNE SAND CREEK MASSACRE DESCENDANTS

    Mr. Brady. When we start late like this, back home we call 
it Indian time.
    [Laughter.]
    The Chairman. I guess we are on Indian time today then. We 
have another name for it around here, but I won't say it out 
loud.
    [Laughter.]
    Mr. Brady. I want to thank the Committee for allowing me to 
testify here today, and I also want to thank the Chairman for 
the invitation to provide testimony here today.
    First of all, I want to make it explicitly clear that I am 
not here to establish a position for the Northern Cheyenne 
Tribe in terms of the proposed legislation by Chairman Pombo, 
but I am here to make some remarks on the proposal by 
Counciltree with regard to the Cheyenne-Arapaho Tribes of 
Oklahoma.
    Probably first and foremost the Cheyenne-Arapaho Tribes of 
Oklahoma is an independent sovereign nation, and what they do 
with Steve Hilliard and his gaming proposal is entirely up to 
them. However, when it comes to treaty rights like the 1851 
Fort Laramie Treaty, and situations like the Sand Creek 
Massacre of November 29th, 1864, which I just testified on here 
a couple of weeks ago, it affects us in the north as Northern 
Cheyenne, Montana.
    We are legally intertwined with the Cheyenne-Arapaho Tribes 
of Oklahoma in the 1851 Fort Laramie Treaty. We are also 
culturally and historically connected with the Southern 
Cheyenne through our traditional cultural way of life, both 
language and our religious beliefs. So needless to say, the 
proposal that Steve Hilliard has been working with the 
Cheyenne-Arapaho on is indeed very pernicious and divisive.
    The Northern Cheyenne Tribe, as a government, rejected 
Steve Hilliard's proposal about a year or so ago through a 
lengthy non-disclosure agreement, and at the conclusion of the 
non-disclosure agreement the Northern Cheyenne Tribe, after a 
subsequent independent review, rejected his proposal. Steve 
Hilliard stood to gain enormously, profit enormously from his 
proposal and the tribe would be left holding the bag for quite 
some time. Apparently, the Northern Arapaho did not even 
entertain Hilliard's proposal at all. They had other concerns.
    And with regard to petition for a land claim in exchange 
for a casino in Colorado, the Northern Cheyenne Tribal Council 
has passed a resolution requesting for the full file of what 
was submitted by Cheyenne-Arapaho Tribes to the Secretary of 
Interior. However, the Northern Cheyenne Tribe has not formally 
requested from the Secretary of the Interior the file. They 
just have passed a council resolution. The Tribal Council 
Resolution No. is 3305.
    And at the same time, the Secretary of Interior has not 
informed the Northern Cheyenne Tribe of this petition for a 
land claim, and there's a question of whether or not our treaty 
rights are going to be affected or impacted as Northern 
Cheyenne. As I said earlier the Northern Cheyenne and the 
Southern Cheyenne are interconnected with treaty rights, we are 
legally intertwined.
    The Hilliard proposal has the potential to undermine and 
erode any trust or relations that exist or that may exist 
between the Northern and Southern Cheyenne, and as I said 
earlier, it's pernicious and very divisive, and that concludes 
my statement here today.
    If you have any questions, I'll be open to them.
    Thank you for allowing me to testify.
    [The prepared statement of Mr. Brady follows:]

  Statement of Steve Brady, Co-Chair of Northern Cheyenne Sand Creek 
 Massacre Site Committee, and President of the Northern Cheyenne Sand 
                       Creek Massacre Descendants

    I would like to thank the Committee for allowing me to provide 
testimony and especially, The Honorable Richard Pombo, Chairman of the 
Committee for the invitation to testify on issues that remain 
profoundly significant, the Sand Creek Massacre of November 29th, 1864, 
as well as our treaties with the United States of America.
    The Cheyenne signed a series of treaties during the 19th Century, 
beginning with the Cheyenne Treaty of 1825 and then Fort Laramie Treaty 
of 1851. Among the conditions in the Ft. Laramie Treaty of 1851, the 
Cheyenne and Arapaho agreed to the boundaries of their first 
reservation. The area of this reservation encompassed approximately 51 
million acres from the Rocky Mountains in Colorado to the Plains in 
parts of Wyoming, Nebraska and Kansas.
    While Western-Europeans had forced the Cheyenne and Arapaho out of 
their treaty territory, apparently the boundaries of the 1851 Treaty 
remained in effect until the mid-twentieth century when the U.S. Indian 
Claims Commission offered to compensate the Cheyenne and Arapaho Tribes 
for their treaty territory.
    In the early 1960's, the Northern Cheyenne Tribe of Montana, the 
Northern Arapaho Tribe of the Wind River Reservation of Wyoming and the 
Cheyenne & Arapaho Tribes of Oklahoma (sometimes referred to as 
Southern Cheyenne and Southern Arapaho), among other conditions to the 
treaty settlement, these Cheyenne and Arapaho Tribes agreed to the 
compensation settlement of the Claims Commission. The Treaty, however, 
does not distinguish between the Northern Cheyenne and the Southern 
Cheyenne nor does it distinguish between the Northern Arapaho or the 
Southern Arapaho, the Treaty merely says Cheyenne and Arapaho. 
Therefore all of the tribes had to agree to a settlement one could not 
opt out they were all legally intertwined, it was the settlement of the 
1851 Treaty boundaries of the Cheyenne and Arapaho Tribes.
    Apparently, during the 1851 Ft. Laramie Treaty settlement with the 
Indian Claims Commission, there was an attempt to include the Article 6 
provision of the Cheyenne and Arapaho Treaty of Little Arkansas River 
of 1865, in which U.S. Congress admits responsibility to the atrocities 
committed at the Sand Creek Massacre of November 29th, 1864 by Col. 
Chivington and his troops and promises reparations. However, the Indian 
Claims Commission rejected this claim by the Cheyenne and Arapaho 
Tribes, due to the fact that the claim was a descendant's claim, not a 
tribal claim. The Indian Claims Commission said that the descendants of 
the Sand Creek Massacre would have to file the claim, not the tribes, 
because Article 6 specifies ``certain bands of Cheyenne and Arapaho,'' 
and not the entire tribe(s). Again, the Cheyenne and Arapaho Treaty of 
Little Arkansas River of 1865 does not distinguish between the northern 
or the southern tribes, it just says Cheyenne and Arapaho and for that 
matter there are descendants of the Sand Creek Massacre with the 
Cheyenne & Arapaho Tribes of Oklahoma, the Northern Cheyenne Tribe of 
Montana and the Northern Arapaho Tribe of Wind River Reservation of 
Wyoming.
    The Northern Cheyenne Tribe rejected Steve Hilliard's (Counciltree) 
proposal for a casino in or near Denver in exchange for treaty lands 
the tribe may still have and for the atrocities committed the Sand 
Creek Massacre and for the tribe to view the proceeds from the casino 
as reparations. After a closer analysis, Hilliard stood to gain an 
enormous amount of profit while the tribe would be steeped in debt for 
quite some time, there was a question of whether the tribe would ever 
get out of debt. At the conclusion of a non-disclosure agreement with 
Counciltree, the Northern Cheyenne Tribe refused to get involved in the 
shady arrangement. The Northern Arapaho Tribe apparently did not even 
entertain the idea from Counciltree, the Northern Arapaho had concerns 
elsewhere.
    In the meantime, the C&A Tribes of Oklahoma apparently are 
continuing to entertain the notion of some business proposal with 
Counciltree entitled the ``Homecoming Project.'' This proposal by 
Hilliard is extremely pernicious and divisive between all of the tribes 
mentioned herein. The Hilliard proposal has the potential to undermine 
and erode any trust or relations that may exist between any or all of 
these tribes.
    Moreover, while the Northern Cheyenne Tribal Council recently 
passed a resolution for the Secretary of the Interior to provide the 
file in its entirety of the Petition submitted by C&A Tribes of 
Oklahoma, for a land claim in exchange for a casino operation in 
Denver, the Northern Cheyenne Tribe have yet to file a formal request 
with the Secretary of Interior. Apparently, the Secretary of Interior, 
thus far has rejected the land claim filed by C&A Tribes of Oklahoma.
    Again, thank you for allowing me to provide testimony today.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Kindt?

          STATEMENT OF JOHN WARREN KINDT, PROFESSOR, 
                     UNIVERSITY OF ILLINOIS

    Mr. Kindt. Thank you, Mr. Chairman. Thank you, Mr. Vice 
Chairman. Thank you Members of the House Resources Committee. 
I'm Professor John Kindt from the University of Illinois. I 
apologize--I'm told that technologically they could not put my 
overheads up for the Committee. But they are in your packets 
and they are attached to my testimony. I will go through those 
overheads or those attachments one by one.
    Several issues involving my home State of Illinois have 
come up, and so I'd like to start off by talking about the 
National Gambling Impact Study Commission, which completed its 
report in 1999. I'm sure several members of the Committee here 
voted in favor of this commission report, or to get it 
established. And it calls for a moratorium on the expansion of 
any type of gambling anywhere in the United States--and for a 
large reason; those are economic types of reasons.
    Also, in Illinois, I believe we are the first State which, 
after hearing the economic testimony, has passed out of 
committee basically unanimously, with only one dissenting vote, 
a bill, House Bill 1920 out of the House Administration 
Committee, to recriminalize the casinos--or I should say to 
eliminate the casinos in Illinois.
    There has never been a statewide vote in Illinois as well. 
If there were, the polls, which we have monitored for about 15 
years now, indicate that the vote would be 2-1 against gambling 
or against the expansion of gambling. The most recent poll is 
from the Chicago Tribune in 2004. But if you look at your 
attachments, you'll see the first one is a headline from the 
Omaha World-Herald, which says ``40 Economists Side Against 
More Gambling.'' Now, can you get 40 economists to agree about 
anything? Well, here are 40 economists who come out and say 
that the costs are likely higher than the benefits. And this 
was back in 1996. This is basically an Economics 101 type of 
problem, if you look at it from an economic-social standpoint.
    A notable quote from Donald Trump, a casino owner: ``People 
will spend a tremendous amount of money in casinos, money that 
they would normally spend on buying a refrigerator or a new 
car. Local business will suffer because they'll lose customer 
dollars to casinos.'' Basically, what happens with gambling is 
that you have consumer dollars coming out of the consumer 
economy which then go into the gambling economy. And primarily 
we are talking slot machines at this point, because 80 to 90 
percent of all the money that's going into the casinos is going 
into slot machines.
    If you look at the circle diagram attached to my 
testimony--it is out of the Michigan State DCL Law Review--and 
it shows the 35-mile feeder market around casinos. Now, when an 
analysis of what was happening in this feeder market was done 
of the Wisconsin tribal casinos, one of the results was that 
people were spending 10 percent less on food, 25 percent less 
on clothing, and 37 percent had raided their bank accounts in 
order to put the money into gambling.
    In this same area, we found that initially in these feeder 
market areas around casinos, that you weren't creating net new 
jobs. And in fact, more recent data coming out indicates that 
you're probably losing one job per year for every slot machine 
that is located in the feeder market area. So if you have a 
thousand slot machines within that 35-mile feeder market, 
you're probably losing a net of 1,000 jobs per year. Well, why 
is that? Well, you're bringing in $100,000 on average to each 
slot machine per year. That translates into $300,000, more or 
less, in lost economic multiplier effect. That translates into 
a lost job out of the consumer economy.
    Also, we find that the taxpayer social costs are $3 for 
every $1 in benefits. And that ratio has held up for many 
years.
    We also find that crime in the feeder market area goes up 
10 percent the third year after the casinos open, and then 
increases after that.
    Business and personal bankruptcies, in a report done by the 
American banking industry, increases 18 to 42 percent as the 
consumer dollars are lost into these casino establishments. 
Drive-by businesses, in one study, are down 65 percent.
    The citations for all of this may be found attached to that 
circle chart.
    There's also a Table 2 here, which indicates the social 
costs--analyzes all nine academic studies across the country of 
the costs of $3 for every $1 in benefits.
    I also have a Table 18, which shows the net economic impact 
of the Indian casinos in Wisconsin. It's Table 18. As you can 
see, this is not my study, this is someone else's study. It 
shows that it's a net loss of between $200 million and $500 
million to the State of Wisconsin.
    Two final tables. One shows the percentage of expenditures 
in the casinos, showing that 25 percent to 75 percent of all 
the money going into the casinos is coming out of pathological 
and problem gamblers. And then a bankruptcy cost table is 
included for your perusal, as well as some of my law review 
articles which you may wish to review.
    Thank you, Mr. Chairman. Thank you, Mr. Vice Chairman. 
Thank you members of the House Resources Committee. It is a 
pleasure being here today. I'll take questions when you wish.
    [The prepared statement of Mr. Kindt follows:]

              Statement of John Warren Kindt, Professor, 
                         University of Illinois

    This Statement will address the following issue areas, as requested 
by the Committee.
    1.  U.S. National Security and the Strategic Economic Base: The 
Business/Economic Impacts of Legalized Tribal Gambling Activities;
    2.  Solutions: Transform Tribal Gambling Facilities into 
Educational and Practical Technology Facilities;
    3.  The Feeder Market Impacts of Tribal Casinos;
    4.  Tribal Gambling Activities: The Issues Involving Market 
Saturation; and
    5.  Are Tribal Games and Slots ``Fair'' to Patrons?
    In this testimony I have cited to my own work only as introductions 
to the hundreds of source materials cited in the footnotes. These 
sources can be referenced by researchers. This Committee has my 
permission (and the permissions which I have already received from the 
publishers of my articles and the attachments herein) to reprint and 
distribute any or all of the articles authored by myself on gambling 
issues.

1. U.S. National Security and the Strategic Economic Base: The 
        Business/Economic Impacts of Legalized Tribal Gambling 
        Activities
    During the 1990s, the international economic and diplomatic 
ramifications of the spread of U.S. gambling technologies throughout 
the United States and the world were outlined in an article written at 
the suggestion and under the auspices of former Secretary of State Dean 
Rusk. The article was: John W. Kindt, U.S. Security and the Strategic 
Economic Base: The Business/Economic Impacts of Legalized Gambling 
Activities, 33 St. Louis U.L.J. 567-584 (1995), reprinted in National 
Gambling Impact and Policy Comm'n Act: Hearing on H.R. 497 before the 
House Comm. on the Judiciary, 104th Cong., 1st Sess. 519-27, 528-45 
(1995).
    U.S. tribal gambling issues are larger than myopically trying to 
help the selective impoverished. The U.S. tribal model is being 
marketed around the world as economic development to Third World 
countries, but their economies just become poorer, and their 
infrastructures and financial institutions become destabilized.
    As commonly utilized by U.S. State Department analysts, the 
McDougal/Lasswell methodology for policy-oriented decision-making 
highlights these strategic problems with the spread of U.S. gambling 
technologies. See, e.g. John W. Kindt & Anne E.C. Brynn, Destructive 
Economic Policies in the Age of Terrorism: Government-Sanctioned 
Gambling as Encouraging Transboundary Economic Raiding and 
Destabilizing National and International Economies, 16 Temple Int'l & 
Comp. L.J. 243 (2002-03) (lead article).

2. Solutions: Transform Tribal Gambling Facilities into Educational and 
        Practical Technology Facilities
    Instead of legalizing a casino/slot machine establishment at a 
failing racetrack in 1997, the Nebraska Legislature bulldozed the 
racetrack and made it into an extension of the University of Nebraska 
and a high-tech office park. John W. Kindt, Would Re-Criminalizing U.S. 
Gambling Pump-Prime the Economy and Could U.S. Gambling Facilities Be 
Transformed into Educational and High-Tech Facilities? Will the Legal 
Discovery of Gambling Companies' Secrets Confirm Research Issues?, 8 
Stanford J.L., Bus. & Fin. 169-212 (2003) (lead article).
    Thereafter, as pro-gambling interests returned to Nebraska, they 
were repeatedly rebuffed by the academic community, which was 
exemplified in one instance by 40 economists publicly rejecting new 
gambling proposals that would ``cannibalize'' the consumer economy. 
Robert Dorr, 40 Economists Side Against More Gambling, Signers: Costs 
Likely Higher than Profits, Omaha World-Herald, Sept. 22, 1996, at B1.
    In a unanimous vote (except for one dissent by a representative 
from a casino district) on March 17, 2005, the Illinois House 
Government Affairs Committee favorably reported H.B. 1920 to the House 
for a vote to re-criminalize Illinois casinos.
    Similarly, suggestions have been made to re-criminalize gambling 
facilities in other states and transform the gambling facilities into 
educational and high-tech assets--instead of giving the gambling 
industry tax breaks. Casinos and gambling parlors would generally be 
compatible with transformations into educational and high-tech 
resources. For example, the hotels and dining facilities could be 
natural dormitory facilities. Historically, facilities built for short-
term events, such as various World's Fair Expositions, the 1996 Olympic 
Village (converted to facilities for the Georgia University system), 
and other public events have been transformed into educational and 
research facilities.
    Given the allegations of misuse, non-accounting, and even 
malfeasance involving gambling revenues in Native American operations, 
various legislative personnel in the late 1990s considered potential 
legislation that would place Native American gambling revenues in trust 
for the benefit of all Native Americans, not just a few senior tribe 
members. This policy was to be combined with the partial use of trust 
monies to convert Native American gambling facilities into educational, 
cultural, and business facilities. For a historical summary of issues, 
see Bruce Orwall, Gaming the System: The Federal Regulator of Indian 
Gambling is Also Part Advocate, Wall St. J., July 22, 1996, at A1.
    For concerns by the 1999 U.S. National Gambling Impact Study 
Commission, see, for example, Nat'l Gambling Impact Study Comm'n, Final 
Report 7-9 (June 1999). ``Again, the unwillingness of individual tribes 
as well as that of the National Indian Gaming Association (the tribes' 
lobbyists) and the National Indian Gaming Commission, (the federal 
agency that regulates tribal gambling), to provide information to this 
Commission, after repeated requests and assurances of confidentiality, 
limited our assessment...'' Id. With only one dissenting vote by 
Commissioner Robert W. Loesher who was unduly protecting Native 
American gambling interests, the 1999 U.S. National Gambling Impact 
Study Commission voted eight to one to subpoena information from the 
U.S. National Indian Gaming Commission in 1999. However, use of its 
subpoena power was thereafter deemed largely ineffectual by the 
Commission and was not pursued.

3. The Feeder Market Impacts of Tribal Casinos
    The Final Report of the Congressional 1999 National Gambling Impact 
Study Commission called for a moratorium on the expansion of any type 
of gambling anywhere in the United States. Although tactfully worded, 
the National Gambling Commission also called for the re-criminalization 
of various types of gambling, particularly slot machines convenient to 
the public.
    Some of the negative impacts of casinos and slot machines are 
detailed in the appendix to the article, Diminishing Or Negating The 
Multiplier Effect: The Transfer of Consumer Dollars to Legalized 
Gambling: Should A Negative Socio-Economic ``Crime Multiplier'' be 
Included in Gambling Cost/Benefit Analyses?, 2003 Mich. St. DCL L. Rev. 
281-313 (lead article). The circle ``feeder market'' chart and sources 
documentation follow this written testimony.
    The most authoritative and specific example involving tribal 
casinos is a 1995 Wisconsin report which concluded that ``[w]ithout 
considering the social costs of compulsive [addicted] gambling, the 
``rest-of-the-state'' areas lose-or, transfer in-$223.94 million to the 
local gaming areas. Considering the lowest estimated social costs of 
problem gambling, the rest of--[Wisconsin] loses $318.61 million to 
gambling.'' This report also concluded that without casino gambling, 
many local citizens would have increased participation in other 
``outside'' activities. ``More than 10% of the locals would spend more 
on groceries if it were not for the casino, while nearly one-fourth 
would spend more on clothes. Thirty-seven percent said that their 
savings had been reduced since the casino had opened...'' William 
Thompson, Ricardo Gazel, & Dan Rickman, The Economic Impact of Native 
American Gambling in Wisconsin (Wis. Policy Res. Inst. 1995).
    From the business perspective, businesses are not naive. For 
example, ``in a rare public stand on a controversial political issue, 
the Greater Washington Board of Trade's 85-member board voted 
unanimously against'' Mayor Sharon Pratt Kelly's initiative to bring 
casino-style gambling to Washington, D.C. Liz Spayd & Yolanda Woodlee, 
Trade Board Rejects D.C. Casino Plan, Wash. Post, Sept, 25, 1993, at 
A1, A8. With the exception of the cluster services associated with 
gambling, new businesses tend not to locate in areas allowing legalized 
gambling because of one or more of the aforementioned costs. In areas 
saturated with legalized gambling activities, pre-existing businesses 
face added pressures that push them toward illiquidity and even 
bankruptcy.

4. Tribal Gambling Activities: The Issues Involving Market Saturation
    In his classic book entitled Economics, Nobel-Prize laureate Paul 
Samuelson summarized the economics involved in gambling activities as 
follows: ``There is--a substantial economic case to be made against 
gambling. First, it involves simply sterile transfers of money or goods 
between individuals, creating no new money or goods. Although it 
creates no output, gambling does nevertheless absorb time and 
resources. When pursued beyond the limits of recreation, where the main 
purpose after all is to ``kill'' time, gambling subtracts from the 
national income. The second economic disadvantage of gambling is the 
fact that it tends to promote inequality and instability of incomes.'' 
Paul A. Samuelson, Economics 245 (10th ed.). Furthermore, Professor 
Samuelson observed that ``[j]ust as Malthus saw the law of diminishing 
returns as underlying his theory of population, so is the ``law of 
diminishing marginal utility'' used by many economists to condemn 
professional gambling.'' Id. at 425.
    The concern of the legalized gambling interests over ``market 
saturation'' is largely a non-issue. From the governmental perspective, 
focusing on this issue misdirects the economic debate, because fears of 
market saturation are predicated upon the unwarranted assumption that 
legalized gambling operations constitute regional economic 
development--which they do not. In reality, legalized gambling 
operations consist primarily of a transfer of wealth from the many to 
the few--accompanied by the creation of new socio-economic negatives. 
It is well-established that the societal and economic costs to the 
taxpayers are $3 for every $1 in benefits.
    These issues should first be examined from the strategic 
governmental perspective. In this context, the inherently parasitic 
manner in which legalized gambling activities must apparently collect 
consumer dollars to survive is frequently described as ``cannibalism'' 
of the pre-existing economy--including the pre-existing tourist 
industry. According to the skeptics of legalized gambling activities, 
this industry-specific phenomenon means that in comparison with most 
other industries, legalized gambling activities must a fortiori not 
only grow as rapidly as possible, but also grow as expansively as 
possible. John W. Kindt, Legalized Gambling Activities: The Issues 
Involving Market Saturation, 15 N. Ill. U.L. Rev. 271-306 (1995). See 
also John W. Kindt, The Negative Impacts of Legalized Gambling On 
Businesses 4 U. Miami Bus. L.J. 93-124 (1994) (lead article).
    In California and Nevada: Subsidy, Monopoly, and Competitive 
Effects of Legalized Gambling, the California Governor's Office of 
Planning and Research highlighted in December of 1992 ``the enormous 
subsidy that Californians provide to Nevada through their gambling 
patronage'' and concluded that ``Nevada derives an enormous competitive 
advantage from its monopoly on legal gambling.'' The report summarized 
that ``[g]ambling by Californians pumps nearly $3.8 billion per year 
into Nevada, and probably adds about $8.8 billion--and 196,000 jobs--to 
the Nevada economy, counting the secondary employment it generates-- 
and that this was ``a direct transfer of income and wealth form 
California to Nevada every year.'' Thus, the Nevada economy appears to 
constitute a classic example of a legalized gambling economy 
``parasitically'' draining or ``cannibalizing'' another economy 
(primarily Southern California). Cal. Governor's Off. Plan & Research, 
California and Nevada: Subsidy, Monopoly, and Competitive Effects of 
Legalized Gambling ES-1 (Dec. 1992).
    The gambling interests argue that the dollars they take in are 
``entertainment dollars'' or ``recreational dollars.'' This observation 
is valid with regard to approximately 35% of the ``gambling dollars,'' 
but it is invalid with regard to the remaining 65%. Opponents of 
legalized gambling argue that there are also differences because the 
entertainment dollars spent on a movie, for example, largely generate 
more movies, and recreation dollars spent on a speedboat, for example, 
largely generate orders for more speedboats. Accordingly, while most 
entertainment or recreational dollars contribute to a positive 
multiplier effect legalized ``gambling dollars'' result in a net 
negative multiplier effect. This negative impact apparently occurs, in 
part, because approximately two-thirds of the gambling dollars are not 
recreationally-oriented, but are spent by a compulsive market segment 
reacting to an addictive activity--probable or possible pathological 
gambling--as delimited by the American Psychiatric Association. Am. 
Psychiatric Ass'n Diagnostic and Statistical Manual of Mental 
Disorders, 615-18 Sec. 312.31 (4th ed. 1994). Opponents also note that 
gambling dollars spent in a legalized gambling facility are usually 
reinvested in more gambling facilities--which just intensifies the 
socio-economic negatives associated with gambling activities and 
``reduces the national income'' even further.

5. Are Tribal Games and Slots ``Fair'' to Patrons?
    Issues have arisen involving how ``slot machines'' are programmed 
and whether the astronomical odds are ``fair'' to patrons. ``The 
Insiders'' for Gambling Lawsuits: Are the Games ``Fair'' and Will 
Casinos and Gambling Facilities be Easy Targets for Blueprints for RICO 
and Other Causes of Action?, 55 Mercer L. Rev. 529-593 (2004) (lead 
article). See also Subpoenaing Information from the Gambling Industry: 
Will the Discovery Process in Civil Lawsuits Reveal Hidden Violations 
Including the Racketeer Influenced and Corrupt Organizations Act?, 82 
Oregon L. Rev. 221-294 (2003) (lead article). Coupled with pandemic 
regulatory failures, these issues of ``fairness'' have been 
exacerbated. The Failure to Regulate the Gambling Industry Effectively: 
Incentives for Perpetual Non-Compliance, 27 S. Ill. U.L.J. 221-262 
(2002) (lead article). See also Follow the Money: Gambling, Ethics, and 
Subpoenas, 556 Annals of the Am. Academy of Political & Soc. Sci.,85-97 
(1998) (invited article).
    The Office of the Inspector General reported in 1993 to the U.S. 
Department of the Interior (DOI) that 32 percent of Native American 
gambling operations were being conducted in violation of federal 
statutes/regulations. Office of the Inspector General, U.S. Dep't of 
Interior, Audit Report: Issues Impacting Implementation of the Indian 
Gaming Regulatory Act (1993). Thereafter, the National Indian Gaming 
Commission (NIGC) arguably suppressed numbers that indicated in 
November 1996 that 84 percent of Native American gambling facilities 
were openly operating illegally or in violation of federal statutes/
regulations. Nat'l Indian Gaming Comm'n, Report to the Secretary of the 
Interior on Compliance with the Indian Gaming Regulatory Act (Nov. 
1996). Other reports suggested that there were more than just isolated 
instances of crime and corruption caused by Native American gambling 
activities.
    Furthermore, the implicit goals of the 1988 Indian Gaming 
Regulatory Act (IGRA) to enhance the lives of all Native Americans were 
not being realized, as the large majority of Native Americans remained 
in grinding poverty as the 21st century began. See, e.g., U.S. General 
Accounting Office, Indian Programs: Tribal Priority Allocations Do Not 
Target the Neediest Tribes 1 (1998). Accordingly, policymakers have 
suggested that future legislation should not disproportionately enrich 
isolated tribes. Instead, Native American gambling should operate for 
the benefit of all Native Americans, if not all of the U.S. public. 
This could be achieved via federal administration of a Gambling 
Proceeds Trust Fund financed by Native American gambling operations 
while they are phased out to become educational and technological 
facilities.
    In 2000, it was reported that ``[d]espite an explosion of Indian 
gambling revenues-from $100 million in 1988 to $8.26 billion a decade 
later [1998]-an Associated Press [AP] computer analysis of federal 
unemployment, poverty and public-assistance records indicates the 
majority of American Indians have benefited little.'' Between 1988 and 
1998 ``poverty and unemployment rates changed little,'' as exemplified 
by the Fort Mojave Indian Reservation, where despite two casinos, the 
Native American ``unemployment rate climbed from 27.2 percent in 1991 
to 74.2 percent in 1997.'' This development was attributed to the fact 
that ``among the 130 tribes with casinos, a few near major population 
centers have thrived while most others make just enough to cover the 
bills.'' In addition, any ``new jobs [created by the Indian gambling 
facilities] have not reduced unemployment for Indians.'' David Pace, 
Casino Boom a Bust for Most Members of Indian Tribes, News-Gazette 
(Champaign, Ill.), Sept. 2, 2000, at A1. According to the National 
Indian Gaming Association, the lack of net new jobs for Indians was 
because ``75 percent of jobs in tribal casinos are held by non-
Indians.'' Unexpectedly, the 55 tribes with casinos before 1992 had 
their 1991 unemployment rate of 54 percent even increase somewhat to 
54.4 percent by 1997. For an extensive investigative report 
highlighting the problems of Native American gambling activities, see 
Donald L. Bartlett & James B. Steele, Look Who's Cashing In At Indian 
Casinos: Wheel of Misfortune, Time, Dec. 14, 2002, at 44 (cover story).
    These situations were exacerbated by illusory accounting standards 
that resulted in some tribal members with exorbitant wealth while most 
Native Americans remained disenfranchised. The tribes also claimed to 
have sovereign immunity from general federal statutes like those 
involving labor rules, sexual harassment, equal employment opportunity, 
and tortious acts. As reported in the Wall Street Journal and as most 
disconcerting to Congressional leaders were the indications involving 
alleged organized crime activities. The concerns among the U.S. 
Representatives were exemplified by Representative Chris Shays (R-
Conn.) and Representative Frank Wolf (R-Va.) who highlighted these in a 
letter to President Clinton.
    NOTE: Attachments to Professor Kindt's statement have been retained 
in the Committee's official files.
                                 ______
                                 
    The Chairman. Thank you.
    Rev. Abrams?

 STATEMENT OF REV. CYNTHIA J. ABRAMS, DIRECTOR, ALCOHOL, OTHER 
 ADDICTIONS AND HEALTH CARE WORK AREA, GENERAL BOARD OF CHURCH 
           AND SOCIETY OF THE UNITED METHODIST CHURCH

    Rev. Abrams. Good morning, Chairman Pombo and honorable 
members of the House Resources Committee. I want to thank the 
Committee for this opportunity to testify on behalf on the 
General Board of Church and Society of the United Methodist 
Church.
    The United Methodist Church has for many years expressed 
its opposition to gambling. Our doctrinal statements, known as 
The Social Principles, state that gambling is a menace to 
society, deadly to the best interests of moral, social, 
economic, and spiritual life, and destructive of good 
Government. As an act of faith and concern, we call Christians 
to abstain from gambling and to minister to those victimized by 
the practice. Furthermore, we call the church to promote 
standards and personal lifestyles that would make unnecessary 
and undesirable the resort to commercial gambling as a 
recreation, as an escape, and as a means of producing public 
revenue or funds for support of charities or Government.
    We are alarmed at the expansion of gambling and, more 
specifically, the proliferation of off-reservation casino and 
casino proposals. We believe that off-reservation casinos are 
having a negative effect on inter-tribal relations, as you have 
seen here today between two tribes, and between tribal and 
community relations. In addition, the United Methodists' 
historic opposition to gambling is coupled with a very clear 
and strong support of self-determination of American Indian 
people, and we continue to support good legislation that 
supports American Indian people in their long-term best 
interest.
    Gambling and legislation to expand it is a grave moral 
concern. Because of the United Methodist public witness on 
gambling, we are on countless mailing lists for groups opposed 
to gambling. We believe that off-reservation casinos have 
fostered an anti-sovereignty climate, which is growing. 
Furthermore, the proposals cast a shadow over legitimate 
applications for Federal tribal recognition. And we find the 
increase in anti-sovereignty and anti-Indian racist rhetoric by 
some of these groups alarming. And we do our best on behalf of 
the United Methodist Church to counteract the positions of 
these groups at every opportunity. But the careless disregard 
for communities and children in promoting off-reservation 
casinos, some in the poorest of areas, makes this very 
difficult. It is simply unacceptable and contrary to the long-
term best interests of the sovereignty and welfare of American 
Indian people as a whole that tribes continue to propose to 
build casinos with little or no regard for the social costs to 
the communities.
    I am a United Methodist, and I want to tell my personal 
story because I am also a Seneca.
    These proposals are antithetical to my tribe's traditional 
beliefs. My grandmother taught me that I am a member of an 
immediate family, I am a member of an extended family and a 
tribal family, and I am also a member of a global family. This 
concept is not foreign to most American Indian people. Yet, I 
ask the question, When did we stop caring about the rest of the 
world and only care about ourselves and our own best interests 
alone?
    It is not in the best interest of gamblers to gamble away 
their hard-earned dollars. The numbers of people who gamble are 
disproportionately poor, lower-income, or seniors on fixed 
incomes. Gambling takes away money from the people who need it 
the most. Is this the way States, communities, and tribes want 
to balance their budgets? And furthermore, is this good 
stewardship of the gifts that God has given us?
    Moreover, there are other American Indian people who are 
opposed to gambling both on-reservation and off-reservation, 
but they fear retribution. And this has happened in my own 
family. Our family opposed casinos that our tribes proposed. 
And in approving the casinos, the Senecas gave away historic 
sovereign rights to sign a State compact. Yet, all during this 
time of opposition, my family endured death threats, bodily 
harm, intimidation tactics, and outright ostracization for our 
public stand.
    The struggle of our tribe is not unique from other tribes. 
The split between pro- and anti-casino groups splits the tribal 
community. It divides churches on the reservation and it even 
divides families on the reservation. In my own home church on 
the Cattaraugus Reservation, it has even physically split the 
church. When we worship, the anti-casino people sit on one side 
of the church and the pro-casino people sit on the other side. 
Is it any wonder that American Indian people opposed to Indian 
gambling are afraid to speak up?
    The United Methodist Church believes that American Indian 
people bring gifts to the world. They have taught people who 
have come to this country how to live, how to survive, and how 
to care for the Earth and its people. And it is critical at 
this time that American Indian people, tribes, not allow the 
temptation of greed to overwhelm the gifts that have allowed 
American Indians the ability to survive and maintain their 
traditions.
    Thank you.
    [The prepared statement of Rev. Abrams follows:]

 Statement of The Reverent Cynthia J. Abrams, Director, Alcohol, Other 
  Addictions, and Health Care Work Area, General Board of Church and 
                 Society of the United Methodist Church

    I thank the Committee on Human Resources for this opportunity to 
testify on behalf of the General Board of Church and Society of the 
United Methodist Church. The United Methodist Church has for many years 
expressed its opposition to gambling. Our doctrinal statements known as 
The Social Principles state that ``Gambling is a menace to society, 
deadly to the best interests of moral, social, economic, and spiritual 
life and destructive of good government. As an act of faith and concern 
we call Christian to abstain from gambling and to minister to those 
victimized by the practice.'' Furthermore, we call ``The Church to 
promote standards and personal lifestyles that would make unnecessary 
and undesirable the resort to commercial gambling as recreation, as an 
escape, or as a means of producing public revenue or funds for support 
of charities or government.'' (United Methodist Social Principles 162G)
    We are alarmed at the expansion of gambling and, more specifically, 
the proliferation of off-reservation casinos and casino proposals. We 
believe that off-reservation casinos are having devastating effect on 
intertribal relations, tribal to community relations.
    In addiction, to our historic position on gambling we have strongly 
supported the self-determination of American Indian people and continue 
to support good legislation that supports American Indian people. 
Gambling and legislation to expand it is a grave moral concern. Because 
of the United Methodist's public witness on gambling we are on 
countless mailing lists for groups opposed to gambling. We believe that 
off-reservation casinos have fostered an anti-sovereignty climate, 
which is growing. We find the increase in anti-sovereignty and anti-
Indian racist rhetoric by some of these groups alarming. We do our best 
to counteract the positions of these groups at every opportunity, but, 
the careless disregard for communities and children in promoting off-
reservation casinos, some in the poorest of areas, makes this very 
difficult. It is simply unacceptable that tribes propose to build 
casinos with little or no regard for their social cost on a community.
    I am a United Methodist and also a Seneca. These proposals are 
antithetical to my tribe's traditional beliefs. My grandmother taught 
me that I am a member of an immediate family, I as a member of an 
extended and tribal family, and I am a member of a global family. This 
concept is not foreign to most American Indian people. Yet, when did we 
stop caring about the rest of the world, and only care about ourselves 
and our best interests alone? It is not in the best interest gamblers 
to gamble away their hard-earned dollars. The numbers of people who 
gamble are disproportionately poor, lower income, or seniors on fixed 
incomes. Gambling takes money away from the people who need it the 
most. Is this the way states, communities, and tribes want to balance 
budgets. Is this good stewardship of the gifts God has given us?
    Furthermore, there are other American Indian opposed to the off-
reservation and even on-reservation casinos but they fear retribution. 
This has happened in my own family. Our family opposed the casinos our 
tribe proposed. My family endured death threats, bodily harm, 
intimidation tactics and outright ostracization for our public stand. 
The struggle of our tribe is not unique from other tribes. The split 
between pro and anti-casino groups splits the community, divides 
churches on the reservation, and even divides families. In my own home 
church it has even physically split the church. When we worship, anti-
casino people sit on one side of the church and the pro-casino people 
sit on the other side of the church. Is it any wonder that American 
Indian people opposed to Indian gambling are afraid to speak up?
    The United Methodist Church believes that American Indian people 
bring gifts to the world. They have taught people who came to this 
country how to live, how to survive, how to care for the earth and its 
people. It is critical, at this time, American Indian people/tribes not 
allow the temptation of greed overwhelm the gifts that have allowed 
American Indians the ability to survive and maintain their traditions.
                                 ______
                                 
    The Chairman. Thank you.
    I am going to start with Mr. Brady. Can you explain to the 
Committee why the Northern Cheyenne Tribe rejected the casino 
proposal near the Denver airport?
    Mr. Brady. It was based upon their legal counsel as well as 
independent business analysis. Steve Hilliard stood to gain 
enormously while the tribe would be left in debt for quite some 
time.
    The Chairman. Professor, in looking at your testimony, the 
analysis that was done, just so I understand, the economic 
analysis that you did, does that--when you talk about money 
being taken out of the economy, does it also factor in the jobs 
that are created and the money that is generated by that casino 
itself?
    Mr. Kindt. Yes, sir, Mr. Chairman. Now, my area is 
interdisciplinary analysis, or one of my areas. So what I am 
doing here is I'm citing to the most authoritative reports, 
academic reports across the country. And the one to which I 
believe you are referring is the Table 18----
    The Chairman. Yes.
    Mr. Kindt.--done by Professor William Thompson, Ricardo 
Gazel, and Dan Rickman. Ricardo Gazel was formerly at the 
University of Illinois; William Thompson at UNLV, University of 
Nevada, Las Vegas; and they did factor in those types of 
considerations. And you can see down at the bottom of the page 
that--the table is on itself in the attachment--it does talk 
about the benefits of investment and self-sufficiency. So we 
reviewed these to make sure that they're balanced reports. And 
even though this report was done in 1995, it's the most 
authoritative still, the best report out there about the impact 
of tribal casinos on a State and regional economy.
    You may wish to bring Ricardo Gazel, by the way. I believe 
he's now at the World Bank. He's right here in town. You may 
wish to bring him before the Committee. He's done follow-up 
studies, and I'm sure he could shed light on these numbers.
    The Chairman. There are other studies that I've seen that 
show a net positive economic impact. Did you look at any of 
those studies?
    Mr. Kindt. We try to review all the studies from all across 
the country--industry studies, academic studies, Government 
studies--that come forward. And you will see from some of my 
writings that they're very straightforward in our analysis, or 
in my analysis, of some of those studies, and they're very 
pointed at times. Sometimes what is occurring by the industry 
studies is they can be perfectly valid, but they don't go far 
enough. They're just impact studies, or what we call benefit-
benefit studies. They're not cost-benefit studies. And unless 
you have a real cost-benefit study on the proper scale, you 
really miss what is happening in the regional and State 
economy.
    And that's why you have such a backlash going on. And the 
people of Illinois are obviously getting it. After the State 
Committee on Administration, for whom I testified along with 
Professor Earl Grinols, and other people were there testifying 
about these impacts, the legislators already knew it. They had 
it, and they voted, with just one dissent, to report out a bill 
that would eliminate the riverboat casinos--which are now land-
based casinos--in Illinois because of the negative social-
economic effects and the negative tax effects that were 
occurring.
    Now, that's not to say that the people who own the casinos 
are--they're cash cows. They bring in a lot of money. But on a 
statewide or regional basis, they are taking enormous numbers 
of consumer dollars out of the consumer economy, and that 
translates, on a regional basis in the feeder market, into lost 
jobs and these socioeconomic problems that are outlined in the 
tables.
    The Chairman. Did you look at the difference between more 
of a neighborhood casino that generates most of its money 
locally and what would be described as more of a destination 
casino? Did you look at the difference on the impact of 
economies between those?
    Mr. Kindt. Yes. We've reviewed that over time. I could just 
make some general observations. A destination area would 
generally be, like, Las Vegas. However, in my testimony, I give 
a California report, done in 1992 by the California Governor's 
Office, that shows the number of jobs and the number of dollars 
that were being lost out of the Southern California economy to 
Las Vegas. Well, it's really sort of Basic Economics 101. 
You're just moving dollars around when you take them out of the 
consumer economy and you put them into gambling. But when you 
put them into gambling, you're creating very large social 
costs, what are called the ABC's of gambling--new addicted 
gamblers, new bankruptcies, and new crime.
    Now, we can debate the extent of these negatives. But one 
of the tables that I've provided for this Committee summarizes, 
I believe, the nine leading reports on the socioeconomic costs, 
and they all, over the last 15 years, are still coming out at 
about $3 in costs for every $1 in benefits.
    So on a strategic level--and that's why I sort of started 
my written testimony with a strategic concept--on a strategic 
level, this is not helping the U.S. economy and there are other 
strategic problems involved with the expansion of gambling. And 
I would again reference the National Gambling Impact Study 
Commission, which had many gambling members on it--several 
gambling members on it--and it still came out asking for a 
moratorium on the expansion of any type of gambling anywhere in 
the U.S.
    The Chairman. Finally, in regard to the draft legislation, 
is it your opinion that we would be better off if we just stop 
the expansion of Indian gaming altogether?
    Mr. Kindt. Well, I would have to speak from an academic 
standpoint. I know that--with a natural sympathy to the 
concerns that are expressed here today. And from an academic 
standpoint, I would have to agree with the National Gambling 
Impact Study Commission's call for a moratorium on the 
expansion of any type of gambling anywhere in the U.S.
    The Chairman. What about existing facilities?
    Mr. Kindt. Well, I have indicated what the economic and 
social negatives are with regard to gambling activities and I 
think that the policy decisions should be made on the academic 
facts. And so I would leave that to the policy decisionmakers. 
I would, however, make one comment, and that is that when one 
of the proposals here from the earlier panel for a tribal 
expansion for a casino in Madison, Wisconsin, proposed by the 
Ho-chunks, I was up there along with other academics when that 
came--a few days before that came to a vote. And despite the 
fact that, I believe, about $1.5 million was spent by the 
tribe, by the interests who wanted to have this pass and have 
this casino in that area, the academic community at the 
University of Wisconsin came out en masse. The campus 
newspapers both editorialized against this casino. Despite the 
natural sympathy for the plight of Native Americans and their 
interests, they knew academically that this would be a drain on 
their community. And I believe the vote was about 55 percent 
against allowing this casino to come to that area.
    The Chairman. Reverend, I guess I just put basically the 
same question to you. In regard to legislation, would you 
support the notion that we stop the expansion of Indian gaming 
altogether?
    Rev. Abrams. I would speak only on the position of the 
United Methodist Church, which would then say that--would agree 
that expansion of any type of gambling, be it Indian or 
otherwise, would be something that we would want to work 
against because it's contrary to good Government.
    The Chairman. And in regard to existing facilities?
    Rev. Abrams. In regard to existing facilities, the United 
Methodist Church has a position on self-determination and 
sovereignty and so they would not comment on those that are 
already existing.
    The Chairman. Thank you.
    Ms. Bordallo?
    Ms. Bordallo. No questions.
    The Chairman. Mr. Nunes?
    Mr. Nunes. I have a quick question for Professor Kindt. 
Your testimony is very much appreciated, and I think this is an 
ongoing battle we have between gambling or non-gambling. But I 
would like you to comment a little bit on the fact that Las 
Vegas is the fastest-growing area of the country and has been 
for nearly a decade. I would like to know your thoughts on this 
issue. Because obviously it has been a very successful economy. 
Every time I go there, there is a new subdivision, or 20 new 
subdivisions. And I would like for you to comment on the growth 
of gambling there and how you see the economy that's been built 
there.
    Mr. Kindt. Yes, sir. Basically, and I did address this in 
my written testimony, and I would refer back to the California 
report that I mentioned that talks about how basically the 
dollar just being transferred in from outside the area. Now, 
the one thing Las Vegas--So basically you're taking consumer 
dollars out of Southern California and much of the rest of the 
country, and that's spurring the growth in Las Vegas. You're 
transferring those into gambling dollars. But those are lost 
dollars to the consumer economy, and that translates into lost 
jobs. And then people take their social problems that have been 
outlined here in these tables and take them back to their host 
communities, so Las Vegas doesn't have to bear the expense of 
much of the socioeconomic problems. But when you bring the 
casino to the person's backyard, then you have that 35-mile 
feeder market and the State having to absorb all these 
socioeconomic negatives, and that's a drain on the taxpayer 
dollars.
    The one other thing I would mention about Las Vegas is they 
do appeal to an Asian Pacific market, they do appeal to an 
overseas market. But that's not what we're talking about with 
all of these other--and Atlantic City also, to some extent. But 
these other casinos aren't really doing that. They're 
basically--and the casinos themselves call them feeder markets. 
They're feeding off of that regional economy. And as Senator 
Burzynski indicated, and I think if you brought in many other 
legislators they would indicate that we're feeling these 
negatives, which we predicted years ago, as socioeconomists and 
interdisciplinary analysts, would happen.
    And I would also reference in my testimony Economics 101, 
the basic, probably the most used textbook in the United States 
by a Nobel Price laureate, economics winner Paul Samuelson. He 
simply says they're just sterile transfers of wealth when you 
take the money out of the consumer economy and you dump it into 
gambling. But you're creating all these social problems at the 
same time--the increased addicted gamblers, which has been 
parallel to drug addiction; the increased bankruptcies as 
people lose their money; and the increased crime. And there's a 
definitive analysis on the crime which was done by Professors 
Grinols and Mustard, and it's even better than what the 
National Gambling Impact Study Commission did. It took every 
community, every county, every feeder market before and after 
it brought in the gambling, and it showed that crime goes up 10 
percent, not the first or second year, but the third year after 
these establishments open as people lose their money, some 
people resort to crime, and then that crime continues to 
increase afterwards.
    So there are real costs that are associated with this trend 
toward more and more gambling.
    Mr. Nunes. Thank you, Professor. Thank you, Mr. Chairman.
    The Chairman. Well, thank you. I want to thank the panel 
for their testimony. And again, it will be very valuable in our 
efforts to move forward on this issue.
    I remind this panel and the previous panels that there may 
be additional questions that Members have. I know Mr. Kildee 
had another appointment and had to go out, but I know he had 
additional questions he wanted to ask. Those will be submitted 
to you in writing, and if you could answer them in writing so 
that they could be included as part of the hearing record, it 
would be appreciated. The hearing record will be held open for 
those responses.
    Again, I want to thank this panel and the previous panels 
and apologize to you for the delay in starting the hearing.
    If there is no further business before the Committee, again 
I thank the members of the Committee and our witnesses. The 
Committee now stands adjourned.
    [Whereupon, at 12:52 p.m., the Committee was adjourned.]

    [Responses to questions submitted for the record follow:]

Response to questions submitted for the record by Otto Braided Hair for 
          the Northern Cheyenne Sand Creek Massacre Committee

    A follow-up response on questions from Representative Jim Gibbons, 
a result from the oversight hearing regarding draft legislation 
proposed by Chairman Richard Pombo to amend the Indian Gaming 
Regulatory Act (IGRA) ``Tribal proposals to acquire lands-in-trust for 
gaming across state lines; and how such proposals are affected by the 
off-reservation discussion draft bill'' before the House Resources 
Committee held on April 27, 2005.

Question 1. This Committee has held hearings on legislation that would 
        allow a tribe to go hundreds of miles off their reservation and 
        open a casino in the ancestral lands of another tribe.
         a.  Do you have any specific suggestions on how Congress 
        should proceed in this regard?
Comments:
    One of the most perplexing problems throughout the westward 
expansion of the United States was determining where the exact 
boundaries between United States and the Indian Nations existed. Most 
boundaries were descriptions of landmarks, for example, rivers, 
mountaintops, ridges, a road, etc. The ``boundary problem'' was further 
exacerbated by future treaties that redrew the boundary lines which can 
be characterized as very difficult to discern and constantly changing. 
Even more so, some Indian nations ceded lands claimed by other Indian 
nations. The statements and commentary that follow are made partially 
in response to Eurocentric historians whose mental constructs and 
ideologies unconsciously, and usually, view people different than 
themselves as obstructions to a process of human perfection or 
achievement of a higher level of civilization. A focus on property 
rights and commerce appears to lie at the core of many of the conflicts 
between Indian nations and the U.S. government and its citizenry. The 
questions at hand, concerning expanded Indian gaming, are the same of 
genre of causation of conflict between Indian nations and the American 
government and public it represents.
    In 1834, the U.S. Congress admitted the multiplicity of Indian 
treaties made it very to ascertain what, at any given period, was the 
boundary or extent of the Indian country (Report of Commissioner of 
Indian Affairs Samuel S. Hamilton, November 26, 1830; and, Report 
Commissioner of Indian Affairs Elbert Herring, November 19, 1831, in 
The American Indian and the United States, comp. By Wilcomb E. 
Washburn, 1:16-17, 21:House Report 474 (ser. 263), 10). An obvious 
historical fact is that the U.S. government's unilateral policy of 
Indian removal beginning in 1834 considerably simplified the boundaries 
leaving very small areas in the east in Indian hands and larger tracts 
of land west of the Mississippi designated as Indian country. In the 
ensuing historical events from the time of the overt genocidal ``Indian 
Removal'' policy the government-to-government relations between Indian 
nations and the U.S. government has been a story of betrayal, 
usurpation and rapine as it became desirable to denigrate the native 
peoples, even the faithful Indian allies, as subhuman.
    In the unmistakable spirit of fairness and moral consciousness, it 
appears that the subtle underlying intent by certain members of the 
U.S. Congress to ``right'' some of the wrongs done to Indian nations 
has been to introduce favorable amendments to the Indian Gaming 
Regulatory Act (IGRA) that could potentially create an ``economic 
bonanza'' for rural poverty-stricken Indian Tribes whose homelands are 
primarily situated in the western United States. An extensive document 
search and analysis of Indian claims on a comprehensive scale would, in 
all probability, establish a measure of historical and legal continuity 
and consistency of what constitutes ancestral lands of an Indian Tribe. 
Competing ancestral claims would perhaps require usage of the 
principles of International law wherein Federally recognized Indian 
Tribes would potentially be afforded a forum to assert what has been 
described as the right of occupancy which has been frequently referred 
to as ``aboriginal title'' or ``Indian title.'' The quest to clarify 
ancestral Indian lands would most certainly be within the parameters of 
western law since the ``oral tradition'' of the surviving Indian 
nations has often been discounted in the established system of American 
jurisprudence.
    Allowing Indian nations, miles away from a urban area, the 
opportunity negotiate with another Indian Tribe with claims to 
ancestral lands near a standard metropolitan statistical area (SMSA, an 
area with a population of 500,000 or more) would most certainly become 
a long drawn out process steeped in bureaucratic regulation and 
unquestionable opposition from states and citizens opposed to the 
expansion of Indian gaming. If indeed the goals and objectives of the 
U.S. Congress is to establish Indian gaming law allowing a Tribe to go 
hundreds of miles off their reservation to open a casino in the 
ancestral lands of another Tribe, then it would be proper to allow all 
potential stakeholders the opportunity to provide commentary in the 
American tradition of consent of the governed.
    The compelling public interest in the arena of Indian gaming can 
only be strengthened by focusing the national spotlight on the 
continuing plight of the economically depressed Indian nations, who are 
significant in number, whose dependence on Federal largesse and 
unabated socio-economic realities has added to a ``social malaise'' 
that permeates a majority of Indian country. Expansion of Indian gaming 
is not a panacea for the depressed economies of Indian Tribes or the 
answer to improving the quality of life for Indian people, yet, it is 
reasonable to state that if afforded the opportunity to develop and 
open a casino in a metropolitan area most Indian Tribes would in all 
probability pursue such an economic opportunity.
        b.  Also, with over 300 tribes seeking recognition and 
        presumably gaming, please comment on the impact that a policy 
        permitting ``reservation shopping'' and ``off-reservation 
        gaming'' will have on communities across the country.
    The U.S. Congress has the responsibility to set the criteria to 
determine whether or not a group of people claiming to be an aboriginal 
people within the United States should be federally recognized. The 
standard of recognition should be at a standard where there exists 
incontrovertible evidence that the group of people seeking recognition 
is beyond dispute. Presumptions that a ``newly--recognized tribe intend 
to develop gaming operations should not be the most weighted factor 
when congress considers federal recognition.
    Reservation shopping immediately creates a negative image of native 
people and intentionally or unintentionally diminishes the sacredness, 
culture and history of an unrecognized Indian nation that has survived 
countless attempts to destroy them. True Indian leaders, in their 
unique tribal tradition, seeking rightful federal recognition of their 
people, in this writer's opinion, will not focus solely on Indian 
gaming and they, and their predecessors, may in fact have been 
dedicated their lives to achieve federal recognition for their people 
decades before the advent of the IGRA. The potential opportunity to 
develop Indian gaming in this modern era could be characterized as a 
historical artifact similar to the shift in the American economy from 
heavy industry to the high tech industry.
    The impact on communities with an off-reservation gaming 
establishment would vary depending on the state of the economy and 
cultural values in an identified area. In a depressed metropolitan area 
a high tech modern casino operation would undoubtedly create thousands 
of jobs and create opportunities for local entrepreneurs to provide 
goods and services to a large casino operation. Negotiated partnerships 
between Indian tribes and state and local governments would certainly 
improve the quality of life for the citizens of communities where 
Indian gaming would be allowed to flourish. On the other hand, off-
reservation gaming in rural areas may not be viable. Today, 
professional operators of Indian gaming facilities have accumulated a 
considerable amount of data and expertise to sufficiently determine 
whether or not a gaming location will be economically feasible and 
whether or not a selected community is the ``right fit'' for a casino 
operation.

Question 2. When tribes seek to enter already established gaming 
        areas, doesn't that create an uneven playing field since tribes 
        are not subject to state regulations; are not subject to the 
        restrictions placed on other gaming establishments; do not pay 
        state taxes; etc?
    Indian nations with little or no economic development have almost 
always entered into negotiations to develop economic projects on an 
uneven playing field whether on or off established reservations 
especially with the lack of access to investment or financial capital . 
In the area of Indian gaming, states have become intransigent in the 
required negotiations process for State/Indian gaming compacts. The 
scenario presented by the possibility of off reservation gaming, 
including in another state, would raise issues of taxation of gaming 
operations and more regulation by the National Indian Gaming 
Commission. Current Indian gaming operations are in most instances more 
heavily regulated than state sanctioned gaming operations. A detailed 
comparison of the various State gaming versus NIGC generated 
regulations would suggest ``more'' regulation is applicable to Indian 
gaming operations.

Question 3. What criteria should be used by the Department of the 
        Interior in it's determination of land-into-trust?
        a.  Should there be a requirement of substantial historical 
        connection between the tribe and the parcel to be taken into 
        trust? Why/why not?
    A key point to take into consideration would be the timeframe when 
western trained historians and ethnologists began documenting the 
geographic areas occupied by various Indian nations when ``first'' 
contact was made with sovereign Indian nations. If one is a proponent 
of the southerly migration theory by Indian tribes, often presented by 
historians and also by native oral tradition, the vast areas south of 
Hudson bay and extending south into the United States could be 
identified as ancestral homelands of many of the eastern, southern, 
great plains and southwestern tribes.
    Requiring a substantial historical connection between a tribe and a 
parcel of land being considered in a land-into-trust process would be a 
logical method of determining if a compelling argument by an Indian 
tribe is sufficient to grant trust status to off reservation real 
estate. Indian tribes would need to demonstrate connection to the land 
in question in the form of identified sacred sites, burial sites, 
village or camp sites, or any other empirical evidence (including 
treaties) that would pass the scrutiny of ``expert'' scientific and 
legal analysis. Aforementioned, a comprehensive document search and 
analysis of Indian land claims would be probably necessitated and a 
``cut off'' date determined in order to reasonably identify and settle 
competing land claims by the various Indian nations.
        b.  How recent should the historical connection be?
    Congress, with the plenary power it maintains over Indian affairs, 
and the body of U.S. Supreme Court case law may have already 
unilaterally determined the historical connection between Indian tribes 
and parcels of land be considered for land-into-trust. Each application 
for land-into-trust whether for gaming or any other purposes would need 
to be deliberated upon on a case-by-case basis by the Department of 
Interior. Special legislation enacted by congress taking land-into-
trust would also need to utilize precedent case law and previous 
legislation, bypassing the Department of Interior, as an established 
guide for taking land-into-trust.
    The recent land-into-trust transactions appear to be reduced to 
considerations of national interests, state rights and individual 
landowner rights. In addition, the federal government appears cautious 
in allowing condemnation of land in the land-into-trust process. 
Conversely, when the federal government favors energy development in 
environmentally sensitive areas (e.g. The Arctic National Wildlife 
Refuge, Powder River Basin, etc.) it has the propensity to take 
unilateral action completely disregarding the interests of native 
people and the resultant selective application of environmental and 
nation historic preservation laws and regulations has occurred.
        c.  What about distance from the tribe's current service area?
    Most tribes are very familiar with issues of distance from tribal 
programs and other government service delivery programs for tribal 
members (often inter-tribal) through the special considerations and 
flexibility of service delivery in urban areas with a relatively large 
Indian population (e.g. Urban Indian Centers, I.H.S. clinics, etc.). 
The delivery of basic services to Indian people would need to be 
considered in the overall planning of Tribal casinos, at whatever 
distance from the reservation, and Tribal governments would meet this 
responsibility as a matter of protecting the health and general welfare 
of tribal members. Modern communications technology and transportation 
systems have lessened the issues of distance in nearly all aspects of 
American society including Indian reservation lifestyles.
    Modern Tribal governments have the capacity and capability to 
address the needs of their membership and when necessary to collaborate 
with other Tribal governments to provide for the basic needs of Indian 
people, especially areas with a concentrated Indian population, 
residing at varying distances from the reservation. Tribal trust lands 
at short and long distances from the reservation would not diminish the 
responsibility of Tribal governments and the Bureau of Indian affairs 
(Trustee) to properly manage the real estate, the attendant resources, 
Tribal people and others living or doing business on trust lands.
        d.  Do you believe that the farther away the casino site is, 
        the less likely tribal members will be able to take advantage 
        of employment opportunities with a casino? (Alternatively, if 
        the tribal members move near the casino to get jobs, then will 
        the traditional community/service area be disrupted?)
    This is a leading question and requires the responder to speculate 
on future events without proper analysis that would assuredly be part 
of a comprehensive planning strategy by Tribal governments and 
associated gaming developers. A responsible Tribal government, without 
question, would investigate in detail the advantages and drawbacks of 
developing a casino at any location within the United States. It is 
common sense human resource issue when speculating on farther distance 
and employment opportunities for Tribal members. Issues of housing, 
health care, schools, fire protection, law enforcement, etc. 
undoubtedly require appropriate government-to-government relations 
between the Tribe and local officials to ensure that the area being 
considered for gaming operations would benefit the existing local 
community and Tribal members desiring to transplant their families 
where employment opportunity would be available.
    The inclusion of the local citizenry, business enterprises, and 
government officials in the process of developing a casino in a 
traditional/service area is an expectation Tribes would in probability 
be considered a priority in the formulation of a comprehensive gaming 
development scenario. Disruption of a traditional community/service 
area denotes a negative development rather than a progressive economic 
development initiative by an Indian Tribe. The overall benefits to a 
local economy may well outweigh the issues associated with 
``disruption.''

Question 4. If landless, shouldn't land-into-trust be restricted to 
        the area where the tribe is located? Where they live, need 
        jobs, need health care and services?
        a.  Designation as a Landless Tribe has the obvious implication 
        that they have not attained the status of a federally 
        recognized tribe with all associated government-to-government 
        experience and network of formal relations with existing Tribal 
        governments, local communities, and other entities in the 
        various geographic areas across the United States. Upon 
        attainment of federal recognition, it would seem appropriate to 
        locate landless Tribes on land-into-trust lands on or near 
        current established communities or land specified in acts of 
        Congress federally recognizing applicant Indian Tribes.
    Landless applicant Tribes granted federal recognition is a 
monumental achievement in their respective history and is usually the 
culmination of years persistence to officially restore their honor and 
dignity in the family of Indian nations. It is unimaginable that a 
prospective Tribal applicant for federal recognition would neglect or 
overlook issues related to jobs, health care and any other type of 
services that are required to allow a community to develop and 
flourish. Applicant Tribes would most certainly have developed an 
extensive and rich knowledge base of the full range of issues 
intricately and necessarily associated with status of federally 
recognized ``Indian Nationhood.'' Consulting directly with ``newly'' 
established Indian nations would be in accordance to long history of 
progressive developments in the area of federal Indian policy with an 
emphasis on Indian self-determination, self sufficiency and sovereignty 
as guideposts to government-to-government relations.

Question 5. If some tribes are permitted to select the ``best gaming'' 
        locations, wouldn't all tribe want to do that?
    It is incomprehensible that the general American public and U.S. 
Congress would authorize some Tribes to select the ``best gaming'' 
locations in an arbitrary manner or to the advantage of some Tribes 
over others. To enact legislation with a process where one Tribe is 
allow significant advantage over other Tribes has the appearances of 
``conquer and divide the Indian nations.'' A probable ``backlash'' 
against Indian gaming would assuredly ensue and a disruption in 
intertribal relations would become common place.
    An overwhelming compelling argument by some Tribes to be allowed an 
advantage of a ``best location'' for a gaming operation would need 
strong general consensus by all impacted stakeholders, especially 
Indian Tribes in the area of taking land-into-trust. Opportunists of 
every type would initiate contacts with Tribes seeking ``gaming 
riches'' near metropolitan areas in the United States. Of course the 
above commentary is directed toward the theoretical scenario of 
allowing some Tribes an advantage.
        a.  What about tribes that played by the rules and have their 
        casino on their reservation land, even though it may not be the 
        best gaming location?
    Commenting on a theoretical scenario of allowing Tribes to shop for 
a best location for a casino has an element of fear and distrust that 
is unmistakable. Indian nations over time and with the evolution of 
federal Indian policy has, in general, not strengthened the sovereignty 
of Indian nations; has not satisfactorily met the seemingly elusive 
goals of Indian self-determination and self-sufficiency; and, has not 
raised the quality of life, in western standards of living, for the 
majority of Indian people especially when poverty indicators suggest 
that Indian people: Have shorter life spans; have higher rates of 
infant mortality, suicides, accidental deaths related to substance 
abuse, incarceration in jails/prisons, unemployment, etc.; and, the 
capital expenditures for education, healthcare, fire protection, law 
enforcement services, and other necessary services is declining in 
proportion to one the fastest growing ethnic groups in the most recent 
U.S. Census.
    The past cannot be relived and starting point for a scenario of 
allowing Tribes a best location must begin with an extensive and open 
dialogue with Indian Tribes. Tribes that have played by the rules and 
operate casinos on their current reservation lands, with not so good of 
a gaming location, need to express their concerns at each available 
opportunity in order add their legitimate interests into cauldron of 
concerns and opinions from a wide array of individuals and organization 
both private and public.

Question 6. Please comment on how the federal campaign contribution 
        laws apply to tribes and the fact that tribes are exempt from 
        overall donor limits and can give directly from their 
        treasuries. No other organization is similarly situated.
    Tribal governments may need to be subject to the federal campaign 
contribution laws, if it is demonstrated that Tribes are violating 
applicable law, and since some Tribes have become highly successful and 
have discretionary funding to advance their interests at various 
governmental levels, they have become an added factor in arena of 
partisan politics. The Tribal leaders of Indian nations have the 
responsibility of enacting Tribal law to regulate the levels of 
campaign contributions also, this is the essence of Indian self-
determination and self-government. Most Tribal governments have very 
limited financial resources and Tribal leaders need to be conscientious 
of the levels of funding resources in their respective Tribal 
treasuries.
    During the oversight hearing before the House Resources Committee, 
Chairman Pombo posed a question to me, as a witness on a panel, ``why 
did the Northern Cheyenne Tribe reject Steve Hilliard's proposal?'' in 
reference to a similar proposal for a land claim settlement in exchange 
for a casino operation in Denver filed by the Cheyenne-Arapaho Tribes 
with the Secretary of the Interior. While I did respond during the 
hearing that ``Hilliard stood to profit enormously from the proposed 
casino operation and that the Northern Cheyenne Tribe would be in debt 
for long period of time,'' I felt that I needed to expound on my 
response to the question.
    Steve Hilliard, represented Counciltree and the Native American 
Land Group (NALG) during the deliberations with the Northern Cheyenne 
Tribe for the purpose of proposing a 27 million acre land claim 
settlement with the United States under the Ft. Laramie Treaty of 1851 
with Cheyenne and Arapaho in exchange for a 500 acre lot near the 
Denver International Airport to establish a casino operation and that, 
among other things, the tribe should also view this settlement as a 
form of reparations for the atrocities committed at the Sand Creek 
Massacre of November 29th, 1864.
    The Northern Cheyenne Tribe rejected Steve Hilliard's proposal 
because Hilliard proposed that the Northern Cheyenne Tribe circumvent 
the seven (7) year provision of IGRA pertaining to the length of 
management agreements and that NALG would have total control and that 
NCT would more or less be just a ``rubber stamp.'' Moreover, that 
Hilliard would handle the political end of things through Senator Ted 
Stevens from Alaska and that the NCT would not have to notify Senator 
Ben Nighthorse Campbell of Colorado or any other political contacts.
    Moreover, I responded to Hilliard during a session with the 
Northern Cheyenne Tribal Council in Billings that the Ft. Laramie 
Treaty of 1851 had already been settled by the Northern Cheyenne Tribe, 
Northern Arapaho Tribe and the Cheyenne--Arapaho Tribes of Oklahoma 
with U.S. Indian Claims Commission in the 1960's. Secondly, a casino 
operation can in no way be viewed as a form of reparation for the 
atrocities committed at Sand Creek and that only Congress can provide 
the reparation as promised in Article 6 of Cheyenne and Arapaho Treaty 
of Little Arkansas of 1865 and not from proceeds through some ``fly-by-
night'' casino operation.
    Having already been rejected by the Northern Cheyenne Tribe and the 
Northern Arapaho Tribe apparently did not even entertain his proposal, 
Steve Hilliard again made his pitch (this time with Cheyenne-Arapaho 
Tribes of Oklahoma) at a staff briefing facilitated by Paul Moorehead, 
Chief of Staff, Senate Indian Affairs Committee held on September 8, 
2004 that was attended by the Congressional Delegation from Colorado, 
Bill Owens, Governor of Colorado and Senator John McCain. Again, I 
responded to Hilliard that ``He was doing his best to exploit the pain 
and misery of the Cheyenne people (in reference to the Sand Creek 
Massacre, other acts of genocide and the desperate economic conditions 
of the Northern Cheyenne Reservation) and that the Northern Cheyenne 
Tribe had not been notified as to the filing of the Land Claim 
Settlement before the Secretary of the Interior,'' to date to the 
Northern Cheyenne Tribe still have not been notified.
    Answers to the questions were prepared by William Walks Along, 
Northern Cheyenne Tribal Council and Steve Brady, Co-Chair, Northern 
Cheyenne Sand Creek Massacre Site Committee.
    For any further questions please contact Otto Braided Hair at the 
Northern Cheyenne Sand Creek Office @ Ph (406)477-8026 or e-mail 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7102101f15120314141a3103101f16140614135f1f14055f">[email&#160;protected]</a>
                                 ______
                                 

Response to questions submitted for the record by The Honorable Charles 
          D. Enyart, Chief, Eastern Shawnee Tribe of Oklahoma

    Chairman Pombo, thank you for your letter dated May 17, 2005. It 
was my privilege and honor to present the story of the Eastern Shawnee 
people and our desire to return to our aboriginal homeland in Ohio to 
the Committee in April. As requested, below please find my responses to 
the specific written questions asked by Congressmen Jim Gibbons and 
Dale E. Kildee.
A. Responses to Questions Submitted by Congressman Jim Gibbons
Que stion 1. You already operate a Bingo and Casino in Oklahoma, sited 
        on top of the Missouri border yet you are attempting to acquire 
        a tribal casino in Ohio. It is my understanding that the 
        Governor of Ohio opposes your proposal, is that correct? How 
        will a casino located in Ohio employ tribal members in 
        Oklahoma?
        <bullet>  In your Chief's Report available on your web site, he 
        wrote regarding your efforts to acquire tribal gaming in Ohio, 
        declaring that ``If we are successful, this Tribe will be a 
        very wealthy Tribe.'' If you believe your casino proposal is 
        good for the Ohio community and your tribe, why not build a 
        commercial casino and compete on a level playing field--under 
        the same labor, wage and safety rules, anti-corruption 
        oversight and local, state and federal taxes as other private 
        casinos?
Answer to Question 1.
    You are correct that the Tribe currently operates an Indian gaming 
operation. The revenues from our gaming operation, BorderTown Bingo 
located near West Seneca, Oklahoma have provided us the means to make 
improvements in the lives of our people and to rekindle the hope for a 
better life for our children and grandchildren. However, the rural 
character of the land we now occupy, combined with the economic 
conditions in the surrounding area, severely restrict our economic 
potential.
    However, I disagree that we ``are attempting to acquire a tribal 
casino in Ohio.'' The Eastern Shawnee are seeking to return to our 
aboriginal homeland in Ohio. One hundred fifty years ago, the Tribe was 
driven out of its homeland: lands that now comprise the state of Ohio. 
The historical record is replete with accounts of destructive raids and 
the burning of Shawnee villages by the United States Army and the 
unauthorized taking of the Shawnee's lands by encroaching settlers. Our 
people were forcibly removed from their villages and relegated to a 
series of reservations first in Ohio, then in Missouri, and ultimately 
Oklahoma. It was an ugly and shameful period in American history. We 
want to return to Ohio because Ohio is our aboriginal homeland.
    You also assert that ``the Governor of Ohio opposes your 
proposal.'' We do no know whether this is the case. Press reports 
indicate that the Governor is generally opposed to an expansion of 
gaming in the state. We have not spoken with the Governor, and, to 
date, we do not know whether he has taken any formal position on our 
valid land claims. We do know that many local officials support Shawnee 
claims in Ohio.
    A casino in Ohio would greatly benefit the Tribe and all Ohioans. 
As you know, under the Indian Gaming and Regulatory Act (``IGRA''), 
tribal governments determine how gaming proceeds are to be spent. 
However, IGRA requires that all revenues from tribal gaming operations 
be used solely for the following purposes: (1) to fund tribal 
government operations or programs; (2) to provide for the general 
welfare of the Indian tribe and its members; (3) to promote Tribal 
economic development; (4) to donate to charitable organizations; or (5) 
to help fund operations of local government agencies. In addition, the 
Eastern Shawnee may agree to pay local municipalities where gaming will 
take place to assist them with local costs. Moreover, Indian gaming is 
a major catalyst for community growth and economic development, 
generating revenues for tribes and local communities like no federal 
stimulus effort ever has before. Indian gaming also creates jobs, 
increases economic activity and generates tax revenue for local 
communities. Finally, Eastern Shawnee gaming will increase tourism in 
Ohio and reduce the number of persons who travel to West Virginia, 
Michigan, or Indiana for gaming, keeping more money in Ohio.
    You also suggest that the Tribe should ``build a commercial casino 
and compete on a level playing field.'' We are interested in competing 
on the level playing field for all tribes already provided for by the 
Congress in the Indian Gaming Regulatory Act. Indian gaming, originally 
part of tribal ceremonies or celebrations, existed long before 
Europeans came to America. In 1987, the U.S. Supreme Court recognized a 
tribe's right to conduct certain kinds of gaming on Indian land without 
state supervision. In 1988, Congress affirmed the right of Indians to 
conduct gaming operations with the passage of the Indian Gaming 
Regulatory Act. IGRA allows tribes to do exactly what the Eastern 
Shawnee are seeking--to conduct Indian gaming which benefits the entire 
tribal community and surrounding non-Indian communities. In contrast, 
commercial gaming only benefits few private individuals. Indian gaming 
is the most heavily regulated form of gaming in the United States. 
Tribal gaming is regulated on three separate and distinct levels, in 
contrast to the single level for other commercial gaming.
    We simply seek to ensure that we have the same right as other 
Indian tribes to conduct Indian gaming under current law.

Question 2.  What criteria should be used by the Department of the 
        Interior in it's determination of land-into-trust?
        <bullet>  Should there be a requirement of substantial 
        historical connection between the tribe and the parcel to be 
        taken into trust? Why/why not?
        <bullet>  How recent should the historical connection be? 100 
        years? 200 years?
        <bullet>  What about distance from the tribe's current service 
        area? 10 miles? 20 miles? 70 miles?
Answer to Question 2.
    The Department of the Interior should determine which criteria 
should be considered as part of the land into trust process through the 
normal process of publishing proposed changes to 25 C.F.R. pt. 151 in 
the Federal Register and soliciting comments. The Tribe reserves its 
right to make comments concerning changes to the land-to-trust 
regulations until such time as the Department of the Interior may 
choose to amend those regulations. However, we have the following 
comments on your concerns:
        a.  Should historical connections be required? The Congress has 
        already determined that tribes can have land taken into trust 
        in settlement of land claims. Obviously, such lands might be 
        other than those that a tribe has an historical connection. 
        Requiring a parcel to be one with ``a substantial historical 
        connection'' to the tribe would limit the flexibility of all 
        concerned to settle a claim. It could force affected parties to 
        transfer land into trust which no one preferred. It is hard to 
        see what benefit this would be to anyone.
        b.  How recent should the historical connection be? Again, we 
        do not agree that only land with a ``historical connection'' 
        should be available for a land-to-trust transfer.
    However, the legitimacy of our historic and cultural ties to Ohio 
is undeniable. The facts do not support changing the law. There have 
only been three instances in which land outside an Indian reservation 
have been taken into trust for purposes of gaming since IGRA was 
enacted in 1988: (1) in 1990 the Forest County Potawatomi Community in 
Wisconsin obtained 15.69 acres of land in trust 250 miles from its 
reservation through a two-part determination; (2) in 1997, the Kalispel 
Indian Community in Washington obtained 40.06 acres of land in trust 60 
miles from its reservation through a two-part determination; and (3) in 
2000, the Keweenaw Bay Indian Community in Michigan obtained 22.00 
acres of land in trust 70 miles from its reservation through a two-part 
determination. IGRA and the land-to-trust process are not broken. There 
is no problem that Congress needs to address.

Question 3.  This Committee has held hearings on legislation that 
        would allow a Tribe to go hundreds of miles off their 
        reservation and open a casino in the ancestral lands of another 
        Tribe. Do you have any specific suggestions on how Congress 
        should proceed in this regards?
         Also, with over 300 tribes seeking recognition and presumably 
        gaming, please comment on the impact that a policy permitting 
        ``reservation shopping'' and ``off-reservation gaming'' will 
        have on communities across the country.
Answer to Question 3.
    The Tribe believes that, like every other tribal nation, our 
situation is unique. Each tribe and piece of land has its own history. 
It is very difficult for a tribe with existing lands to get new, non-
reservation contiguous land for gaming. Since 1988, only 36 gaming or 
gaming related trust acquisitions have been approved. Only three tribes 
have successfully been able to take land into trust and open Indian 
gaming facilities on lands that are outside of their reservation 
boundaries. Each particular situation must be considered on its own 
merits. The best way for a tribe to succeed in securing off-reservation 
lands into trust for purposes of gaming is where there are willing 
parties: with state, tribal, local government, and community support.
    The Eastern Shawnee are not ``reservation shopping'' and view that 
phrase as a misnomer. We also do not agree that the ``over 300 tribes 
seeking recognition'' are doing so to conduct gaming, as you suggest. 
We do not know why certain tribes are seeking recognition or why 
certain tribes seek land into trust. However, there are many important 
sovereign rights that hinge on federal recognition. Numerous factors 
come into play--we suggest that gaming is often not one of them. As for 
the Eastern Shawnee, we are already a federally recognized tribe. We 
are pursuing claims in Ohio because Ohio is our aboriginal homeland.

Question 4.  If landless, shouldn't land-into-trust be restricted to 
        the area where the tribe is located? Where they live, need 
        jobs, need health care and services?
Answer to Question 4.
    We believe the current exception in IGRA dealing with land 
acquisitions for ``landless'' tribes is sufficient and does not need to 
be amended. However, ``landless'' tribes should be consulted on this 
matter. The Eastern Shawnee is fortunate not to be a landless tribe. 
Therefore, we do not feel as though it would be appropriate to comment 
on statutory changes that do not affect the Tribe. Needless to say, 
however, economic development and economic diversification for Tribes 
and tribal communities are critically important regardless of where 
that economic engine is located. The only way for tribes to break the 
cycle of poverty and achieve self-governance is through economic 
development. Indian gaming has been a crucial and successful means of 
providing such a means to achieve tribal self-sufficiency and tribal 
economic development. It can produce revenues that can be used for 
jobs, health care and services for tribal members wherever they reside.

Question 5.  If some tribes are permitted to select the ``best 
        gaming'' locations, wouldn't all tribes want to do that? What 
        about tribes that played by the rules and have their casino on 
        their reservation land, even though it may not be the best 
        gaming location?
Answer to Question 5.
    We do not know what tribe you are referring to when you speak of 
tribes seeking the ```best gaming' locations.'' We cannot speak for 
other tribes. The Eastern Shawnee seek to return to our aboriginal 
homeland in Ohio. We are not seeking ``some abstract ``best gaming'' 
locations.'' We are not pursuing claims in New York, for instance. We 
are seeking to settle our claims to aboriginal lands we once occupied. 
One way to do that is to accept lands in settlement of those claims 
that might be suitable for gaming.
    We disagree with your suggestion that certain tribes may not be 
``playing by the rules.'' To our knowledge, all tribes are playing by 
the rules as set out by Congress. Since 1988, only 36 gaming or gaming 
related trust acquisitions have been approved. Only three tribes have 
successfully been able to take land into trust and open Indian gaming 
facilities on lands that are outside of their reservation boundaries. 
Thirty applications for gaming or gaming related acquisitions are 
pending, only ten of which involve so called ``off reservation'' 
acquisitions. These numbers are minuscule given the fact that there are 
more than 560 federally recognized tribes in the United States. All 
these tribes have played by the rules as created by Congress and 
implemented by the Department of the Interior. We are simply seeking to 
ensure that we have the same right as other Indian tribes to conduct 
Indian gaming under current law.

Question 6.  Please comment on how the federal campaign contribution 
        laws apply to tribes and the fact that tribes are exempt from 
        overall donor limits and can give directly from their 
        treasuries. No other organization is similarly situated.
Answer to Question 6.
    We do not see how this question is relevant to scope of the April 
27, 2005, hearing on ``Tribal Proposals to Acquire Land in Trust for 
Gaming Across States Lines, and How Such Proposals are Affected by the 
Off Reservation Discussion Draft Bill'' or my testimony before the 
Committee. Nevertheless, we answer generally as follows.
    Indian tribes engage in a government-to-government relationship 
with the United States and represent a number of tribal people, thus 
they are defined as an unincorporated entity according to the Federal 
Election Commission (``FEC''). This relationship makes tribes unique. 
As such, Indian tribes are generally able to donate to election funds 
assuming that each donation does not exceed the limits set by the FEC.
    A tribe may use its general treasury funds to contribute directly 
to federal candidates (and to Indian PACs which will give to federal 
candidates), under the following conditions: (1) the tribe is 
unincorporated and its primary purpose is not to make political 
contributions; (2) the tribe, or any business operated within the 
tribal structure, is not a federal contractor with procurement 
contracts; (3) any revenues from a tribal corporation must not be 
commingled with tribal treasury funds to be used to make contributions 
to federal candidates; and (4) the federal funds the tribe receives 
under Pub. L. 638 contracts and federal grants must be kept separate 
from, and not commingled with, general treasury funds to be used for 
federal contributions. If the above conditions are met, the tribe may 
use its general treasury funds to contribute ``hard'' money, subject to 
the same federal limits that apply to any person's contributions. 
``Hard'' money contribution limits apply to tribes because a tribe is 
treated as a ``person'' under federal election law, but not as an 
``individual'' for the purposes of the applicable federal aggregate 
limits.
B. Responses to Questions Submitted by Congressman Dale E. Kildee

Question 1.  Please explain whether you believe the current federal 
        administrative process for taking land into trust and those 
        requirements of the Indian Gaming Regulatory Act are sufficient 
        to prevent a tribe from building a gaming facility on land far 
        away from its existing reservation where the tribe may not have 
        an historical or ancestral connection to the land?
Answer to Question 1.
    We believe the current law and the current process work as 
intended. The Tribe further believes that, like every other situation, 
ours is unique. Each piece of land has its own history and so it is 
with each tribe. Each particular situation must be considered on its 
own merits. This process works.

Question 2.  Do you believe a tribe should have an historical 
        connection to the land on which it seeks to building a gaming 
        facility?
Answer to Question 2.
    Again, we believe that like every other situation, ours is unique. 
Only so many tribes have a historic or cultural connection to any given 
state. Each piece of land has its own history and so it is with each 
tribe. Each particular situation must be considered on its own merits.
    For the Eastern Shawnee, there is no question that Ohio is our 
homeland. The Eastern Shawnee seek to reestablish a presence in Ohio as 
part of a welcome and mutually beneficial relationship conducted on a 
government-to-government basis both with the State and the local 
governments that may one day be our neighbors once again.
    We do wish to finally resolve our outstanding land claims, but not 
in a manner that will be detrimental to the people of Ohio. Those with 
whom we have established a relationship understand our intentions and 
have welcomed us into their communities to discuss the potential for 
tribal gaming. In fact, local communities in the state of Ohio have 
actively sought out the Tribe and asked us if they can help bring the 
Shawnee back to our homeland. We are committed to working through 
appropriate governmental channels in Ohio to ensure that we are 
welcomed back to our homeland. We do not believe a tribe need have a 
historical connection to the specific parcel of land on which a gaming 
facility is sited. To so require, would tie the hands of all those 
involved in attempting to settle claims. It might require the 
displacement of current owners of historical land rather than allowing 
flexibility in choosing land to settle the claims.

Question 3.  What would you recommend as the standard for determining 
        whether a tribe has an historical connection to the land?
Answer to Question 3.
    We do not believe we are in a position to suggest a ``standard'' 
for determining whether a tribe has ``an historical connection to the 
land.'' Many factors may come into play. For instance, issues such as 
whether a tribe had a reservation, villages, or hunting and fishing 
rights in a particular state may be relevant. Each particular situation 
is unique must be considered on its own merits.

Question 4.  Should a tribal land claim resolved by the Indian Claims 
        Commission, Court of Claims, Congress or other forum involving 
        land in a state where a tribe once occupied, but is no longer 
        situated, prevent a tribe from claiming that it has an 
        historical connection to that land for purposes of building a 
        gaming facility there?
Answer to Question 4.
    ``Land claims'' per se were not resolved by the Indian Claims 
Commission. The Indian Claims Commission had limited jurisdiction. The 
Commission was created by the Indian Claims Commission Act of 1946, 25 
U.S.C. Sec. 70 et seq., in order to resolve claims for compensation for 
lands that were taken by the United States from tribes without just 
payment. Tribes, and the persons who advanced claims on behalf of 
tribes, had to present evidence of aboriginal use and occupancy of 
lands that were normally memorialized in findings of fact of the 
Commission. If the Commission found evidence of exclusive use and 
occupancy for a certain period of time, the Commission would normally 
award some nominal compensation. However, the Indian Claims 
Commission's final orders only dealt with compensation, not 
determinations of unresolved land claims, land title or use rights.
    For instance, the Indian Claims Commission was not empowered to 
resolve claims concerning violations of the Nonintercourse Act, 25 
U.S.C. Sec. 177, or claims concerning trespass or wrongful possession. 
There is no federal statute of limitations governing federal common-law 
actions by Indians to enforce property rights. Therefore, we do not 
believe that the Indian Claims Commission should be used as a vehicle 
to deny an ``historic connection'' to land. However, Commission 
findings of fact concerning use and occupancy of lands by tribes may be 
considered as a factor, among others, that Congress or the Department 
of the Interior may wish to consider as evidence of historical 
connection to a particular place.

Question 5.  Please describe any tribal claims against the federal 
        government that have been initiated by your tribe or resolved 
        by the Indian Claims Commission, Court of Claims, Congress or 
        any other forum arising in the state in which you propose to 
        build a gaming facility?
Answer to Question 5.
    Because the Tribe may end up in litigation concerning its claims in 
Ohio, we do not believe it would be appropriate for the Tribe to 
discuss these matters in detail at this time. However, some claims were 
initiated by persons acting as representatives of the Eastern Shawnee, 
the Absentee Shawnee, and individual members of the Shawnee Tribe. See 
generally, ICC Docket No.64, 64-A, 335 and 338. As discussed below, in 
that litigation the Indian Claims Commission did determine that the 
Shawnee aboriginally used and occupied vast areas of what is now the 
state of Ohio. Additional research also supports that determination.
    The areas found to be Eastern Shawnee lands included what is know 
as Central Royce Area 11. This area is bounded on the east and the 
south by the Ohio River, on the west by the drainage between the Scioto 
River and the Great Miami and little Miami Rivers (which may be 
described as a north/south line from northeastern Logan County on the 
Greenville Treaty line to the southeastern corner of Brown County on 
the Ohio River), and on the north by the Greenville Treaty line from a 
point in northeastern Logan County east to the northeast corner of Knox 
County. Strong v. United States (Dkt. Nos. 64, 335 & 338), 31 Ind. Cl. 
Comm. 89, 157 n. 6 (1973), Strong v. United States, 518 F.2d 556 (Ct. 
Cl. 1975), cert. denied, 423 U.S. 1015 (1975). The predominant 
topographical feature of this region is the Scioto River which flows 
into the Ohio River at present-day Portsmith and the Scioto's 
tributaries. Id. In central Royce Area 11 ``the Shawnees were 
predominant.'' Id. at 98. ``[T]he Shawnees continuously used and 
occupied [central Royce Area 11] from the late 1730s until they were 
forced to abandon these lands in the late 1770s.'' Id. at 122. Until 
they were forced out in the late 1770s, the Indian Claims Commission 
concluded that ``the Shawnees had established Indian title to the area 
bounded on the north by an east-west line running along the 40 north 
latitude and on the south by a straight line running from the City of 
Athens in Athens County west to the town of Highland in northern 
Highland County, and bounded on the east and west by the lines 
described in the aforementioned footnote as the east-west boundaries of 
central Royce Area 11.'' Id. at 123, 136.
    In addition, the Indian Claims Commission noted that the Shawnee 
were known to have hunted extensively in this area and had ``as many as 
sixteen villages on the upper Great Miami River and its tributary, the 
Mad River.'' Id. at 123. The Indian Claims Commission also acknowledged 
that the ``Shawnees are also known to have hunted extensively in 
western Royce Area 11. Id. at 125. Moreover, the Indian Claims 
Commission noted that archaeological evidence from sites around 
Cincinnati indicates the possible presence of Shawnee or Shawnee-
related Indians at an early date in the area (approximately 1660). Id. 
at 153 n.2. In Docket No. 64-A, the Indian Claims Commission affirmed 
Shawnee aboriginal possession and determined that the Shawnee held an 
undivided one-tenth interest in Royce Area 87 (northwest Ohio). Strong, 
43 Ind. Cl. Comm. at 331.

Question 6.  Please provide the details if your tribe has shared a 
        judgment award granted by the Indian Claims Commission, Court 
        of Claims, Congress or any other forum with other bands, tribes 
        or groups for tribal claims arising in the state in which you 
        propose to build a gaming facility. And, please explain whether 
        you believe those bands, tribes, or groups, if federally 
        recognized as an Indian tribe, should have the same opportunity 
        to build a gaming facility in the same area where your tribe 
        proposes to build a gaming facility?
Answer to Question 6.
    Please see answer to Question 5 above. The plaintiffs in the Strong 
litigation accepted $1,745,146.86, a little more than one dollar an 
acre, for compensation of the Shawnee's exclusive ownership of 
1,667,496 acres in present-day Ohio. Strong v. United States, Findings 
of Fact On a Compromise Settlement, 40 Ind. Cl. Comm. 161, 161, 173 
(1977) (Dkt. Nos. 64, 335, and 338). The plaintiffs were generally 
descendants of five ``Shawnee'' groups, known as ``septs''. The five 
septs are as follows: Chillicothe (Calaka, Chalaakaatha, Chalahgawtha); 
Hathawekela (Oawikila, Thaawikila, Thawegila); Kispoko (Kiscopocoke, 
Kispokotha, Spitotha); Mequachake (Maykujay, Mekoce, Mekoche); and the 
Piqua (Pekowi, Pequa). We note that this settlement has nothing to do 
with the lands or other claims at issue in our present claim. The three 
plaintiff groups involved in the ICC case included the Eastern Shawnee, 
Absentee Shawnee, and Cherokee Shawnee. Of these, only two (i.e., 
Eastern Shawnee and Absentee Shawnee) are federally recognized tribes.
    No other tribes have made a claim for lands in Ohio and no other 
tribe has a similar history of such gross injustice in the state. In 
addition, the state of Ohio and the Eastern Shawnee may enter into a 
compact to limit Indian gaming to just the Eastern Shawnee on lands 
that the Tribe may obtain in settlement of its claim. We do wish to 
finally resolve our outstanding land claims, but not in a manner that 
will be detrimental to the people of Ohio.
    Thank you for the opportunity to answer the Committee's questions.
                                 ______
                                 

    Response to questions submitted for the record by Craig Foltin, 
                      Mayor, City of Lorain, Ohio

    Thank you for your letter of May 17, 2005 seeking my responses to 
Representative Gibbons' questions in follow-up to the Committee's 
recent hearing on ``off-reservation'' gaming. It was a privilege to 
testify before the House Resources Committee to present our view that 
the Indian Gaming Regulatory Act should not be amended to preclude 
tribe's from establishing ``off-reservation'' gaming facilities. We 
hope that our testimony was useful in establishing that there are many 
good reasons to leave the door open to Indian gaming in cities such as 
ours that would welcome a tribe such as the Eastern Shawnee to re-
establish a presence in its aboriginal homeland. In our view, the 
complete elimination of such opportunity benefits neither tribal or 
state and local governments. As the law stands today, the opportunity 
exists, but may only be realized if the ends are desired by tribal, 
local and state governments. Accordingly, it is my pleasure to respond 
to the questions posed by Congressmen Gibbons.

1.  This Committee has held hearings on legislation that would allow a 
        tribe to go hundreds of miles off their reservation and open a 
        casino in the ancestral lands of another Tribe. Do you have any 
        specific suggestions on how Congress should proceed in this 
        regards?
    In our view, the law as currently in place, is appropriate and 
should not be changed. We believe that it is important for Congress to 
understand that the proposed changes in the legal framework not only 
restrict opportunities for Indian tribes, but also those of state and 
local governments. In addition to the economic benefits that a 
distressed city such as ours would derive from the establishment of a 
gaming operation generally, Indian gaming provides certain advantages 
that are absent in the context of commercial gaming.
    From a public policy perspective, a major issue in relation to 
commercial gaming is the question of how to limit proliferation. While 
some communities might embrace the establishment of a gaming 
destination, many of these same communities would not approve of 
multiple sites or the introduction of gaming machines in every bar or 
restaurant. Moreover, the greater the number of gaming locations, the 
greater the regulatory burden and the potential for abuses. However, it 
is more difficult to place legislative parameters on the proliferation 
of commercial gaming given Constitutional and other legal constraints.
    If you were to proceed with changes, I would suggest an allowance 
for off reservation gaming if approved by the local government or even 
a vote of the citizens of a local government.
        <bullet>  Also, with over 300 tribes seeking recognition and 
        presumably gaming, please comment on the impact that a policy 
        permitting ``reservation shopping'' and ``off-reservation 
        gaming will have on communities across the country.
    Use of the term ``reservation shopping'' presumes that tribes are 
unilaterally seeking to establish gaming operations outside of their 
present geographic locations. In the case of the Eastern Shawnee, it 
was the City of Lorain that made the initial contact with the Tribe. 
The fact that the law provides a means for a tribe to return to its 
aboriginal homeland also provides a means for cities and states to 
reach out to tribes to establish political and economic relationships 
of mutual benefit to both parties. I again would suggest allowing the 
local government to have a choice in the matter.

2.  When tribes seek to enter already established gaming areas, doesn't 
        that create an uneven playing field since tribes art not 
        subject to state regulations; are not subject to the 
        restrictions placed on other gaming establishments; do pay not 
        state taxes; etc.?
    As there are no federally recognized Indian tribes located within 
the State of Ohio, the issue of having a tribe enter an established 
gaming market of another tribe is not applicable to our particular 
situation. Ohio state law, however, does provide for a state lottery, 
horse racing, and charitable gaming. Since the establishment of Class 
III tribal gaming requires a tribal-state compact, however, the state 
has a means to work with the Tribe to resolve any issues that may arise 
in relation to competition among the various gaming interests in Ohio. 
As to state regulation, the requirement for a tribal-state gaming 
compact in the IGRA serves as a mechanism for the tribe and a state to 
mutually agree upon the scope of state regulation, hence IGRA does 
provide a mechanism for state regulation in relation to tribal gaming. 
On the tax issue, it is true that tribes may not be taxed by state and 
local governments, but tribes as a routine matter compensate state and 
local jurisdictions for the delivery of governmental services by means 
of payments in lieu of taxes and IGRA permits revenue sharing with 
states to off-set the regulatory costs associated with tribal gaming 
facilities pursuant to mutual agreement through the compacting process. 
Moreover, tribes and states and local governments routinely enter into 
additional compacts to address other taxation issues, such as the 
collection and remittance of state taxes on employees of tribal gaming 
operations as tribal employees are not exempt from state and federal 
income taxes as a general rule. In our case, we have addressed these 
concerns with the Eastern Shawnee Tribe to our mutual satisfaction.

3.  What criteria should be used by the Department of the Interior in 
        it's determination of land-into-trust?
    We understand that the Interior Department has a longstanding 
regulatory framework for taking land into trust for tribes and has 
issued a proposed rule governing the taking of land into trust for 
tribes for purposes of gaming under Section 20 of IGRA. We believe that 
the policies reflected in the existing regulatory framework as well as 
in the proposed Section 20 regulation adequately address concerns in 
this regard.
        <bullet>  Should there be a requirement of substantial 
        historical connection between the tribe and the parcel to be 
        taken into trust? Why or why not?
    We understand that the Interior Department at least informally 
already requires such a connection and can readily address this issue 
through the rulemaking process.
        <bullet>  How near in time should the historical connection be? 
        100 years? 200 years?
    Our view is that any specific requirement for a historical 
connection should not be subject to an arbitrary timeframe, but rather 
be focused on whether the area constitutes the aboriginal territory of 
the tribe. We understand that the Indian Claims Commission decades ago 
established a map demarcating the aboriginal territories of tribes 
based on archeological and anthropological data. This information could 
be used as a basis for determining an historic nexus between tribes and 
particular sites.
        <bullet>  What about distance from the tribe's current service 
        area? 10 miles? 20 miles? 70 miles?
    Such a limitation on distance would preclude the Eastern Shawnee 
Tribe from establishing a gaming facility in the City of Lorain or any 
other site in Ohio. Accordingly, we would not be supportive of a 
distance restriction.
        <bullet>  Do you believe that the farther away the casino site 
        is, the less likely tribal members will be able to take 
        advantage of employment opportunities with a casino? 
        [Alternatively, if the tribal members move near the casino to 
        get jobs, then will the traditional community/service area be 
        disrupted?]
    In our view, it is true that the City of Lorain would likely derive 
greater direct benefits from the establishment of an Eastern Shawnee 
tribal gaming facility than will the Eastern Shawnee Tribe in terms of 
increased employment, jobs, related business development, increased 
tourism, and the income tax on employees of the facility. However, the 
benefit to the Tribe is that the revenue potential from a facility in 
the City of Lorain or any site in Ohio is vastly greater than possible 
if the Tribe were restricted to gaming in its current largely rural and 
underdeveloped location.
    While the City would welcome members of the Tribe and anticipate 
that some may desire to relocate to work at the facility, we view it as 
highly unlikely that the entire general membership would relocate to 
Ohio. Our view is that the Tribe will more likely invest its revenues 
so as to improve the quality of life and economy of its members 
residing in Oklahoma. Moreover, we believe that achieving a higher 
level of prosperity will strengthen, not weaken the tribal community.

4.  If landless, shouldn't land-into-trust be restricted to the area 
        where the tribe is located? Where they live, need jobs, need 
        health services?
    See previous answer. We believe the Eastern Shawnee have an 
opportunity not only to dramatically improve its own economic 
conditions, but those of non-tribal communities in both Oklahoma and 
Ohio. Therefore, we believe such restrictions would not be good and 
prevent Lorain from improving its own condition.

5.  If some tribes are permitted to select the ``best gaming'' 
        locations, wouldn't all tribes want to do that?
    In our view, all communities want to maximize their economic 
potential. Such desire, however, is not determinative of whether a 
tribe will succeed in establishing an ``off-reservation'' gaming site. 
The IGRA contains checks and balances that restrict the capacity of 
tribes to establish off-reservation facilities where such facilities 
are not welcome by the state and local community. The question, thus, 
is not one of what a tribe may wish, but rather whether it is able to 
meet all the legal requirements and establish the political 
relationships essential to the establishment of an off-reservation 
gaming site. Under existing law both tribes and states have the 
opportunity to establish mutual beneficial relationships; but there is 
no guarantee that such opportunity will be realized in the absence of 
willing parties to the relationship.
        <bullet>  What about tribes that played by the rules and have 
        their casino on their reservation land even though it may not 
        be the best gaming location?
    All tribes must comply with the law and implementing regulations. 
The IGRA does not restrict the opportunity for tribes with existing on-
reservation sites from seeking to establish off-reservation gaming 
sites as well. Again, however, it does not guarantee any particular 
tribe success in such endeavor. We feel an Indian Casino in Lorain, 
Ohio would not negatively impact any gaming facilitates on any 
reservations.

6.  Please comment on how the federal campaign contribution laws apply 
        to tribes and the fact that tribes are exempt from overall 
        donor limits and can give directly from their treasuries. No 
        other organization is similarly situated.
    We respectfully decline comment as we are unfamiliar with the law 
in this regard.
    Thank you again for the opportunity to provide additional comments.
                                 ______
                                 

 Response to questions submitted for the record by John Warren Kindt, 
                   Professor, University of Illinois

Question 1:  This Committee has held hearings on legislation that 
        would allow a tribe to go hundreds of miles off their 
        reservation and open a casino in the ancestral lands of another 
        Tribe.
        <bullet>  Do you have any specific suggestions on how Congress 
        should proceed in this regard?
        <bullet>  Also, with over 300 tribes seeking recognition and 
        presumably gaming, please comment on the impact that a policy 
        permitting ``reservation shopping'' and ``off-reservation 
        gaming'' will have on communities across the country.
    Response: The honorable Member raises salient questions concerning 
the extensive and rapid spread of tribal gambling facilities and their 
negative impacts upon the U.S. economy and population. One option for 
Congress is to enact legislation eliminating land-into-trust and 
prohibiting reservation shopping. Experts have maintained that 
eliminating land-into-trust is the only workable solution.
    Another option which would eliminate the many abuses of the Indian 
Gaming Regulatory Act (IGRA) would be to repeal this problematic 
legislation. For a recent example, the case of Dalton v. Pataki,----
N.E.2d----, 2005 WL 1017641 (N.Y. Ct. App., May 3, 2005) is currently 
scheduled for appeal to the U.S. Supreme Court, because it apparently 
held that IGRA preempted and superseded the ban on gambling mandated in 
the New York Constitution (see N.Y. Const., Art. I, sec. 9). 
Congressional hearings on the option of repealing IGRA would also 
provide opportunities to delimit practical alternatives to IGRA.
    Jointly and severally to acting on eliminating land-in-trust and/or 
IGRA, Congress should enact the National Tribal Gambling Impact Study 
Commission as proposed by U.S. Representatives Christopher Shays, Frank 
Wolf, et alia.
    Economics codifies that a nation cannot gamble itself rich. 
Furthermore, summary analyses of the socio-economic costs of gambling 
have continued over the years to conclude that the cost/benefit ratios 
for gambling activities are $3 in costs for every $1 in benefits (see 
Table of Studies from 22 Manag. & Decision Econ. 143, 153 (2001) which 
is attached to Prof. Kindt's testimony of April 27, 2005). In this 
context, proposals to spread tribal casino gambling would be rejected 
by objective analysts.
    Activities which are commonly termed ``reservation shopping'' and 
``off-reservation gaming'' coalesce as attempts to locate close to 
major population areas with as many slot machine/electronic gambling 
devices (slots/EGDs) as can be negotiated. These machines constitute 70 
to 100 percent of casino gambling revenues--except most notably in Las 
Vegas where this percent has had traditional limits (e.g., 50 percent) 
to keep card games with a viable market share. The Final Report of the 
1999 National Gambling Impact Study Commission noted that these 
machines were delimited by the psychological community as the crack-
cocaine of gambling addiction (see, e.g., NGISC Final Report at 5-5) 
and recommended that these machines not be located convenient to the 
public and that states ``should cease and roll back existing 
operations'' (NGISC recommendation 3.6).
    The honorable Member notes that there are currently ``over 300 
tribes seeking recognition and presumably gaming,'' but these 300 
tribes would only be the first wave of off-reservation gambling. 
Accordingly, reservation shopping and off-reservation gambling would be 
extremely detrimental to the host communities in the casinos' feeder 
markets and to the entire U.S. strategic economy.

Question 2:  When tribes seek to enter already established gaming 
        areas, doesn't that create an uneven playing field since tribes 
        are not subject to state regulations; are not subject to the 
        restrictions placed on other gaming establishments; do not pay 
        state taxes; etc.?
    Response: This question lists only some of the competitive 
advantages which tribal gambling establishments have over nontribal 
gambling establishments and also over nongambling businesses trying to 
compete for consumer dollars. Regarding one topic of the Committee's 
April 27 hearing, local business and community opposition was evidenced 
by 9,000 petitions against the Ho-Chunk casino proposal for the 
Lansing/Lynnwood area of Illinois (Chicago Tribune, Oct. 16, 2004, at 
16). On February 17, 2004, a similar Ho-Chunk casino proposal was 
defeated by a 65 to 35 percent vote of the University of Wisconsin 
academic community in Madison, Wisconsin--despite a $1.3 million Ho-
Chunk campaign against little organized opposition (see, e.g., Judith 
Davidoff, Defeated, Ho-Chunk to Refocus, Capital Times (Madison, Wis.), 
Feb. 18, 2004, at A1).
    Tribal leaders with gambling operations have been outspoken about 
protecting these competitive advantages via expanding the scope of 
tribal sovereignty. States such as Minnesota have experienced 
difficulties and friction in their dealings with tribes over their 
casinos and the practical inability to adjust compacts. The National 
Gambling Impact Study Commission complained about the ``unwillingness 
of individual tribes, as well as that of the National Indian Gaming 
Association (the tribe's lobbyists) and the National Indian Gaming 
Commission (the federal agency that regulates tribal gambling), to 
provide information to this Commission, after repeated requests and 
assurances of confidentiality, ``.'' (NGISC Final Report at 7-9). If 
enacted, the proposed legislation for a National Tribal Gambling Impact 
Study Commission could address these issues.

Question 3:  What criteria should be used by the Department of the 
        Interior in it's determination of land-into-trust?
        <bullet>  Should there be a requirement of substantial 
        historical connection between the tribe and the parcel to be 
        taken into trust? Why/why not?
        <bullet>  How recent should the historical connection be? 100 
        years? 20 years?
        <bullet>  What about distance from the tribe's current service 
        area? 10 miles? 20 miles? 70 miles?
        <bullet>  Do you believe that the farther away the casino site 
        is, the less likely tribal members will be able to take 
        advantage of employment opportunities with a casino? 
        [Alternatively, if the tribal members move near the casino to 
        get jobs, then will the traditional community/service area be 
        disrupted?]
    Response: This question poses many of the issues which arise 
involving the Department of Interior's determination of land-into-
trust. One option for serious consideration would be legislatively to 
eliminate land-into-trust because it is an unworkable concept when 
linked with gambling. Each of the honorable Member's questions raises 
definitional issues which have inherent ambiguities, such as: What 
constitutes a ``substantial historical connection''? The lobbying power 
of tribal gambling interests vis-a-vis social welfare groups almost 
guarantees that the ambiguities inherent in land-into-trust issues will 
be decided in favor of expanding tribal gambling to the public 
detriment. Legislatively eliminating land-into-trust (or at least, 
prohibiting gambling on any land-into-trust properties) would appear to 
eliminate these issues.
    With regard to jobs for Native Americans via tribal gambling 
facilities, a study sponsored by the Associated Press has raised 
significant doubts about job benefits to most Native Americans (see, 
e.g., Assoc. Press, Casino Boom a Bust for Most Members of Indian 
Tribes, News-Gazette (Champaign, Ill.), Sept. 2, 2000, at A1). The 
issue of a tribal casino's distance from the tribe's main population 
base would argue for less impact on tribal unemployment, particularly 
since middle and upper management positions reportedly tend to be 
filled by nontribal employees. However, the main job impact involves 
lost jobs in the consumer economy ``feeder markets.'' These lost jobs 
to the pre-existing consumer economy significantly outnumber the jobs 
created by the tribal casino (because of the reliance of tribal 
casinos, in particular, on slots/EGDs). These lost jobs in the consumer 
economy correlate to the numbers of slots/EGD machines.
    It has also been postulated that absent tribal gambling, none of 
the aforementioned definitional issues is really an issue. These 
concerns argue for the enactment of the proposed National Tribal 
Gambling Impact Study Commission.
    Another legislative option would be to repeal the Indian Gaming 
Regulatory Act and transform the existing gambling facilities into 
educational and practical technological facilities. Such an option may 
have to survive a challenge to the U.S. Supreme Court, but given the 
many abuses linked to IGRA and the socio-economic arguments, California 
v. Cabazon Band of Mission Indians, 480 U.S. 202 (1987) may be ripe to 
be overturned. Since IGRA was drafted and enacted on a fast track the 
year after Cabazon, IGRA's multiple defects should have been expected. 
Congress should consider repealing IGRA in anticipation of new 
legislation tempered by two decades of problematic experience.

Question 4:  If landless, shouldn't land-into-trust be restricted to 
        the area where the tribe is located? Where they live, need 
        jobs, need health care and services?
    Response: It would seem logical that land-into-trust should be 
restricted to where the tribe is located if the tribe is landless, but 
how is the ``location'' of a landless tribe initially to be delimited? 
Given the historical roaming of many tribal bands, it would be unusual 
if a band could not find some historical connection to one or more of 
today's population centers.
    The more important problem with landless tribal members is that 
tribal members can claim that individual bands should have tribal 
status or that even individual Native Americans should be recognized as 
a tribe.
    Theoretically, numerous Native Americans could eventually claim 
distinctions under their tribal law that argued for tribal status as 
separate bands, and it would be reasonable to anticipate new landless 
small bands or even individuals involved in future reservation 
shopping. Prodding this trend would be millions of dollars in 
incentives to establish Native American gambling facilities as close as 
possible to population centers. Tribes with three members or a few 
dozen members have already been recognized (see, e.g., Donald L. 
Barlett & James B. Steele, Look Who's Cashing In At Indian Casinos: 
Hint: It's Not The People Who Are Supposed To Benefit, Time, Dec. 16, 
2002, at 46 (cover story)).
    In the instance of the Ione Band of Miwok Indians, the Bureau of 
Indian Affairs (BIA) reportedly opened the membership roles in 2004 and 
``Among the new members are several BIA employees and dozens of their 
relatives.'' (Don Thompson, Assoc. Press, Seattle Times, Feb. 23, 
2004).

Question 5:  If some tribes are permitted to select the ``best 
        gaming'' locations, wouldn't all tribes want to do that?
        <bullet>  What about tribes that played by the rules and have 
        their casino on their reservation land, even though it may not 
        be the best gaming location?
    Response: From the perspective of the operators of tribal gambling 
facilities, the U.S. population centers constitute the prime gambling 
locations. By whatever justification or rationale, the ``fairness'' of 
allowing one tribe vis-a-vis another tribe to conduct gambling in the 
U.S. population centers needs to be weighed against the overall 
detriment to the consumer economy and increased criminal costs 
(summarized previously as $3 in costs for every $1 in benefits).
    Related problems involve many tribes with gambling who are 
diverting their surplus cash (or even cash which should be used to 
benefit their own members) to seek out and use other tribes as conduits 
for reservation shopping. For example, the Iowa tribe of Kansas and 
Nebraska, a small Kansas tribe with a few hundred members, is proposing 
to move their casino 236 miles from their reservation in northeast 
Kansas to Park City, which borders Wichita, the largest city in Kansas. 
Approximately 700,000 people live within the 50-mile feeder market of 
the proposed casino. However, the Mashantucket Pequot tribe of 
Foxwoods, Connecticut, will provide the necessary $270 million 
financing and operate the casino. To date, the Kansas legislature, the 
Wichita City Council, and the Sedgwick County Commission have shown no 
interest in this proposed casino. Kansas Governor Kathleen Sebelius has 
therefore refused to engage in compact negotiations with the tribe--
despite the efforts of the casino promoter retained by the tribe, a 
former Wichita mayor (see generally, Glenn O. Thompson, Casino Plan a 
Threat to Community, Wichita Eagle (Kan.), May 12, 2005).

Question 6:  Please comment on how the federal campaign contribution 
        laws apply to tribes and the fact that tribes are exempt from 
        overall donor limits and can give directly from their 
        treasuries. No other organization is similarly situated.
    Response: The honorable Member notes ``that tribes are exempt from 
overall donor limits and can give directly from their treasuries.'' The 
potential abuses have increased exponentially since the article in 556 
Annals of the Am. Acad. of Political & Soc. Sci. 85 (1998). See also, 
e.g., Editorials, N.Y. Times, Mar.1, 2002 & Apr. 4, 2002; Susan 
Schmidt, Wash. Post, Feb. 22, 2004. These types of concerns argue 
further for the need for a National Tribal Gambling Impact Study 
Commission and for the elimination of land-into-trust gambling 
acquisitions.
                                 ______
                                 
    NOTE: Responses to questions from Wade Blackdeer, Vice-President, 
Ho-Chunk Nation, and William Blind, Vice-Chairman, Cheyenne and Arapaho 
Tribes of Oklahoma, have been retained in the Committee's official 
files.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
